No. ________
IN THE

Supreme Court of the United States

d

ACE AMERICAN INSURANCE COMPANY,
AUTO-OWNERS INSURANCE COMPANY,
TRAVELERS CASUALTY AND SURETY COMPANY, et al.,
Petitioners,
—v.—
MSP RECOVERY CLAIMS, SERIES LLC,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI
NANCY A. COPPERTHWAITE
VALERIE B. GREENBERG
AKERMAN LLP
98 SE 7th Street, Suite 1100
Miami, FL 33131
(305) 374-5600
Counsel for Petitioner ACE
American Insurance Company
LORI MCALLISTER
DYKEMA GOSSETT PLLC
201 Townsend Street, Suite 900
Lansing, MI 48933
(517) 374-9100
Counsel for Petitioners AutoOwners Insurance Company,
Southern Insurance Company,
and Southern-Owners
Insurance Company

BRYCE L. FRIEDMAN
Counsel of Record
SIMPSON THACHER
& BARTLETT LLP
425 Lexington Avenue
New York, NY 10017
(212) 455-2000
bfriedman@stblaw.com
G. ERIC BRUNSTAD, JR.
DECHERT LLP
90 State House Square
Hartford, CT 01603
(860) 524-3999
Counsel for Petitioner
Travelers Casualty and
Surety Company

(Additional counsel on signature page)

i
QUESTION PRESENTED
When Medicare has made a conditional payment for
healthcare services on behalf of a Medicare beneficiary,
42 U.S.C. § 1395y(b)(3)(A) provides a cause of action to
recover double damages from certain primary payers
who have failed to reimburse Medicare. Respondent is
not Medicare, did not make any conditional payment for
healthcare services on behalf of a Medicare beneficiary,
and does not seek to recover money for reimbursement to
Medicare. Nonetheless, the Eleventh Circuit held
that Respondent has standing to bring suit under §
1395y(b)(3)(A), reasoning in part on policy grounds that
Respondent is “‘in a better position,’ when incentivized
with double damages, ‘to recover on behalf of Medicare
than the government itself.’” App. 16a (citation omitted).
In reaching its conclusion, the Eleventh Circuit neither
cited nor applied this Court’s precedents for determining
when an entity such as Respondent has statutory
standing and that establish the standing issue as a
matter of statutory interpretation. See, e.g., Fed. Election
Comm’n v. Nat’l Conservative Political Action Comm.,
470 U.S. 480 (1985); Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118 (2014). The issue is
recurring and important. The question presented is:
Should the Court grant certiorari to review and
summarily reverse the decision of the Eleventh Circuit
holding that Respondent has statutory standing to
pursue a cause of action under § 1395y(b)(3)(A), where
the court below neither cited nor applied this Court’s
precedents for determining statutory standing in
Federal Election Commission and Lexmark, and instead
based its determination on policy considerations and
general concepts of liability allocation?

ii
PARTIES TO THE PROCEEDING
Petitioners are ACE American Insurance Co., AutoOwners Insurance Co., Owners Insurance Co.,
Southern-Owners Insurance Co., and Travelers
Casualty and Surety Co.
Respondent is MSP Recovery Claims, Series LLC.
CORPORATE DISCLOSURE STATEMENT
Petitioner ACE American Insurance Co. is a wholly
owned subsidiary of INA Holdings Corp., which is a
wholly owned subsidiary of INA Financial Corp., which
is a wholly owned subsidiary of INA Corp., which is a
wholly owned subsidiary of Chubb INA Holdings Inc.,
which is owned 80% by Chubb Group Holdings Inc. and
20% by Chubb Limited. Chubb Group Holdings Inc. is
a wholly owned subsidiary of Chubb Limited, a publicly
traded corporation. No publicly held company owns
10% or more of Chubb Limited’s stock.
Petitioner Auto-Owners Insurance Co. has no
parent corporation; it is a mutual insurance company
without any stock or shareholders, and no publicly
held company owns 10% or more of it. Petitioner
Southern-Owners Insurance Co. and Petitioner
Owners Insurance Co. are wholly owned subsidiaries
of Petitioner Auto-Owners Insurance Co.
Petitioner Travelers Casualty and Surety Co. is a
wholly owned subsidiary of Travelers Insurance
Group Holdings, Inc., which is a wholly owned
subsidiary of Travelers Property Casualty Corp.,
which is a wholly owned subsidiary of The Travelers
Companies, Inc., a publicly traded corporation. No

iii
publicly held company owns 10% or more of The
Travelers Companies, Inc.’s stock.
RELATED PROCEEDINGS
United States District Court (S.D. Fla.)
MSP Recovery Claims, Series LLC v. ACE Am.
Ins. Co., No. 1:17-cv-23749 (judgment entered
Mar. 9, 2018; reconsideration denied May 18,
2018)
MSP Recovery Claims, Series LLC v. Auto-Owners
Ins. Co., No. 1:17-cv-23841 (judgment entered
Apr. 25, 2018)
MSP Recovery Claims, Series LLC v. Auto-Owners
Ins. Co., No. 1:17-cv-24069 (judgment entered
Apr. 25, 2018)
MSP Recovery Claims, Series LLC v. Owners Ins.
Co., No. 1:17-cv-24066 (judgment entered Apr.
25, 2018)
MSP Recovery Claims, Series LLC v. SouthernOwners Ins. Co., No. 1:17-cv-24068 (judgment
entered Apr. 25, 2018)
MSP Recovery Claims, Series LLC v. Travelers
Cas. & Sur. Co., No. 1:17-cv-23628 (judgment
entered June 21, 2018)
United States Court of Appeals (11th Cir.):
MSP Recovery Claims, Series LLC v. ACE Am.
Ins. Co., 18-12139 (judgment entered Sept. 4,
2020; rehearing denied Nov. 9, 2020)
MSP Recovery Claims, Series LLC v. Auto-Owners
Ins. Co. et al., 18-12149 (judgment entered
Sept. 4, 2020; rehearing denied Nov. 9, 2020)

iv
MSP Recovery Claims, Series LLC v. Travelers
Cas. & Sur. Co., 18-13049 (judgment entered
Sept. 4, 2020; rehearing denied Nov. 9, 2020)

v
TABLE OF CONTENTS

Page

QUESTION PRESENTED..........................................i
PARTIES TO THE PROCEEDING .......................... ii
CORPORATE DISCLOSURE STATEMENT .......... ii
RELATED PROCEEDINGS .................................... iii
TABLE OF APPENDICES ..................................... vii
TABLE OF AUTHORITIES ................................... viii
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
RELEVANT STATUTORY PROVISIONS ................ 2
PRELIMINARY STATEMENT ................................. 3
BACKGROUND ......................................................... 6
I.

II.

MEDICARE AND THE INCLUSION
OF § 1395Y(B)(3)(A) AS PART OF THE
MEDICARE SECONDARY PAYER
ACT .................................................................. 6
A.

Medicare as a Secondary Payer ........... 6

B.

The Medicare Advantage
Program ................................................. 8

STATEMENT OF THE CASE ...................... 10
A.

Respondent Is a Special Purpose
Litigation Vehicle................................ 11

B.

Travelers Litigation ............................ 12

C.

ACE Litigation .................................... 13

D.

Auto-Owners Litigation ...................... 14

vi
TABLE OF CONTENTS
(continued)
E.

Page

Consolidated Appeal to 11th
Circuit.................................................. 15

REASONS FOR GRANTING THE PETITION ...... 18
I.

II.

THE DECISION BELOW CONFLICTS
WITH THIS COURT’S PRECEDENTS. ....... 18
A.

The Decision Below Conflicts
with this Court’s Federal Election
Commission Line of Decisions. ........... 19

B.

The Decision Below Conflicts
with this Court’s Lexmark Line of
Decisions. ............................................ 23

THE QUESTION PRESENTED IS OF
EXCEPTIONAL IMPORTANCE. ................. 28

CONCLUSION ......................................................... 32

vii
TABLE OF APPENDICES
APPENDIX A: Opinion of the United States
Court of Appeals for the Eleventh
Circuit (Sept. 4, 2020).................................... 1a
APPENDIX B: District Court’s Opinion in
MSP Recovery Claims, Series LLC v.
ACE Am. Ins. Co. (Mar. 9, 2018) ................. 33a
APPENDIX C: District Court’s Opinion in
MSP Recovery Claims, Series LLC v.
Auto-Owners Ins. Co. et al.
(Apr. 24, 2018) ............................................. 53a
APPENDIX D: District Court’s Order Denying
Reconsideration in MSP Recovery
Claims, Series LLC v. ACE Am. Ins. Co.
(May 18, 2018) ............................................. 71a
APPENDIX E: District Court’s Opinion in
MSP Recovery Claims, Series LLC v.
Travelers Cas. & Sur. Co.
(June 19, 2018) ............................................ 76a
APPENDIX F: Eleventh Circuit’s Order
Denying Rehearing (Nov. 9, 2020) .............. 89a
APPENDIX G: 42 U.S.C. § 1395y .......................... 94a

viii
TABLE OF AUTHORITIES
Cases

Page(s)

Alexander v. Sandoval,
532 U.S. 275 (2001) ........................................ 24, 26
Allen v. Wright,
468 U.S. 737 (1984) ..............................................23
Associated Gen. Contractors v. Carpenters,
459 U.S. 519 (1983) ..............................................24
Bio–Med. Applications of Tenn., Inc. v. Cent.
States Se. & Sw. Areas Health & Welfare
Fund,
656 F.3d 277 (6th Cir. 2011) ..................................7
Bond v. United States,
564 U.S. 211 (2011) ........................................ 24, 27
Federal Election Comm’n v. Nat’l Conservative
Political Action Comm.,
470 U.S. 480 (1985) ...................................... passim
Hartford Underwriters Ins. Co. v. Union
Planters Bank, N.A.,
530 U.S. 1 (2000) ...................................... 18, 19, 20
Holmes v. Sec. Inv’r Prot. Corp.,
503 U.S. 258 (1992) ........................................ 24, 26
Humana Med. Plan, Inc. v. W. Heritage Ins. Co.,
832 F.3d 1229 (11th Cir. 2016) .................... passim
Humana Med. Plan, Inc. v. W. Heritage Ins. Co.,
880 F.3d 1284 (11th Cir. 2018) .................... passim
Ill. Brick Co. v. Ill.,
431 U.S. 720 (1977) ..............................................25

ix
TABLE OF AUTHORITIES
(continued)

Page(s)

In re Avandia Marketing, Sales Practices &
Products Liab. Lit.,
685 F.3d 353 (3d Cir. 2012) .................................16
Kansas v. UtiliCorp United, Inc.,
497 U.S. 199 (1990) ..............................................25
Langenkamp v. Culp,
498 U.S. 42 (1990) ................................................28
Lexmark v. Static Control Components, Inc.,
572 U.S. 118 (2014) ...................................... passim
Mullenix v. Luna,
577 U.S. 7 (2015) ..................................................28
Nw. Airlines, Inc. v. Transp. Workers,
451 U.S. 77 (1981) ................................................26
Transamerica Mortg. Advisors, Inc. v. Lewis,
444 U.S. 11 (1979) ................................................26
Wearry v. Cain,
136 S. Ct. 1002 (2016) ..........................................28
Statutes and Regulations
26 U.S.C § 5000 .........................................................21
42 C.F.R. § 405.920 ...................................................29
42 C.F.R. § 422.2 .......................................................10
42 C.F.R. § 422.504(i) ................................................10
42 U.S.C. § 1395ff ......................................................29
42 U.S.C. § 1395i .........................................................8
42 U.S.C. § 1395w–22(a)(1)(A) ..................................22

x
TABLE OF AUTHORITIES
(continued)

Page(s)

42 U.S.C. § 1395w-22(a)(4)..........................................9
42 U.S.C. § 1395y(b)(1)(B).........................................21
42 U.S.C. § 1395y(b)(2)(A)................................. 2, 7, 21
42 U.S.C. § 1395y(b)(2)(B).......................................2, 7
42 U.S.C. § 1395y(b)(2)(B)(i) ................................. 8, 21
42 U.S.C. § 1395y(b)(3)(A)................................. passim
Pub. L. No. 99–509, § 9319, 100 Stat. 1874 ...............8
9
Legislative History
H.R. Rep. No. 105-217, 1997 U.S.C.C.A.N. 176 .........8

1
OPINIONS BELOW
The Eleventh Circuit’s opinion (App. 1a) is
reported at 974 F.3d 1305, and its order denying
rehearing (App. 89a) is unreported. The district
court’s decision granting the motion to dismiss filed by
Petitioner ACE American Insurance Co. (App. 33a)
and its decision denying Respondent’s motion for
reconsideration (App. 71a) are unpublished but
available at 2018 WL 1547600 and 2018 WL 2316647,
respectively. The district court’s decision granting the
motion to dismiss filed by Petitioners Auto-Owners
Insurance Co., Owners Insurance Co., and SouthernOwners Insurance Co. (App. 53a) is unpublished but
available at 2018 WL 1953861. The district court’s
decision granting the motion to dismiss filed by
Petitioner Travelers Casualty and Surety Co. (App.
76a) is unpublished but available at 2018 WL
3599360.
JURISDICTION
This Court has jurisdiction under 28 U.S.C. §
1254(1). The Eleventh Circuit entered judgment on
September 4, 2020. Petitioners timely filed motions
for rehearing on September 25, 2020. The petitions
for rehearing were denied on November 9, 2020. App.
89a. This petition is timely because on March 19,
2020, this Court extended the deadline to file any
petition for a writ of certiorari due to the ongoing
public health concerns relating to COVID-19.

2
RELEVANT STATUTORY PROVISIONS
Title 42, Section 1395y(b)(3)(A), see App. 121a,
provides:
There is established a private cause of action for
damages (which shall be in an amount double
the amount otherwise provided) in the case of a
primary plan which fails to provide for primary
payment (or appropriate reimbursement) in
accordance with paragraphs (1) and (2)(A).
Title 42, Section 1395y(b)(2)(A), see App. 109a-10a,
provides:
Payment under this subchapter may not be
made, except as provided in subparagraph (B),
with respect to any item or service to the extent
that—
(i) payment has been made, or can reasonably
be expected to be made, with respect to the item
or service as required under paragraph (1), or
(ii) payment has been made or can reasonably
be expected to be made under a workmen’s
compensation law or plan of the United States
or a State or under an automobile or liability
insurance policy or plan (including a selfinsured plan) or under no fault insurance.
Title 42, Section 1395y(b)(2)(B), see App. 110a-11a,
provides in relevant part at subsection (i):
The Secretary may make payment under this
subchapter with respect to an item or service if

3
a primary plan described in subparagraph
(A)(ii) has not made or cannot reasonably be
expected to make payment with respect to such
item or service promptly (as determined in
accordance with regulations).
Any such
payment by the Secretary shall be conditioned
on reimbursement to the appropriate Trust
Fund in accordance with the succeeding
provisions of this subsection.
PRELIMINARY STATEMENT
Where the Secretary of Health and Human
Services (the “Secretary”) makes a conditional
“secondary” payment for healthcare services provided
to a Medicare beneficiary, 42 U.S.C. § 1395y(b)(3)(A)
provides a cause of action to recover that secondary
payment from the party “primarily” responsible for
the payment, plus double damages in appropriate
cases. Respondent is neither the Secretary, nor a
Medicare beneficiary, nor a person who directly
provided healthcare services to a Medicare
beneficiary, nor someone who made a secondary
payment, nor someone to whom reimbursement of a
secondary payment is due. Likewise, Respondent has
not been assigned the interests of any such person.
Rather, Respondent is a hedge-fund-backed litigation
vehicle created to leverage the double-damages
provision of § 1395y(b)(3)(A) to recover money for
itself, not Medicare.
There is no legitimate basis to conclude that
Respondent has standing to assert the private right of
action under the governing statutory scheme. Yet the
Eleventh Circuit in this case concluded that
Respondent does have standing because Congress

4
intended to confer standing to sue under
§ 1395y(b)(3)(A) when “the plaintiff has a connection
to Medicare’s unreimbursed conditional payment.”
App. 16a. Superimposing its own policy analysis, the
court below reasoned that recognizing standing for
such litigants places them “‘in a better position,’ when
incentivized with double damages, ‘to recover on
behalf of Medicare than the government itself.’” Id.
The only limitation the court below recognized is that
the relevant suit must not be purely a qui tam action.
App. 18a. Critically, in formulating this broad
“connection-based” test that no party below
advocated, the Eleventh Circuit did not cite or apply
this Court’s guiding precedents for determining
statutory standing set forth in such cases as Federal
Election Commission, 470 U.S. at 483 (language
specifically identifying who may sue governs statutory
standing), or Lexmark, 572 U.S. at 129 (where
language identifies a broad category of persons who
may sue, standing is nonetheless limited by the “zone
of interest” and “proximate causality” standards,
which federal courts must expressly apply).
The Eleventh Circuit’s disregard of this Court’s
clear precedents and guidance on statutory standing
has added fuel to a federal litigation explosion. This
dramatic expansion of standing extends well beyond
what the actual statutory text authorizes or what the
available evidence of congressional intent plausibly
supports. See Humana Med. Plan, Inc. v. W. Heritage
Ins. Co., 832 F.3d 1229, 1241 (11th Cir. 2016) (W.
Heritage I) (Pryor, J., dissenting) (demonstrating why
only private parties seeking reimbursement of the
Secretary’s payments have statutory standing). In
addition to the three cases consolidated below,

5
Respondent has filed more than 50 other cases in
federal court seeking to turn what has historically
been a question of the coordination of benefits under
Medicare’s administrative processes and state-law
liability insurance allocation schemes into a federal
cause of action for double damages that will, if
allowed, effectively turn state insurance law on its
head. Humana Med. Plan, Inc. v. W. Heritage Ins. Co.,
880 F.3d 1284, 1296 (11th Cir. 2018) (W. Heritage II)
(Tjoflat, J., dissenting) (describing decision giving
Medicare
Advantage
Organizations
statutory
standing as “a rewriting of state insurance laws”).
The issue is both recurring and vitally important.
As discussed infra, the decision below threatens to
clog the courts with unnecessary and wasteful
litigation. That will reduce Medicare efficiency and
increase insurance premiums. Further, the decision
below jeopardizes the successful and efficient claimsresolution system that has long existed between
Medicare and private insurers. If an alternative to
that system is desired, that is for Congress to
legislate, not the courts to promote through a novel
standing analysis.
Because the court below
disregarded this Court’s established precedents for
determining statutory standing, and likewise
accepted as the basis for its standing determination
reasoning this Court has rejected, certiorari and
summary reversal are appropriate.

6
BACKGROUND
I.

MEDICARE AND THE INCLUSION
OF § 1395Y(B)(3)(A) AS PART OF THE
MEDICARE SECONDARY PAYER ACT

Most of the traditional aspects of Medicare are
governed by Parts A and B of the Medicare Act. As
directed by these provisions, the Department of
Health and Human Services (“HHS”), administered
by the Secretary, pays providers for covered medical
services they offer to eligible Medicare beneficiaries.
In turn, Part C of the Medicare Act governs the
Medicare Advantage Program.
The Medicare
Advantage Program permits Medicare enrollees to
participate in insurance coverage with a Medicare
Advantage Organization (“MAO”). MAOs contract
with the Secretary to provide benefits that equal or
exceed what Medicare is required to provide. Part E
of the Medicare Act contains definitions and
exclusions. This matter involves the interpretation of
a provision of the Medicare Act—§ 1395y(b)(3)(A),
which was added as a part of the Medicare Secondary
Payer Act (“MSP Act”).
A. Medicare as a Secondary Payer
Enacted in 1980, the MSP Act addressed the
allocation of liability between Medicare and nonMedicare insurers when both are at least partially
liable for an individual’s medical costs. Prior to 1980,
Medicare paid in full the portion of medical services
for which it was responsible, leaving private insurers,
if any, “to pick up whatever expenses remained.” W.
Heritage I, 832 F.3d at 1234 (quoting Bio–Med.
Applications of Tenn., Inc. v. Cent. States Se. & Sw.

7
Areas Health & Welfare Fund, 656 F.3d 277, 278 (6th
Cir. 2011)). As a result, when both Medicare and a
private insurer were liable for the same expense,
Medicare satisfied the private insurer’s obligation to
the extent permitted under the Medicare Act, and the
private insurer paid only any remaining covered
amount.
In response to rising healthcare costs, Congress
enacted the MSP Act to “invert[]” the arrangement
described above by making “private insurers covering
the same treatment the ‘primary’ payers and
Medicare the ‘secondary’ payer.” Id. (quoting Bio–
Med., 656 F.3d at 278). As a result, Medicare benefits
are now “an entitlement of last resort” available only
if and to the extent an insurer is not liable to cover
them. Id.
Three Paragraphs of the MSP Act are directly
implicated here. Paragraph (2)(A) prohibits Medicare
from paying for items or services for which a primary
plan has already paid or can reasonably be expected
to pay. 42 U.S.C. § 1395y(b)(2)(A). The statutory
exception to this rule is codified in paragraph (2)(B),
entitled “Conditional Payment.” Id. § 1395y(b)(2)(B).
Under this exception, the Secretary may make a
“conditional payment” covering an expense for which
a primary plan may be liable to pay, but “[a]ny such
payment by the Secretary shall be conditioned on
reimbursement” by the primary payer (if in fact there
is one) “to the appropriate Trust Fund.” Id. §

8
1395y(b)(2)(B)(i). 1 Paragraph (3)(A), which was added
in 1986 and is the particular subject of this case,
provides: “There is established a private cause of
action for damages (which shall be in an amount
double the amount otherwise provided) in the case of
a primary plan which fails to provide for primary
payment (or appropriate reimbursement) in
accordance with paragraphs (1) and (2)(A).” Id. §
1395y(b)(3)(A); Pub. L. No. 99–509, § 9319, 100 Stat.
1874. By its terms, § 1395y(b)(3)(A) facilitates the
Secretary’s ability to recover secondary payments,
together with double damages in appropriate cases.
B. The Medicare Advantage Program
Part C of the Medicare Act, which is known as the
Medicare Advantage Program, was added in 1997 to
“harness the power of private sector competition to
stimulate experimentation and innovation that would
ultimately create a more efficient and less expensive
Medicare system.” W. Heritage I, 832 F.3d at 1235
(citing H.R. Rep. No. 105-217, at 585 (1997), 1997
U.S.C.C.A.N. 176, 205-06 (Conf. Rep.)). Under this
program, a private insurance company operating as
an MAO is authorized to provide Medicare benefits
under contract with the Secretary. The MAO must
offer at least the same benefits that enrollees would
be entitled to receive under traditional Medicare, and

1 The term “Trust Fund” refers to the Federal Hospital Insurance

Trust Fund of the Treasury of the United States. 42 U.S.C. §
1395i(a).

9
in exchange the Secretary pays the MAO a fixed fee
per enrollee.
Part C includes a section entitled “Organization as
secondary payer.” This section expressly references
the MSP Act and provides that an MAO
may (in the case of the provision of items and
services to an individual under a [Medicare
Advantage] plan under circumstances in which
payment under this subchapter is made
secondary pursuant to section 1395y(b)(2) of
this title) charge or authorize the provider of
such services to charge, in accordance with the
charges allowed under a law, plan, or policy
described in such section—(A) the insurance
carrier, employer, or other entity which under
such law, plan, or policy is to pay for the
provision of such services, or (B) such
individual to the extent that the individual has
been paid under such law, plan, or policy for
such services.
42 U.S.C. § 1395w-22(a)(4).
The effect of § 1395w-22(a)(4) is arguably to place
MAOs in essentially the same position as the
Secretary with respect to secondary payments. W.
Heritage I, 832 F.3d at 1238. Like the Secretary,
MAOs are permitted to make conditional payments to
healthcare providers for expenses that a primary
payer is obligated to pay (in whole or in part), subject
to reimbursement from the primary payer.
Under the MSP Act, MAOs may also enter into
contracts with other entities to perform various

10
functions (e.g., administrative services). 42 C.F.R. §
422.2 (defining MAO contracting entities); id. §
422.504(i) (describing basic requirements for MAO
subcontracts).
II.

STATEMENT OF THE CASE

Respondent is neither the Secretary nor an MAO.
Likewise, Respondent is neither a direct Medicare
provider nor a Medicare beneficiary.
Further,
Respondent has not made any conditional payments,
nor does Respondent seek to recover amounts for
Medicare. Rather, as detailed below, Respondent is a
litigation vehicle created to bring lawsuits against
primary payers in order to attempt to access the
double damages feature of § 1395y(b)(3)(A).
In the three cases resolved by the ruling below, the
district court stated that statutory standing under §
1395y(b)(3)(A) belongs to (i) a Medicare beneficiary,
(ii) an MAO, or (iii) a direct healthcare provider. App.
45a; App. 63a; App. 85a-86a. Regardless of whether
this list captures precisely the universe of parties with
standing to sue under the statute, or is simply a list of
those that arguably have standing under a generous
reading of the statute—an issue this Court need not
decide—it is clear that Respondent is none of these
entitles. Nor is Respondent the assignee of any of
these entities. At best, Respondent asserts merely an
exceedingly tenuous “connection” to the Medicare

11
system. Under this Court’s precedents, Respondent
clearly lacks statutory standing to bring suit.
A. Respondent Is a Special Purpose
Litigation Vehicle
Respondent is a Delaware limited liability
company created for the purpose of filing putative
class actions against insurance companies under the
MSP Act. Like dozens of other cases Respondent has
brought against various insurers, Respondent’s
complaints alleged that it was assigned the litigation
claims of entities that are not themselves MAOs, but
have entered into various relationships with MAOs.
The complaints sought the recovery of supposedly
unreimbursed conditional payments or costs incurred
by subcontractors, and demanded double damages
under § 1395y(b)(3)(A). Critically, Respondent is not
a debt-collector actively seeking to recover
unreimbursed secondary payments for the benefit of
Medicare, an MAO, a direct provider of Medicare
benefits, or a Medicare beneficiary.
Rather,
Respondent is an entity created to isolate and recover
for its own benefit a claim for double damages under
§ 1395y(b)(3)(A) that Respondent purchased from a
subcontractor of an MAO. Because that subcontractor
itself is neither the Secretary, an MAO, a direct
Medicare provider, nor a Medicare beneficiary holding
an unreimbursed right to payment, Respondent’s
purported right to sue is best described as an
arbitrage derivative acquired from an entity that

12
itself lacks a plausible claim to standing under the
governing statutory scheme.
B. Travelers Litigation
On August 10, 2017, Respondent commenced a
putative class action in Florida state court, asserting
a claim under § 1395y(b)(3)(A) and seeking double
damages against Travelers Casualty and Surety Co.
(“Travelers”) for unspecified conditional payments on
behalf of unidentified Medicare beneficiaries. On
October 3, 2017, Travelers removed the action to the
United States District Court for the Southern District
of Florida based on federal question jurisdiction. On
November 22, 2017, Respondent filed an Amended
Complaint seeking reimbursement for unspecified
conditional payments allegedly related to an
unidentified entity, which Respondent later identified
as Health First Administrative Plans, Inc. (“HFAP”).
Respondent identified no purported examples of
Travelers’ failure to reimburse any payments.
On June 19, 2018, the district court dismissed
Respondent’s claims against Travelers with prejudice
after determining that HFAP is a company that
performs administrative functions for an MAO but is
not an MAO itself. The district court explained that
“[b]ecause HFAP—the entity that allegedly assigned
its rights to Plaintiff—is not an MAO, and thus lacks
standing to bring a private cause of action under the
[MSP Act], Plaintiff also lacks standing to bring a

13
claim under § 1395y(b)(3)(A) based on the purported
assignment of rights from HFAP.” App. 86a.
C. ACE Litigation
On August 9, 2017, Respondent commenced a
putative class action in Florida state court, alleging a
claim under § 1395y(b)(3)(A) and seeking double
damages against ACE American Insurance Co.
(“ACE”) for unspecified conditional payments made on
behalf of unidentified Medicare beneficiaries. On
October 13, 2017, ACE removed the action to the
United States District Court for the Southern District
of Florida based on federal question jurisdiction.
Respondent amended its complaint three times.
Respondent’s Third Amended Complaint asserted
the claims of Management Service Organizations
(“MSOs”) as assignee. MSOs are not MAOs; they
provide management and administrative services to
MAOs. Respondent alleged that it pursued claims on
behalf of MSOs that allegedly “managed” a Medicare
Advantage plan, were “charged” for medical services,
and (without further explanation) “became financially
responsible” for certain services to Medicare
Advantage enrollees.
On March 9, 2018, the district court dismissed
Respondent’s Third Amended Complaint with
prejudice. Since neither Respondent nor MSOs are
Medicare beneficiaries, MAOs, or direct healthcare
providers, the district court dismissed for lack of

14
statutory standing to pursue
1395y(b)(3)(A). App. 51a.

claims

under

§

D. Auto-Owners Litigation
In August 2017, Respondent commenced four
nearly identical putative class actions in Florida state
court against Auto-Owners Insurance Co., Owners
Insurance Co., and Southern-Owners Insurance Co.
(collectively, “Auto-Owners”) under § 1395y(b)(3)(A)
seeking double damages for unspecified conditional
payments purportedly made on behalf of unidentified
Medicare beneficiaries. On October 17 and November
3, 2017, Auto-Owners removed all four cases to the
United States District Court for the Southern District
of Florida based on federal question jurisdiction. On
February 16, 2018, the district court consolidated all
four cases and permitted Respondent to file a
Consolidated Complaint.
In its Consolidated Complaint, Respondent
purported to assert claims as assignee of HFAP (the
same entity at issue in the Travelers case) and
Verimed IPA, LLC (“Verimed”). As discussed above,
HFAP is a company that performs administrative
functions for an MAO but is not an MAO itself.
Verimed is an Independent Physician Association
(“IPA”). IPAs are physician-led groups made up of
primary care and specialty physicians that enter into
contracts with MAOs. Verimed allegedly paid two
healthcare providers for one beneficiary’s services,
and reimbursed an MAO for payments that the MAO

15
made to other providers on behalf of a second
beneficiary.
On April 25, 2018, the district court applied the
same three-category test described above and
dismissed Respondent’s claims against Auto-Owners
for lack of statutory standing. Just as in Travelers,
the district court held that “HFAP is not an MAO.”
Similarly, though Respondent alleged that Verimed
paid for certain benefits, Respondent “failed to allege
that Verimed was the direct provider of” those
services. App. 69a.
E. Consolidated Appeal to 11th Circuit
Respondent appealed the dismissals to the
Eleventh Circuit. Respondent challenged the holding
that it did not have statutory standing. The Eleventh
Circuit requested an amicus submission from HHS on
“its views regarding the appropriate interpretation of
42 U.S.C. § 1395y(b)(3)(A) and whether certain MSOs
and IPAs may access the private right of action.” HHS
filed its submission on June 8, 2020.
The Eleventh Circuit reversed or modified the
dismissals of the three complaints on the ground that
any entity with a “connection to Medicare’s
unreimbursed conditional payment[s]” has statutory
standing. App. 16a. Neither the government nor any
party had sponsored such a broad approach to
statutory standing.
The starting point for the Eleventh Circuit’s
analysis was its prior decision in Western Heritage I,
832 F.3d at 1229–31, which held (over the vigorous
dissents of Judges Pryor and Tjoflat) that §

16
1395y(b)(3)(A) confers statutory standing to bring a
private right of action on private health insurers that
act as MAOs, id. at 1240–43 (W. Pryor, J., dissenting);
W. Heritage II, 880 F.3d at 1290–1300 (Tjoflat, J.,
dissenting). In Western Heritage I, the Eleventh
Circuit adopted the policy-based reasoning of the
Third Circuit in In re Avandia Marketing, Sales
Practices & Products Liability Litigation, wherein the
Third Circuit found that MAOs are not excluded by
the statute and that finding standing for an MAO
would promote competition and achieve cost savings
for Medicare. 685 F.3d 353, 363–65 (3d Cir. 2012); W.
Heritage I, 832 F.3d at 1231 (“we agree with the Third
Circuit [in Avandia] and affirm the order of the
district court”).
In this case, the Eleventh Circuit found that the
same policy reasons for allowing MAOs to pursue a
private cause of action also justified permitting other
entities “connected to” an unreimbursed conditional
payment to pursue a private cause of action. App. 19a
(finding that statutory standing promotes competition
and cost savings in the Medicare system). According
to the Eleventh Circuit, the primary objective of the
MSP Act is to reduce the healthcare costs borne by
Medicare, which § 1395y(b)(3)(A) accomplishes by
incentivizing the recovery of conditional payments
from primary payers. App. 16a-17a. The court’s
textual analysis in this case was limited to the
assertion that § 1395y(b)(3)(A) is a “‘broadly worded
provision’ . . . [that] is easily read to cover downstream
actors who have borne the cost of a conditional
payment and thus have suffered damages.” App. 16a,
App. 19a (quoting W. Heritage I, 832 F.3d at 1238).
The “only limitation” the Eleventh Circuit placed on §

17
1395y(b)(3)(A) is that it may not be treated as a qui
tam provision permitting a plaintiff with no
connection to Medicare to recover double damages
from a primary payer. App. 18a.
Applying this form of reasoning, the Eleventh
Circuit concluded that “the payment of medical
expenses that should have been covered by a primary
payer” is what the MSP Act was designed to remedy.
App. 22a. Further, the court below observed, any
entity “connected to” such a payment is “‘in a better
position,’ when incentivized with double damages, ‘to
recover on behalf of Medicare than the government
itself.’” App. 16a (citation omitted).
In conducting its analysis, the court below neither
cited nor applied this Court’s established precedents
for determining when an entity has standing to
pursue a statutory cause of action that Congress has
created. See, e.g., Lexmark, 572 U.S. at 129; Fed.
Election Comm’n, 470 U.S. at 483. Likewise, the court
below did not mention, let alone evaluate, the textual
and contextual statutory references available for
discerning the particular parties Congress intended to
have standing to pursue the relief set forth in §
1395y(b)(3)(A). Nor did the court below consider these
statutory references in light of the history of the
relevant legislation. Similarly, the court below did not
find any ambiguity in the statute necessitating the
consideration of secondary interpretive sources, such
as the statute’s legislative history. Rather, the court
below simply construed the statutory text in light of
its own policy evaluation. In doing so, the Eleventh
Circuit accepted as a basis for its standing
determination arguments this Court has repeatedly

18
rejected, and thus strayed unacceptably from this
Court’s established precedents.
REASONS FOR GRANTING THE PETITION
I.

THE DECISION BELOW CONFLICTS
WITH THIS COURT’S PRECEDENTS.

Section 1395y(b)(3)(A) authorizes a cause of action
to recover payments made by the Secretary when a
primary plan has failed to make a primary payment
as required under the governing statutory scheme.
Respondent does not pursue claims on behalf of the
Secretary. In holding that a plaintiff pursuing the
interests of private parties—not the Secretary—may
pursue a cause of action under § 1395y(b)(3)(A), the
court below failed to cite or follow this Court’s relevant
precedents. The Court’s relevant precedents consist
of two lineages.
The first, exemplified by the Court’s decision in
Federal Election Commission, 470 U.S. at 483, and
Hartford Underwriters Insurance Co. v. Union
Planters Bank, N.A., 530 U.S. 1, 6 (2000), establishes
that, where a statute authorizes a particular named
person or official to bring suit (e.g., “the Federal
Election Commission” or “the trustee”), those who are
not included in the reference are presumptively
excluded. The second, exemplified by the Court’s
decision in Lexmark, 572 U.S. at 128, establishes that,
where a statute contains a more general and
undifferentiated authorization to sue (e.g., “any
person”), a court must consider whether the plaintiff
falls within the zone of interests Congress intended to
protect and whether there is proximate cause. Under
both lines of cases, this Court has made clear that the

19
relevant inquiry is one of statutory construction: “We
do not ask whether in our judgment Congress should
have authorized [the particular party to bring] suit,
but whether Congress in fact did so.” Id.; Hartford
Underwriters, 530 U.S. at 6. Rather than cite or apply
either form of analysis, the Court below reached its
conclusion on policy grounds, reasoning in part that
allowing those who are not secondary payers to sue
makes sense because “such plaintiffs are presumed to
be ‘in a better position,’ when incentivized with double
damages, ‘to recover on behalf of Medicare than the
government itself.’” App. 16a (citation omitted).
Because this Court has repeatedly rejected the
approach followed below in determining statutory
standing, certiorari and summary reversal are
warranted.
A. The Decision Below Conflicts with this
Court’s Federal Election Commission Line
of Decisions.
In Federal Election Commission, the FEC
challenged the Democratic Party’s standing to bring
suit under the Presidential Election Campaign Fund
Act, which only authorized the FEC, “the national
committee of any political party, and individuals
eligible to vote for President” to bring causes of actions
“as may be appropriate to implement or construe any
provisions of the Fund Act.” 470 U.S. at 484 (quoting
26 U.S.C. § 9011(b)(1)) (brackets omitted).
In
concluding that the Democratic Party lacked
statutory standing to pursue a cause of action under
the Fund Act, the Court reasoned that “[t]he plain
language of the Fund Act”—which “[c]learly” omitted
the Democratic Party from the list of entities with

20
standing under section 9011(b)(1)—“suggests quite
emphatically that the Democrats do not have standing
to bring a private action against another private
party.” Id. at 486. See also id. at 502, n.1 (White, J.,
dissenting) (“I agree with the majority that, under the
plain terms of § 9011(b)(1), the Democratic Party has
no cause of action.”).
Similarly, in Hartford Underwriters, the Court
construed section 506(c) of the Bankruptcy Code,
which specifically authorized “the trustee” to recover
certain administrative expenses from the value of
property encumbered by a secured creditor’s lien, but
which was silent as to whether “others” could also “use
§ 506” to obtain such payments. 530 U.S. at 6 (citing
11 U.S.C. § 506(c)). In holding that “the trustee is the
only party empowered to invoke the provision,” the
Court reasoned that “a situation in which a statute
authorizes specific action and designates a particular
party empowered to take it is surely among the least
appropriate in which to presume nonexclusivity.” Id.
It was of no legal significance that the statute did not
expressly state that “only” the trustee had statutory
standing, because the idea that “the expression of one
thing indicates the inclusion of others unless
exclusion is made explicit . . . is contrary to common
sense and common usage.” Id. at 8.
Like the statutory provisions in the above cited
cases, § 1395y(b)(3)(A) only confers standing on
specific parties. It does so by creating a “private cause
of action” only where payments are not made “in
accordance with paragraphs (1) and (2)(A) [of the MSP
Act].”

21
Paragraph (1), which is not at issue here, outlines
various obligations and requirements of “group health
plans,” which are plans offered by employers to their
employees and family members. Id. § 1395y(b)(1)(B)
(adopting definition in 26 U.S.C. § 5000). Paragraph
(2)(A) is entitled “Medicare secondary payer.” It
provides that, with the exception of payments made
under paragraph (2)(B), Medicare shall not pay for
items or services for which a primary plan has paid or
can reasonably be expected to pay.
Id. §
1395y(b)(2)(A).
Under the exception created by
paragraph (2)(B), the Secretary, who is responsible for
administering Medicare, may make a “[c]onditional
payment” under certain circumstances.
Id. §
1395y(b)(2)(B). As noted above, this conditional
payment is “conditioned on reimbursement to the
appropriate Trust Fund in accordance with the
succeeding provisions of this subsection.” Id. §
1395y(b)(2)(B)(i)−(ii).
As this combination of provisions directs,
§ 1395y(b)(3)(A) creates a private cause of action
when the “Secretary” makes a conditional payment
and seeks reimbursement from the primary payer, but
the primary payer fails to reimburse “the appropriate
Trust Fund” as required by paragraph (2)(A) and
(2)(B). Respondent, however, is not the Secretary,
does not seek the reimbursement of payments made
by the Secretary, and does not seek to protect the
Trust Fund, as contemplated by the MSP Act. Rather,
Respondent brings suit on account of payments made
or “charges” incurred by others as a form of litigation
arbitrage, asserting a “connection” to the Medicare
system as its basis for doing so. Accordingly, as in the
cases cited above, Respondent is excluded from

22
asserting a cause of action under the MSP Act because
Respondent is not among the specifically identified
parties permitted to assert the cause of action.
Respondent cannot avoid this result by borrowing
the statutory status of MAOs—highly regulated
private insurance providers that offer insurance plans
to Medicare recipients. Seventeen years after §
1395y(b) took effect, Congress enacted the Medicare
Advantage Program—the statutory scheme outlined
above that authorizes an MAO to act “as [a] secondary
payer” under “section 1395y(b)(2) of this title,”
including the right to make conditional payments and
demand reimbursement from primary payers. Id. §
1395w-22(a); see also W. Heritage I, 832 F.3d at 1236–
38. Among other things, the MAO legislation provides
that an MAO “shall provide” its enrollees with the
benefits to which they would be entitled under
traditional Medicare, 42 U.S.C. § 1395w–22(a)(1)(A),
and an MAO only satisfies its payment obligations
where it “provides payment in an amount . . . equal to
at least the total dollar amount of payment . . . as
would otherwise be authorized under parts A and B,”
id. As a result of this statutory scheme, an MAO may
make payments in the same amount and under the
same circumstances as the Secretary under
paragraph (2)(A) and (2)(B), and where a primary
payer fails to reimburse the MAO for conditional
payments, the MAO has been recognized as having a
right to pursue a cause of action under §
1395y(b)(3)(A). See W. Heritage I, 832 F.3d at 1236–
38.
It is undisputed, however, that Respondent is not
an MAO and is not asserting the rights of any MAO in

23
these cases.
There is no statutory framework
identifying Respondent as a type of entity that may
assert a cause of action under § 1395y(b)(3)(A).
Respondent is thus presumptively excluded from
doing so under the Federal Election Commission line
of cases. And regardless of whether Respondent
asserts a “connection” to an MAO, an MAO
administrator, or some other entity that itself may
claim standing under the statutory scheme, the mere
assertion of a connection is inadequate. Respondent
must demonstrate that it is among the parties
Congress intended to have standing under §
1395y(b)(3)(A). The decision below failed to hold
Respondent and its purported assignors to this
standard and is thus in direct conflict with this
Court’s precedents.
B. The Decision Below Conflicts with this
Court’s Lexmark Line of Decisions.
In Lexmark, the Court examined a provision in the
Lanham Act authorizing “any person” aggrieved by
false advertising to assert a cause of action against the
alleged wrongdoer. 572 U.S. at 122. The parties
disputed whether the plaintiff could pursue a cause of
action under that broadly worded provision, which the
Court described as “a straightforward question of
statutory interpretation.” Id. at 129. Recognizing
that Congress rarely confers statutory standing
coextensive with Article III standing, the Court
presumed as a matter of law “that a statutory cause
of action extends only to plaintiffs whose interests ‘fall
within the zone of interests protected by the law
invoked.’” Id. (quoting Allen v. Wright, 468 U.S. 737,
751 (1984)). See also Bond v. United States, 564 U.S.

24
211, 218−19 (2011) (distinguishing pleading a cause of
action from Article III standing). Under the modern
zone-of-interests test, a court “do[es] not ask whether
in [its] judgment Congress should have authorized
[plaintiff’s] suit, but whether Congress in fact did so.”
Lexmark, 572 U.S. at 128 (emphasis in original). As
such, “a court cannot apply its independent policy
judgment to recognize a cause of action that Congress
has denied.” Id. (citing Alexander v. Sandoval, 532
U.S. 275, 286–87 (2001)).
The Court further presumes that Congress only
confers statutory standing on “plaintiffs whose
injuries are proximately caused by violations of the
statute.” Id. at 132. Based in common law, this
presumption recognizes that “the judicial remedy
cannot encompass every conceivable harm that can be
traced to alleged wrongdoing.” Id. (quoting Associated
Gen. Contractors v. Carpenters, 459 U.S. 519, 536
(1983)). See also Holmes v. Sec. Inv’r Prot. Corp., 503
U.S. 258, 266 (1992) (finding it “very unlikel[y] that
Congress meant to allow all factually injured
plaintiffs to recover” under RICO).
Thus,
notwithstanding broad statutory language conferring
standing to sue on “any person” aggrieved by certain
conduct, a court is required to consider “whether the
harm alleged has a sufficiently close connection to the
conduct the statute prohibits.” Lexmark, 572 U.S. at
133.
As this Court’s decisions illustrate, proximate
cause is most commonly lacking where the plaintiff’s
harm “is purely derivative of ‘misfortunes visited
upon a third person by the defendant’s acts.’” Id.
(quoting Holmes, 503 U.S. at 268–69). For example,

25
in the Illinois Brick line of cases, the Court has
repeatedly held that indirect purchasers lack
standing to bring a private cause of action against
manufacturers under section 4 of the Clayton Act,
which broadly grants statutory standing to “any
person who shall be injured in his business . . . by
reason of anything forbidden in the antitrust laws.”
Ill. Brick Co. v. Ill., 431 U.S. 720, 724 n.1 (1977)
(quoting 15 U.S.C. § 15). See also Kansas v. UtiliCorp
United, Inc., 497 U.S. 199 (1990); Apple Inc. v. Pepper,
139 S. Ct. 1514 (2019).
Instead, only direct
purchasers have a cause of action because they “alone”
have suffered an injury within the meaning of section
4. UtiliCorp, 497 U.S. at 204.
Under the Lexmark line of cases, the court below
was required to determine whether Respondent fell
within the relevant zone of interests the statute was
designed to protect and whether Respondent
demonstrated proximate cause. This analysis is
entirely absent from the lower court’s decision.
Instead, the decision was based on policy
considerations that are speculative, unsupported by
the record, and best left to Congress. Worse, the court
below adopted uncritically reasoning this Court has
repeatedly rejected as a sufficient basis for finding
statutory standing.
For example, citing “cost-reduction and efficiency
goals,” the court below interpreted § 1395y(b)(3)(A) “to
allow recovery when the plaintiff has a connection to
Medicare’s unreimbursed conditional payment” on the
theory that “such plaintiffs are presumed to be ‘in a
better position,’ when incentivized with double
damages, ‘to recover on behalf of Medicare than the

26
government itself.’” App. 16a (emphasis added). It is
difficult to imagine, however, a more expansive
interpretation, underscored by the court’s elaboration
that the “only limitation” placed on “§ 1395y(b)(3)(A)’s
breadth is that it cannot be treated as a qui tam
provision.” App. 18a. As the court explained, “[i]n
other words, a plaintiff with no connection to Medicare
or the Medicare Advantage system lacks statutory
standing to seek double damages from a primary
player.” Id. (emphasis added). And as the facts of
this case aptly illustrate, the kind of connection
necessary to satisfy the court’s test is slender indeed—
one need only assert a connection with an
administrative entity that itself has a connection to
the Medicare system but need not be the Secretary, an
MAO, a direct Medicare provider, or a Medicare
beneficiary. At bottom, the court expanded what is
necessary to satisfy the requirements of statutory
standing under § 1395y(b)(3)(A) to essentially match
(and arguably exceed) the outer limits of
constitutional standing under Article III. But once
again, that is exactly the approach this Court has
repeatedly rejected. See, e.g., Lexmark, 572 U.S. at
129 (observing that “the ‘unlikelihood that Congress
meant to allow all factually injured plaintiffs to
recover persuades us that [the statute at issue] should
not get such an expansive reading’”) (quoting Holmes,
503 U.S. at 266); see also Alexander, 532 U.S. at 286–
87 (“[A] cause of action does not exist” without
“[s]tatutory intent” and courts cannot “create [a cause
of action], no matter how desirable that might be as a
policy matter, or how compatible with the statute.”);
Nw. Airlines, Inc. v. Transp. Workers, 451 U.S. 77, 94
(1981); Transamerica Mortg. Advisors, Inc. v. Lewis,
444 U.S. 11, 24 (1979) (“[T]he mere fact that the

27
statute was designed to protect advisers’ clients does
not require the implication of a private cause of action
for damages on their behalf. The dispositive question
remains whether Congress intended to create any
such remedy. Having answered that question in the
negative, our inquiry is at an end.”) (internal citations
omitted).
Likewise, the court below reasoned that, given the
broad wording of § 1395y(b)(3)(A), the statute is
“easily read” to include a variety of persons. App. 19a.
As noted above, however, the same is true of the
wording of many statutory causes of action, including
the one at issue in Lexmark, authorizing suit for “any
person who believes that he or she is likely to be
damaged” by the defendant’s false advertising.
Lexmark, 572 U.S. at 129. As the Court explained,
“[r]ead literally, that broad language might suggest
that an action is available to anyone who can satisfy
the minimum requirements of Article III.” Id. But as
the Court also insisted, that is not the test. Rather,
when faced with such a broadly worded provision,
courts properly apply two “background principles . . . :
zone of interests and proximate causality.” Id.; see
also Bond, 564 U.S. at 218 (holding it was error to
treat “standing” and the right to pursue a “cause of
action” as “interchangeable” and noting the difference
between “whether there is a legal injury at all and
whether the particular litigant is one who may assert
it”). Conspicuously absent from the decision below is
any reference to these principles, let alone any
evidence of their application. On the contrary, it is
abundantly clear that they played no part in the
Eleventh Circuit’s analysis. The decision below thus
stands unavoidably at odds with this Court’s long-

28
standing guidance for determining standing to pursue
a statutory cause of action.
*

*

*

The Eleventh Circuit overlooked this Court’s
Federal Election Commission and Lexmark lines of
cases. It did not cite them, let alone attempt to apply
them. This error is so clear that there is no need for
full review by this Court. Wearry v. Cain, 136 S. Ct.
1002, 1007–08 (2016) (granting summary reversal
when the lower court’s denial of petitioner’s Brady
claims “egregiously misapplied settled law” and
“chances that further briefing or argument would
change the outcome [were] vanishingly slim”);
Mullenix v. Luna, 577 U.S. 7, 12–13 (2015) (granting
summary reversal when the Fourth Circuit’s
formulation of qualified immunity had previously
been considered and rejected by the Supreme Court);
Langenkamp v. Culp, 498 U.S. 42, 45 (1990)
(summarily reversing when the “decision by the Court
of Appeals overlooked the clear distinction which our
cases have drawn” with respect to a creditor’s right to
a jury trial). Petitioners respectfully request that the
Court grant certiorari, summarily reverse the decision
below, and remand with the instruction that the
Eleventh Circuit apply Federal Election Commission
and Lexmark.
II.

THE QUESTION PRESENTED IS OF
EXCEPTIONAL IMPORTANCE.

The question presented is one of recurring and
vital importance. It is also one likely to recur in a
concentrated fashion within the Eleventh Circuit.
With the decision below in place, Respondent intends

29
to seek nationwide class action certifications based on
litigation commenced within the Eleventh Circuit
and, having now secured a favorable and
unprecedented decision in the Eleventh Circuit,
Respondent has an incentive to avoid litigating the
issue in other circuits. And as expected, Respondent
and affiliated litigation vehicles have already filed
dozens of similar lawsuits against insurance
companies other than Petitioners, on the same theory
of statutory standing. Although Petitioners believe
that review of the question presented in this Court is
likely to be inevitable, the court below has so far
departed from this Court’s jurisprudence on statutory
standing that review at this time is warranted.
Statutory standing under § 1395y(b)(3)(A) is an
exceptionally important question, in no small part
because recognizing statutory standing in the manner
permitted by the court below threatens to destabilize
the Medicare reimbursement system. For decades,
there has been very little MSP Act litigation because
liability insurers (as primary payers) and Medicare
have a well-established administrative process to
resolve the coordination of benefits among them. See
42 U.S.C. § 1395ff; 42 C.F.R. § 405.920 et seq.
(describing administrative and appeals process).
Similarly, disputes among liability insurers and other
private payers have been resolved for more than a
century under well-settled state-law regimes. W.
Heritage II, 880 F.3d at 1294–96 (Tjoflat, J.,
dissenting) (“At common law, once a tortfeasor’s
liability is established by a judgment for the insured
that includes compensation for medical expenses paid
by a medical insurer as a secondary payer, or once the
tortfeasor agrees to a settlement that includes such

30
expenses, the medical insurer has the right to seek
reimbursement of the sums it expended.”).
To interpret § 1395y(b)(3)(A) as affording
Respondent statutory standing, though, would upset
these well-established procedures. As explained by
Judge Tjoflat in Western Heritage II, extending a
private right of action for double damages to
Respondent would “amount[] to a rewriting of state
insurance laws,” id. at 1296; effectively add[]
beneficiaries (e.g., litigation vehicles like Respondent)
to insurance policies, id.; “render releases of liability
under state law a nullity,” id. at 1297; and give
plaintiffs a new claim for double recovery, id. These
realities will combine to incentivize litigation vehicles
to file litigation in federal court in unprecedented
numbers. Id.
Respondent and its hedge-fund affiliates, for
example, are trying to turn the MSP Act and its
double damages provision into a litigation arbitrage
vehicle at the expense of the Medicare system, not to
promote or facilitate it. They purchase claims that are
normally and efficiently handled through well-settled
processes for allocating responsibility among payers
and have filed a plethora of similar lawsuits under §
1395y(b)(3)(A) to try to take advantage of the double
damages provision of the MSP Act. It would be one
thing if an efficient claims-resolution system was not
already in place and Respondent was in the business
of collecting unreimbursed payments on behalf of
Medicare for the benefit of Medicare. But that is not
Respondent’s practice. Respondent is in the business
of preemptively purchasing the rights of others for the
sake of recovering double damages—in this case the

31
purported rights of MAO-affiliates that do not have
any standing to sue. To succeed in cases such as this
one, Respondent seeks to leverage the kind of flawed
standing analysis that this Court has long rejected.
If Respondent’s aggressive and expensive
litigation alternative to the present claims-resolution
system is desirable, that authorization should come
from Congress, not the courts. Absent such legislative
direction, this Court should address the issue by
requiring a statutory analysis under Federal Election
Commission and Lexmark, which will preclude
Respondent from clogging the Courts with hundreds
of unnecessary lawsuits that will inevitably result in
a less-efficient Medicare system and higher insurance
premiums for consumers. Id. at 1299.

32
CONCLUSION
For the foregoing reasons, Petitioners respectfully
request that the Court grant certiorari to review and
summarily reverse the decision below.
Respectfully submitted,
Bryce L. Friedman
Counsel of Record
Simpson Thacher
& Bartlett LLP
45 Lexington Ave.
New York, NY 10017
(212) 455-2000
bfriedman@stblaw.com

Nancy A. Copperthwaite
Valerie B. Greenberg
Akerman LLP
98 SE 7th St., Suite 1100
Miami, FL 33131
(305) 374-5600
nancy.copperthwaite@
akerman.com

G. Eric Brunstad, Jr.
Counsel for Petitioner ACE
Dechert LLP
American Insurance Co.
90 State House Square
Hartford, CT 01603
(860) 524-3999
eric.brunstad@dechert.com
Counsel for Petitioner
Travelers Casualty and
Surety Co.

33
Lori McAllister
Dykema Gossett PLLC
201 Townsend St.,
Suite 900
Lansing, MI 48933
(517) 374-9100
lmcallister@dykema.com
Spencer H. Silverglate
Clarke Silverglate P.A.
799 Brickell Plaza,
Suite 900
Miami, FL 33131
(305) 347-1557
ssilverglate@cspalaw.com
Counsel for Petitioners
Auto-Owners Insurance
Co., Southern-Owners
Insurance Co., and Owners
Insurance Co.
Dated: April 8, 2021

APPENDIX

1a
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE E LEVENTH C IRCUIT

__________
No. 18-12139, No. 18-12149,
No. 18-13049, No. 18-13312,

__________
September 4, 2020

__________
MSP R ECOVERY C LAIMS , S ERIES LLC,
Plaintiff-Appellant,
—v.—
ACE A MERICAN I NSURANCE C OMPANY ,
Defendant-Appellee.
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff-Appellant,
—v.—
A UTO -O WNERS I NSURANCE C OMPANY ,
a foreign profit corporation,
Defendants-Appellees.

86498 • SIMPSON • APPENDIX A

AL 3/10/21

2a
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff-Appellant,
—v.—
O WNERS I NSURANCE C OMPANY ,
a foreign profit corporation,
Defendant-Appellee.
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff-Appellant,
—v.—
S OUTHERN -O WNERS I NSURANCE C OMPANY ,
a foreign profit corporation,
Defendant-Appellee.
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff-Appellant,
—v.—
A UTO -O WNERS I NSURANCE C OMPANY ,
a foreign profit corporation,
Defendant-Appellee.
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff-Appellant,
—v.—
A UTO -O WNERS I NSURANCE C OMPANY ,
a foreign profit corporation,
Defendant-Appellee.

86498 • SIMPSON • APPENDIX A

AL 3/10/21

3a
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff-Appellant,
—v.—
T RAVELERS C ASUALTY AND S URETY C OMPANY ,
a foreign profit corporation,
Defendant-Appellee.
MSPA C LAIMS 1, LLC,
a Florida profit corporationy,
Plaintiff-Appellant,
—v.—
L IBERTY M UTUAL F IRE I NSURANCE C OMPANY ,
a Foreign profit corporation,
Defendant-Appellee.

__________
Attorneys and Law Firms
Frank Carlos Quesada, John H. Ruiz, MSP
Recovery Law Firm, Miami, FL, Francesco Antonio
Zincone, Arturo Alvarez, Eduardo Enrique Bertran,
Natalia Marrero, Armas Bertran Pieri, Miami, FL,
Andres Rivero, Jorge A. Mestre, Alan H. Rolnick,
Charles E. Whorton, Rivero Mestre LLP, Miami,
FL, for Plaintiff-Appellant
Nancy A. Copperthwaite, Ari H. Gerstin, Valerie
Greenberg, Jonathan Dov Lamet, Akerman, LLP,
Miami, FL, Jeffrey Benjamin Pertnoy, Akerman,
LLP, West Palm Beach, FL, Stacy Jaye Rodriguez,
Akerman, LLP, Fort Lauderdale, FL, for DefendantAppellee

86498 • SIMPSON • APPENDIX A

AL 3/10/21

4a
Michael Menapace, Attorney, Wiggin & Dana, LLP,
New Haven, CT, Ivana D. Greco, Attorney, Robinson
& Cole, LLP, Hartford, CT, Scott A. Hiaasen, Coffey
Burlington, PL, Miami, FL, for Amici Curiae
American Property Casualty Insurance Association,
Personal Insurance Federation of Florida
Robert Phillip Charrow, Kelly Cleary, Department
of Health & Human Services, Office of General
Counsel, Washington, DC, for Amicus Curiae U.S.
Department of Health and Human Services
Dana Kaersvang, U.S. Attorney General’s Office,
Washington, DC, Daniel Tenny, U.S. Department
of Justice, Civil Division, Appellate Staff,
Washington, DC, for Amicus Curiae United States
of America
Appeals from the United States District Court for
the Southern District of Florida, D.C. Docket No.
1:17-cv-23749-PAS, D.C. Docket No. 1:17-cv-23841PAS, D.C. Docket No. 1:17-cv-23628-KMW, D.C.
Docket No. 1:17-cv-22539-KMW,
Before JORDAN, JILL PRYOR, and WALKER,*
Circuit Judges.
Opinion
WALKER, Circuit Judge:
MSP Recovery Claims, Series LLC (MSPRC),
and MSPA Claims 1, LLC (MSPA), collection
agencies and Plaintiffs here, appeal from
*
The Honorable John M. Walker, Jr., Circuit Judge for
the United States Court of Appeals for the Second Circuit,
sitting by designation.

86498 • SIMPSON • APPENDIX A

AL 3/10/21

5a
dismissals with prejudice of their claims against
ACE American Insurance Company, Auto-Owners
Insurance Company, Southern-Owners Insurance
Company, Owners Insurance Company, Travelers
Casualty and Surety Company, and Liberty
Mutual Fire Insurance Company (collectively,
Defendants). Plaintiffs sought double damages
against Defendants under the Medicare Secondary
Payer Act. Plaintiffs alleged that actors within the
Medicare Advantage system, including Medicare
Advantage Organizations (MAOs) and various
“downstream actors” that contracted with MAOs,
had assigned their Medicare Secondary Payer Act
claims to Plaintiffs for collection. The district court
dismissed Plaintiffs’ cases, now consolidated on
appeal, after finding that (1) some of Plaintiffs’
alleged assignments, including those from MAOs,
were invalid and (2) Plaintiffs’ downstream-actor
assignors fell outside the ambit of the Medicare
Secondary Payer Act’s private right of action and
thus could not confer statutory standing on
Plaintiffs through an assignment. On appeal,
Plaintiffs primarily argue that their downstreamactor assignors could access the private right of
action and had rights to assign under the Medicare
Secondary Payer Act. MSPRC individually argues
that the district court erred in dismissing its
claims based on an alleged assignment from an
MAO with prejudice because dismissals based on
defects in an assignment are not decisions on the
merits and must be entered without prejudice. And
MSPA argues that all of its assignments were
valid. We agree with Plaintiffs on all issues.
Accordingly, we VACATE the dismissals of
Plaintiffs’ claims based on assignments from

86498 • SIMPSON • APPENDIX A

AL 3/10/21

6a
downstream actors, REMAND those claims for
further proceedings consistent with this opinion,
and MODIFY the dismissals of MSPRC’s claims
based on its alleged assignment from an MAO to
be without prejudice.
I
Plaintiffs are collection agencies that specialize
in recovering funds on behalf of various actors in
the Medicare Advantage system. By way of
background, the Medicare Advantage system is a
public-private health insurance system that runs
parallel to Medicare. The Medicare Advantage
system allows Medicare beneficiaries to opt into
private health insurance plans offered by Medicare
Advantage Organizations (MAOs) that provide
coverage in excess of the coverage provided by
Medicare. To operate more nimbly and to better
compete with Medicare, some MAOs contract with
smaller organizations, like independent physician
associations, that have closer connections to local
healthcare providers. These smaller organizations,
or “downstream” actors, are also a part of the
Medicare Advantage system and are central to the
present case.
Plaintiffs’ primary tool for recovering funds is
the Medicare Secondary Payer Act. Generally
speaking, the Act established that Medicare—and,
as an extension of Medicare, the Medicare
Advantage system—should not bear the costs of
medical procedures that are already covered by a
“primary payer,” or other insurer such as a
provider of workers’ compensation insurance or
automobile insurance. (Plaintiffs allege that

86498 • SIMPSON • APPENDIX A

AL 3/10/21

7a
Defendants are all primary payers.) Under the
Act, Medicare and MAOs still can, as a stopgap
measure, make a “conditional payment” to cover
their beneficiaries’ medical bills when the primary
payer “cannot reasonably be expected to make
payment with respect to such item or service
promptly.” 42 U.S.C. §§ 1395y(b)(2)(B)(i), 1395w22(a)(4). If Medicare or an MAO has made a
conditional payment, and the primary payer’s
“responsibility for such payment” has been
“demonstrated,” as by a judgment or settlement
agreement, the primary payer is obligated to
reimburse Medicare or the MAO within 60 days.
42 U.S.C. §§ 1395y(b)(2)(B)(ii), 1395w-22(a)(4).
When a primary payer fails to do so, Medicare can
seek “double damages,” or twice the amount of the
conditional payment, from the primary payer under
the Medicare Secondary Payer Act’s right of action
for the government at 42 U.S.C. § 1395y(b)(2)(B)(iii).
In Humana Med. Plan v. Western Heritage Insurance
Co., this circuit held that MAOs (and their
assignees) likewise can seek double damages
under 42 U.S.C. § 1395y(b)(3)(A), the Medicare
Secondary Payer Act’s private right of action. 832
F.3d 1229 (11th Cir. 2016). Humana and this
circuit’s other case law to date, however, are silent
on whether downstream actors that contract with
MAOs, and in effect make conditional payments
pursuant to those contracts, can seek double
damages under the Act’s private right of action.
Here, Plaintiff MSPRC alleged that it held an
assignment of Medicare Secondary Payer Act
claims against several of the defendants from an
MAO. And both Plaintiffs alleged that they held
assignments of claims against others of the

86498 • SIMPSON • APPENDIX A

AL 3/10/21

8a
defendants from various contractors of MAOs.
Plaintiffs alleged that these downstream assignors
had contracted with MAOs to fully cover
beneficiaries’ costs in exchange for a set capitation
fee. Pursuant to these contracts, Plaintiffs’
downstream actors allegedly directly made
conditional payments for MAOs or reimbursed
MAOs for their conditional payments.
The following took place before the district court:
A. ACE Claims
As is relevant to this appeal, MSPRC presented
two representative claims in its case for
reimbursement against ACE American Insurance
Company (ACE). These claims were for medical
expenses that MSPRC alleged were directly charged
to and paid by Hygea and Health Care Advisor
Services, management services organizations that
contract with MAOs to assist in providing healthcare and administrative services to beneficiaries.
MSPRC’s third amended complaint alleged that
these downstream actors, pursuant to their
contracts with MAOs, “made conditional payments
on behalf of [beneficiaries] to cover accidentrelated expenses” that should have been covered
by ACE as the primary payer. ACE D.E. 36 at 2.
The district court (Patricia A. Seitz, J.) dismissed
MSPRC’s claims against ACE after concluding
that non-MAO downstream actors, like Hygea and
Health Care Advisor Services, cannot access the
Medicare Secondary Payer Act’s private right of
action that allows MAOs to seek double damages.
MSP Recovery Claims, Series LLC v. ACE Am. Ins.
Co., No. 17-cv-23749, 2018 WL 1547600, at *8

86498 • SIMPSON • APPENDIX A

AL 3/10/21

9a
(S.D. Fla. Mar. 9, 2018). Having allowed MSPRC
to amend its complaint numerous times, the
district court entered its dismissal with prejudice.
B. Auto-Owners Claims
MSPRC presented five representative claims for
reimbursement in its case against Auto-Owners
Insurance Company, Southern-Owners Insurance
Company, and Owners Insurance Company
(collectively, Auto-Owners). These claims were for
medical expenses allegedly paid by Health First
Administrative Plans, Inc. (HFAP) and Verimed
IPA, LLC (Verimed).
MSPRC alleged that HFAP is an MAO, even
though Health First Health Plans, Inc. (Health
First), a related company that is not HFAP,
contracted directly with Medicare to be a part of
the Medicare Advantage system. In support of its
allegation, MSPRC submitted an affidavit from
Michael Keeler, the Chief Operating Officer of
both HFAP and Health First. The Keeler affidavit
explained that “HFAP had and continues to have
authority to manage and act on behalf of Health
First Health Plan, Inc. with respect to all financial
assets, including the Assigned Claims.” AutoOwners D.E. 60-1 at 1. It further explained that
“HFAP, on behalf of Health First Health Plans,
Inc., entered into a Recovery Agreement ... whereby
HFAP assigned to MSP Recovery all right, title,
interest in and ownership of the Assigned Claims.”
Id. The affidavit included an agreement between
HFAP and Health First, which shows that the two
companies have the same parent company, that
HFAP “shall act as the general, administrative
and financial manager” of Health First, that HFAP

86498 • SIMPSON • APPENDIX A

AL 3/10/21

10a
shall engage in “oversight with respect to the
management of the assets of” Health First, that
HFAP has the authority to deposit Health First
funds and make payments on behalf of Health
First, and that HFAP shall provide Health First
with “[c]onsultation and assistance with ... legal
affairs” and with “risk management and compliance”
services, as reasonably required. Id. at 4–5.
Verimed is an independent physician association
that serves as an intermediary between an MAO
and medical service providers. MSPRC alleged
that Verimed, under its contract with its MAO, “is
required to completely pay for whatever accidentrelated medical expenses are incurred” by a
beneficiary. Auto-Owners D.E. 48 at 11. As
described, Verimed reimbursed its MAO for
conditional payments. Id. at 22 (“[The MAO] paid
$155.68 for the accident-related expenses and,
pursuant to their arrangement, required Verimed
to fully reimburse and pay for those medical
expenses.”).
The district court (Patricia A. Seitz, J.) dismissed
MSPRC’s claims against Auto-Owners after
determining that HFAP was not an MAO, that
MSPRC did not hold any assignments from an
MAO, and that non-MAOs like HFAP and Verimed
cannot access or assign a claim under the Medicare
Secondary Payer Act’s private right of action. MSP
Recovery Claims, Series LLC v. Auto-Owners Ins.
Co., Nos. 17-cv-23841, 17-cv-24069, 17-cv-24066, &
17-cv-24068, 2018 WL 1953861, at *6 (S.D. Fla.
Apr. 25, 2018). Having allowed MSPRC to amend
its complaint numerous times, the district court
entered its dismissal with prejudice.

86498 • SIMPSON • APPENDIX A

AL 3/10/21

11a
C. Travelers Claims
MSPRC did not present any representative
claims in its case for reimbursement against
Travelers Casualty and Surety Company (Travelers).
Instead, it alleged that it “holds, and otherwise
owns the rights and interests to, claims that have
been processed for items and/or services pertaining
to Medicare Beneficiaries for which the Defendant
is the primary payer.” Travelers D.E. 20 at 12.
MSPRC made this allegation on the basis that
Travelers had “reported some or all of [its] cases to
[an agency within the Department of Health and
Human Services] admitting it has primary payer
responsibility.” Id. MSPRC asserted that,
pursuant to the Health Insurance Portability and
Accountability Act (HIPAA), the names of the
beneficiaries and their corresponding MAOs could
be provided to Travelers “upon execution of a
qualified protective order.” Id. at 11 n.8.
MSPRC later indicated that its claims regarded
medical expenses paid by HFAP, which it alleged
was an MAO. See MSP Recovery Claims, Series
LLC v. Travelers Cas. and Sur. Co., No. 17-23628,
2018 WL 3599360, at *3 (S.D. Fla. June 21, 2018).
MSPRC submitted the same Keeler affidavit that
was submitted in the Auto-Owners case. Citing the
opinion dismissing MSPRC’s claim against AutoOwners, the district court (Kathleen M. Williams,
J.) found that HFAP was not an MAO, that
MSPRC did not hold any assignments from an
MAO, and that HFAP categorically could not
access the Medicare Secondary Payer Act’s private
right of action. Id. at *4. Here, too, the district
court dismissed MSPRC’ claims against Travelers
with prejudice.

86498 • SIMPSON • APPENDIX A

AL 3/10/21

12a
D. Liberty Claims
As is relevant on appeal, MSPA presented two
representative claims in its case against Liberty
Mutual Fire Insurance Company (Liberty). These
claims regarded medical expenses allegedly paid
by Florida Healthcare Plus (FHCP) and the
Interamerican Medical Center Group, LLC (IMC).
In its third amended complaint, MSPA alleged
that FHCP “made conditional payments” that
should have been reimbursed by Liberty. Liberty
D.E. 49 at 5. MSPA dropped its allegation that
FHCP was an MAO, instead arguing that, “[i]n
addition to MAOs, first-tier and downstream
entities also suffer damages.” Id. at 21. On April
15, 2014, FHCP executed a contract with La Ley
Recovery that conveyed to the latter FHCP’s right
“to recover costs already paid” for beneficiaries
from the appropriate primary payers. Liberty D.E.
49-8 at 2. In exchange, La Ley Recovery would
provide FHCP with 50% of the claims collected.
The term of the contract was for one year, with an
automatic renewal for an additional year. The
contract empowered La Ley Recovery to “assign
the Agreement in whole or in part but the assignee
must be approved by [FHCP].” Id. at 3. La Ley
Recovery then assigned the rights it had acquired
to MSPA. In its third amended complaint, MSPA
alleged that FHCP approved the assignment.
Liberty D.E. 49 at 11. On December 10, 2014, the
Florida Department of Financial Services was
appointed FHCP’s receiver. As FHCP’s receiver,
the Department of Financial Services wrote to La
Ley Recovery to cancel its contract and
subsequently filed a petition to enjoin La Ley
Recovery and MSPA from pursuing their recovery

86498 • SIMPSON • APPENDIX A

AL 3/10/21

13a
rights. After MSPA had filed the present
litigation, however, the Department of Financial
Services recognized the validity of FHCP’s contract
with La Ley Recovery pursuant to a settlement
agreement.
MSPA also alleged that IMC, a management
services organization, contracted with MAOs “to
manage and provide healthcare services and
absorb the risk of [financial] loss” for a defined
population of beneficiaries. Liberty D.E. 58-2 at 3.
IMC “irrevocably assign[ed] all of [its] rights” to
seek double damages from primary payers to
MSPRC, Liberty D.E. 49-14 at 9, which in turn
assigned those rights to MSPA, id. at 2. In its
third amended complaint, MSPA alleged that
MSPRC’s assignment to MSPA was “ministerial in
nature” and thus did not require IMC’s approval
under the terms of IMC’s contract with MSPRC,
id. at 12, and that, in any event, IMC “consented to
any subsequent assignment from [MSPRC] to any
then-existing or future MSP Company, which
include[d] MSPA,” Liberty D.E. 49 at 14.
The district court (Kathleen M. Williams, J.)
dismissed MSPA’s claims. The district court
determined that MSPA’s claim derived from the
FHCP assignment was legally deficient because
the contract on which it was predicated was
invalid at the time of filing, in the period between
when the Department of Financial Services
canceled FHCP’s assignment to La Ley Recovery
and when the Department concluded the settlement
agreement. MSPA Claims 1, LLC v. Liberty Mut.
Fire Ins. Co., 322 F. Supp. 3d 1273, 1280–81 (S.D.
Fla. 2018). The district court also found that the
FHCP and IMC assignments were legally deficient

86498 • SIMPSON • APPENDIX A

AL 3/10/21

14a
because MSPA had failed to allege that FHCP and
IMC consented to the assignments. Id. at 1280,
1282. Additionally, the district court concluded
that, even if the assignments were valid, MSPA’s
non-MAO assignors were categorically unable to
access the Medicare Secondary Payer Act’s private
right of action. Id. at 1283. Having allowed MSPA
to amend its complaint numerous times, the
district court entered its dismissal with prejudice.
***
On appeal, we must address a series of issues
raised by the following arguments: Plaintiffs argue
(1) that the district court misapprehended the
scope of the Medicare Secondary Payer Act’s
private right of action and therefore erroneously
dismissed their claims on the basis that the
assignments supporting those claims were not
from MAOs but were from downstream actors.
MSPRC additionally argues (2) that the district
court erred in ordering that the dismissals of its
HFAP claims be with prejudice. And MSPA argues
(3) that the district court erred in dismissing its
claims after incorrectly concluding that the
assignments to MSPA were invalid. In response,
Defendants present (4) a bevy of alternative bases
for affirmance, including that (a) Plaintiffs’
contracts with the downstream actors were “mere
contingency agreements” rather than assignments;
(b) Plaintiffs failed to comply with their supposed
pre-suit notice requirements; and (c) there were
defects with MSPRC’s chain of assignments. We
consider each of these arguments in turn,
reviewing the district court’s dismissals de novo
and accepting Plaintiffs’ well-pled factual
allegations as true. See MSPA Claims 1, LLC v.

86498 • SIMPSON • APPENDIX A

AL 3/10/21

15a
Tenet Fla., Inc., 918 F.3d 1312, 1317 (11th Cir.
2019).
IIA
Because Plaintiffs’ claims (setting aside the
HFAP claims) involve assignments from nonMAOs in the Medicare Advantage system, they
would be properly dismissed if such non-MAOs are
categorically barred from seeking damages under
the Medicare Secondary Payer Act. In dismissing
each of Plaintiffs’ claims, the district court so
interpreted the Act, concluding that only MAOs,
not downstream actors in the Medicare Advantage
system, may access its private right of action at
§ 1395y(b)(3)(A). On appeal, Plaintiffs argue that
the district court adopted a crabbed reading of
§ 1395y(b)(3)(A) and thus erred in dismissing their
claims on the basis that their assignors were nonMAOs. We agree with Plaintiffs’ interpretation of
§ 1395y(b)(3)(A) and conclude that the district
court erred by narrowly construing this provision
to categorically exclude claims by downstream
actors.
The language establishing the private right of
action reads:
There is established a private cause of
action for damages (which shall be in an
amount double the amount otherwise
provided) in the case of a primary plan
which fails to provide for primary payment
(or
appropriate
reimbursement)
in
accordance with paragraphs (1) and (2)(A).

86498 • SIMPSON • APPENDIX A

AL 3/10/21

16a
42 U.S.C. § 1395y(b)(3)(A). We have previously
recognized that this is a “broadly worded provision
that enables a plaintiff to vindicate harm caused
by a primary plan’s failure to meet its [Medicare
Secondary Payer] primary payment or reimbursement obligations.” Humana, 832 F.3d at 1238. And
courts have generally understood the underlying
objective of § 1395y(b)(3)(A) to be “help[ing] the
government recover conditional payments from
insurers or other primary payers” or otherwise
reducing the healthcare costs borne by Medicare.
Stalley v. Cath. Health Initiatives, 509 F.3d 517,
524 (8th Cir. 2007); see also Manning v. Utils. Mut.
Ins. Co., Inc., 254 F.3d 387, 397 n.8 (2d Cir. 2001)
(“[W]hen Senator David Durenberger, Republican
of Minnesota, introduced President Reagan’s
Medicare proposals for 1986, which included
adding a private right of action to enforce the
[Medicare Secondary Payer Act], it was introduced
as the President’s ‘health care cost reduction
proposals.’”).
Consistent with the breadth of § 1395y(b)(3)(A)’s
text and its cost-reduction and efficiency goals,
this circuit and others have interpreted this section
to allow recovery when the plaintiff has a connection
to Medicare’s unreimbursed conditional payment;
such plaintiffs are presumed to be “in a better
position,” when incentivized with double damages,
“to recover on behalf of Medicare than the government itself.” Netro v. Greater Baltimore Med. Ctr.,
Inc., 891 F.3d 522, 527 (4th Cir. 2018). In Catholic
Health Initiatives, the Eighth Circuit allowed
Medicare beneficiaries to access § 1395y(b)(3)(A)’s
private right of action, even when those
beneficiaries’ medical bills had already been paid

86498 • SIMPSON • APPENDIX A

AL 3/10/21

17a
by Medicare. 509 F.3d at 524–25. The Eighth
Circuit explained that affording beneficiaries
access to the private right of action would
incentivize them to seek damages and “pay back
the government for its outlay,” thus reducing the
cost of Medicare. Id. at 525. We endorsed that
holding in Stalley ex rel. U.S. v. Orlando Regional
Healthcare System, 524 F.3d 1229, 1234 (11th Cir.
2008); accord Netro, 891 F.3d at 528. And the
Sixth Circuit, in Michigan Spine & Brain
Surgeons, PLLC v. State Farm Mutual Automobile
Insurance Co., interpreted § 1395y(b)(3)(A) to
allow medical care providers who have already
received conditional payments from Medicare to
bring a claim for double damages against primary
payers. 758 F.3d 787, 790 (6th Cir. 2014). The
Sixth Circuit implied that providers would repay
Medicare with the damages from the primary
payer, thereby advancing Congress’s intent to
“curb skyrocketing health costs and preserve the
fiscal integrity of the Medicare system.” Id. at 793.
We endorsed that holding in Humana. 832 F.3d at
1234–35.
More recently, both the Third Circuit and this
circuit interpreted § 1395y(b)(3)(A) to apply to
MAOs in the Medicare Advantage system. They
found that denying MAOs access to the private
right of action would “hamstring” them by putting
them at a “competitive disadvantage” relative to
Medicare. In re Avandia Mktg., Sales Practices &
Prods. Liab. Litig., 685 F.3d 353, 364 (3d Cir.
2012); Humana, 832 F.3d at 1235–38. This would
thwart congressional intent with respect to the
Medicare Advantage system. In reaching their
holdings, neither circuit concluded that access to
§ 1395y(b)(3)(A) was limited to MAOs or otherwise

86498 • SIMPSON • APPENDIX A

AL 3/10/21

18a
addressed downstream actors’ access to the private
right of action. To the contrary, and as we further
explain below, the Third Circuit’s reasoning and
our reasoning in Humana fully support downstream actors having access.
The only limitation that circuit courts have
placed on § 1395y(b)(3)(A)’s breadth is that it
cannot be treated as a qui tam provision. In other
words, a plaintiff with no connection to Medicare
or the Medicare Advantage system lacks statutory
standing to seek double damages from a primary
payer. This circuit, like others, see, e.g., Catholic
Health Initiatives, 509 F.3d at 527; Stalley v.
Methodist Healthcare, 517 F.3d 911, 919 (6th Cir.
2008), has foreclosed qui tam suits because
plaintiffs with no connection to a conditional
payment likely would not reimburse Medicare or
an MAO and thus would not advance the Medicare
Secondary Payer Act’s aim of reducing costs for
Medicare or the Medicare Advantage system.
Distinguishing § 1395y(b)(3)(A) from the qui tam
provision in the False Claims Act (FCA), we
reasoned that “[t]he private plaintiff in an action
under the [Medicare Secondary Payer Act] is
entitled to the entire recovery if he or she is
successful, unlike under the FCA, which apportions
the recovery between the relator and the
government.” Orlando Reg’l Healthcare Sys., Inc.,
524 F.3d at 1234. We further explained that the
Medicare Secondary Payer Act “provides to the
government none of the procedural safeguards to
manage or direct an action which are granted to it
under the FCA.” Id.
The central issue in our case is whether actors
downstream from MAOs, who directly make

86498 • SIMPSON • APPENDIX A

AL 3/10/21

19a
conditional payments or fully reimburse MAOs for
their conditional payments, may themselves seek
double damages from primary payers under
§ 1395y(b)(3)(A). In the wake of Humana’s holding
that § 1395y(b)(3)(A) is a tool not only for preserving
the solvency of the Medicare Trust Funds but also
for reducing costs in the Medicare Advantage
system, we believe this to be a straightforward
inquiry.
The language of § 1395y(b)(3)(A), which has been
interpreted to apply to plaintiffs with a connection
to a conditional payment, is easily read to cover
downstream actors who have borne the cost of a
conditional payment and thus have suffered
damages. Furthermore, allowing downstream
actors who have directly paid beneficiaries’
medical bills or reimbursed an MAO to recoup
damages would plainly benefit the Medicare
Advantage system. It would enable downstream
actors to avoid costs that, under the Medicare
Secondary Payer Act, should be borne by primary
payers, not actors within the Medicare Advantage
system. This, in turn, would enable downstream
actors to continue presenting attractive contracts
to MAOs. Ultimately, these attractive contracts
are what enable MAOs to compete with Medicare.
Rejecting
downstream
actors’
access
to
§ 1395y(b)(3)(A)’s private right of action would
jeopardize MAOs’ ability to negotiate favorable
contract terms and would pass primary payers’
statutorily-established risks and costs into the
Medicare Advantage system. Finally, rejecting
downstream actors’ ability to seek double damages
would incentivize primary payers to delay making
primary payments and reimbursing conditional

86498 • SIMPSON • APPENDIX A

AL 3/10/21

20a
payments, in the hope that these costs would be
permanently passed from an MAO to a downstream actor with no recourse. Both the text and
the objective of § 1395y(b)(3)(A) support allowing
downstream actors to bring suit, or assign their
right to bring suit, against primary payers.
The Department of Health and Human
Services’s interpretation of § 1395y(b)(3)(A) further
supports allowing downstream actors like
Plaintiffs’ alleged assignors to bring suit, or assign
their right to bring suit, against primary payers.
At our request, the Department of Health and
Human Services (HHS), which administers
Medicare, oversees the Medicare Advantage system,
and promulgates regulations regarding the Medicare
Secondary Payer Act, submitted an amicus brief
(to which all parties were given an opportunity to
respond) on the scope of § 1395y(b)(3)(A). In its
briefing, which considered the relevant cases,
statutes, regulatory scheme, and legislative history,
HHS urged that any downstream actor that has
“actually suffered an injury because it provided or
paid for care from its own coffers and was harmed
by a primary plan’s failure to provide reimbursement” should be able to access the private right of
action. HHS amicus br. at 12. We afford HHS’s
well-reasoned and considered interpretation of
§ 1395y(b)(3)(A) Skidmore deference, under which
“an agency’s interpretation may merit some
deference depending upon the ‘thoroughness
evident in its consideration, the validity of its
reasoning, its consistency with earlier and later
pronouncements, and all those factors which give
it power to persuade, if lacking power to control.’”
Buckner v. Fla. Habilitation Network, Inc., 489

86498 • SIMPSON • APPENDIX A

AL 3/10/21

21a
F.3d 1151, 1155 (11th Cir. 2007) (quoting
Skidmore v. Swift & Co., 323 U.S. 134, 140, 65
S.Ct. 161, 89 L.Ed. 124 (1944)); see also Pugliese v.
Pukka Dev., Inc., 550 F.3d 1299, 1305 (11th Cir.
2008) (affording Skidmore deference to agency
amicus brief where “[t]he brief is thoroughly
reasoned and demonstrates a high level of
consideration given to the issue; the brief
thoroughly and rationally analyzes the statute, the
legislative history, and the policy implications of
the statutory interpretation”).
In response to Plaintiffs and HHS, Defendants
advance two main arguments to counter the
textual and purposive arguments in favor of
affording MAOs access to § 1395y(b)(3)(A)’s private
right of action. But neither of these arguments is
persuasive. First, Defendants emphasize that
§ 1395y(b)(3)(A) is not a qui tam provision. Of
course this is so, but it has little bearing on
whether downstream actors that have suffered
financial losses in the amount of their MAOs’
unreimbursed conditional payments can bring
suit. Such downstream actors cannot be equated to
qui tam plaintiffs who sue on behalf of the
government and have no personal financial losses.
Second, Defendants assert that downstream
actors cannot suffer injuries under the Medicare
Secondary Payer Act because they make conditional
payments or reimburse MAOs’ conditional payments
pursuant to their contractual obligations, rather
than “mak[ing] statutory conditional payments on
behalf of Medicare or the MAO.” Auto-Owners br.
at 20 (emphasis added). Defendants reason that
downstream actors “accepted [MAOs’] risk under
private sub-contracts” and are trying to “push that

86498 • SIMPSON • APPENDIX A

AL 3/10/21

22a
risk on to insurers,” who are primary payers. ACE
br. at 35. Defendants’ argument is a sleight of
hand; the primary payers already have that risk.
The downstream actors’ alleged injury—the
payment of medical expenses that should have
been covered by a primary payer—is precisely the
kind of injury that the Medicare Secondary Payer
Act was meant to remove from the Medicare and
Medicare Advantage systems. Under the Act, the
risk that Defendants assert downstream actors
accept from MAOs is in fact borne by primary
payers and covered by the insurance policies they
issue, not by MAOs or any party with which they
contract.
In an attempt to bolster their argument that
downstream actors’ status as contractors of MAOs
precludes their access to § 1395y(b)(3)(A)’s private
right of action, Defendants cite several cases in
which various courts found that a plaintiff's
contractual relationship was insufficient to
sustain statutory standing. These cases bear no
resemblance to this case. In American Federation
of Government Employees, Local 2119 v. Cohen,
the Seventh Circuit denied statutory standing to
federal employees who challenged a procurement
process based on how the resulting award would
negatively affect their job security. The Seventh
Circuit found that the employees’ asserted injury
fell within the province of their job contracts, not
within that of the procurement statute, which was
designed to ensure fair bid processes for potential
government contractors. 171 F.3d 460, 472 (7th
Cir. 1999). In Benjamin v. Aroostook Medical
Center, the First Circuit denied statutory standing
to patients of a black doctor who alleged that a

86498 • SIMPSON • APPENDIX A

AL 3/10/21

23a
medical center’s racial discrimination against the
doctor had prevented them from contracting for
and receiving their desired medical procedures.
Although the doctor had statutory standing under
the anti-discrimination statute, his patients,
whose interest in contracting for and receiving
medical treatment fell outside the ambit of the
anti-discrimination statute, could not sue under
the statute. 57 F.3d 101, 104 (1st Cir. 1995). In
both cases, the plaintiffs’ injury was far removed
from the interests protected by the statute at
issue. As we have discussed, when a downstream
actor bears the cost of an MAO’s conditional
payments, that downstream actor suffers an injury
squarely within the ambit of the Medicare
Secondary Payer Act.
Defendants have presented no persuasive
rationale for limiting downstream actors’ access to
§ 1395y(b)(3)(A)’s private right of action. The
amici writing in support of Defendants have
similarly failed to persuade us that downstream
actors that fully cover MAOs’ conditional payments are situated differently from MAOs in any
material way. Therefore, and in light of the text,
purpose, and persuasive agency interpretation of
§ 1395y(b)(3)(A), we hold that downstream actors
that have made conditional payments in an MAO’s
stead or that have reimbursed an MAO for its
conditional payment can bring suit for double
damages against the primary payer. The district
court erred in dismissing Plaintiffs’ claims on the
theory that, as a threshold matter, non-MAOs are
categorically barred from accessing the Medicare
Secondary Payer Act’s private right of action no
matter the circumstances.

86498 • SIMPSON • APPENDIX A

AL 3/10/21

24a
IIB
MSPRC also appeals the district court’s
dismissals of its HFAP claims, insofar as those
dismissals were entered with prejudice. MSPRC
br. at 27. The district court dismissed with
prejudice MSPRC’s HFAP claims against AutoOwners and Travelers on the basis that HFAP
lacked an assignment from Health First—a
recognized MAO that is tightly bound up and
shares corporate executives with HFAP. Explaining
that “HFAP is not an MAO” and has “not been
assigned any rights by Health First Health Plans,
Inc.,” the district court held that HFAP, and
therefore its assignee MSPRC, “lacks standing
under § 1395y(b)(3)(A).” Auto-Owners Ins. Co.,
2018 WL 1953861, at *5. MSPRC argues that
dismissals based on a party’s lack of an assignment are dismissals for want of Article III standing,
not statutory standing, and that dismissal with
prejudice was therefore inappropriate. We agree
with MSPRC.
As the Seventh Circuit explained in MAO-MSO
Recovery II v. State Farm Mutual Automobile
Insurance Co., a case analogous to this one, if an
assignment from HFAP “conveyed nothing” from
Health First, “plaintiffs had no rights to enforce”
at all. 935 F.3d 573, 581 (7th Cir. 2019). If MSPRC
had no rights to enforce because the HFAP
assignment conveyed nothing, MSPRC had no
injury in fact and thus no Article III standing. See
Sprint Commc’ns Co., L.P. v. APCC Servs., Inc.,
554 U.S. 269, 289, 128 S.Ct. 2531, 171 L.Ed.2d 424
(2008) (treating the presence or absence of a valid
assignment as an issue of Article III standing). In

86498 • SIMPSON • APPENDIX A

AL 3/10/21

25a
the absence of Article III standing, the district
court lacked jurisdiction to resolve MSPRC’s
claims on the merits. See MAO-MSO Recovery II,
935 F.3d at 581. The district court therefore could
not have dismissed MSPRC’s claims with prejudice.
See id.; see also MSP Recovery Claims, Series LLC
v. QBE Holdings, 965 F.3d 1210 (11th Cir. 2020)
(vacating district court order dismissing similar
claim with prejudice and directing that the
dismissal be entered without prejudice).
Auto-Owners and Travelers contend that, even if
the district court lacked jurisdiction to resolve
MSPRC’s case on the merits, the district court still
had the authority to dismiss MSPRC’s claims with
prejudice because such claims were frivolous and
made in bad faith. In support of this contention,
Auto-Owners and Travelers marshal a plethora of
unpublished, non-precedential Eleventh Circuit
cases affirming, as an example, a district court’s
dismissal with prejudice of a complaint that
alleged “wild accusations and incredible stories”
after the district court “conclud[ed] that it did not
have subject matter jurisdiction.” Gibbs v. United
States, 517 F. App’x 664, 667, 670 (11th Cir. 2013).
We need not consider whether this practice set
forth in unpublished opinions is consistent with
district courts’ lack of jurisdiction because we
conclude, like the Seventh Circuit, that MSPRC
did not bring frivolous or bad-faith claims.
As the Seventh Circuit noted in MAO-MSO
Recovery II, the “corporate arrangement [between
HFAP and Health First] was not just complex, but
... freighted with overlapping names and
functions.” 935 F.3d at 585. In support of its claims
here, MSPRC submitted a contract between HFAP

86498 • SIMPSON • APPENDIX A

AL 3/10/21

26a
and Health First showing that HFAP “manage[d]”
the MAO’s general, administrative, and financial
affairs. The same contract shows that HFAP was
tasked, in particular, with handling the MAO’s
“legal affairs.” Michael Keeler, the Chief
Operating Officer of both HFAP and Health First,
signed the assignment between HFAP and MSPRC
and stated in an affidavit that he intended for
“HFAP, on behalf of Health First Health Plans,
Inc., ... [to] assign[ ] to MSP Recovery all right,
title, interest in and ownership of” any claims
against primary payers. Auto-Owners D.E. 60-1 at
1. As MSPRC argues on appeal, it was eminently
reasonable for MSPRC to plead that it had a valid
assignment of claims from an MAO. Moreover, if
MSPRC in fact had a defective assignment,
MSPRC was well positioned to cure the technical
defect and refile its case with the same claims.
Like the Seventh Circuit, because we find that the
district court erred insofar as it dismissed
MSPRC’s HFAP claims with prejudice, we order
that the district court’s dismissal be without
prejudice.
III
In addition to dismissing MSPA’s claims because
MSPA’s assignors were non-MAOs, the district
court dismissed the claims after finding that
MSPA’s assignments were invalid. Specifically, the
district court found that (1) FHCP’s assignment
was canceled when FHCP went into receivership
and (2) MSPA failed to allege, with respect to both
its FHCP and IMC claims, that FHCP and IMC
approved the assignment of their rights to MSPA.
On appeal, MSPA argues that the district court

86498 • SIMPSON • APPENDIX A

AL 3/10/21

27a
erred because (1) the purported cancellation of
FHCP’s assignment did not extinguish MSPA’s
vested rights and (2) MSPA’s third amended
complaint did in fact allege that FHCP and IMC
had approved the assignment of their rights to
MSPA. We agree with MSPA.
With respect to the purported cancellation of
FHCP’s assignment, FHCP executed a contract
“assign[ing] all of [its] rights” under the Medicare
Secondary Payer Act to La Ley Recovery on April
15, 2014. Liberty D.E. 49-8 at 2. Because nothing
in this contract suggested that FHCP would retain
an interest in its rights with respect to these claims
that were assigned under the contract or that its
rights with respect to these claims would revert to
FHCP, the contract fully divested FHCP of such
rights. On February 20, 2015, La Ley Recovery
executed a contract “irrevocably assign[ing]” to
MSPA “any and all” of La Ley Recovery’s “claims,
rights and causes of action set forth” in its contract
with FHCP. Liberty D.E. 49-9 at 1. This agreement
transferred the claims under the Act that La Ley
Recovery then possessed to MSPA. That FHCP
went into receivership after concluding its contract
with La Ley Recovery, and that FHCP’s receiver
sought to cancel the contract, had no effect on the
chain of assignments. FHCP’s receiver had no
authority to claw back what FHCP had already
irrevocably transferred. See State of Florida, ex
rel. Dep’t of Fin. Servs. v. Florida Healthcare Plus,
Inc., No. 2014-CA-2762, Order Dated Dec. 10,
2014, at 13 (Fla. 2d Cir. Ct. 2014) (giving FHCP’s
receiver the authority to “cancel[ ],” but not
rescind, contracts); Samuel Williston & Richard A.
Lord, Williston on Contracts § 49:129 (4th ed.

86498 • SIMPSON • APPENDIX A

AL 3/10/21

28a
1990) (“A rescission avoids the contract ab initio,
while cancellation merely terminates the policy
prospectively, as of the time the cancellation
became effective.”). At most, FHCP’s receiver could
prevent La Ley Recovery, and subsequently MSPA,
from acquiring new rights that FHCP acquired
after the date of the purported cancellation.
The district court’s finding that MSPA failed to
allege that it had received consent from FHCP and
IMC for its assignments is belied by the record.
MSPA’s third amended complaint plainly alleged
that FHCP had approved La Ley Recovery’s
assignment to MSPA. Liberty D.E. 49 at 11. The
complaint also plainly alleged that IMC had
“accepted, acknowledged, approved, and consented
to” MSPRC’s assignment to MSPA. Id. at 14.
Moreover, MSPA submitted an affidavit from a
manager of IMC stating that “IMC was aware of
the subsequent assignment from [MSPRC] to
MSPA” and that “[n]o prior written consent was
needed to effectuate that subsequent assignment
because it was ministerial in nature” under the
terms of IMC’s contract with MSPRC. Liberty D.E.
58-2 at 3. Accordingly, we find that the district
court erred in dismissing MSPA’s FHCP and IMC
claims based on the purported cancellation and
validity of MSPA’s assignments.
IV
Defendants advance several alternative bases
for affirmance. Across claims, Defendants argue
that (1) Plaintiffs’ contracts are “mere contingency
agreements” rather than assignments; (2) Plaintiffs
failed to comply with their supposed pre-suit

86498 • SIMPSON • APPENDIX A

AL 3/10/21

29a
notice requirements; and (3) there exist potential
defects with MSPRC’s chain of assignments. These
arguments are without merit.
With
respect
to
their
first
argument,
Defendants, despite claiming to do so, see, e.g.,
Liberty br. at 29–30, point to no cases in which a
court characterized Plaintiffs’ contracts as
contingency arrangements or collection-only
agreements rather than assignments. The one
district court to consider this question was “not
persuaded” that Plaintiffs’ contracts were
anything other than assignments. MSP Recovery
Claims, Series LLC v. Farmers Ins. Exchange, Nos.
17-cv-02522 & 17-cv-02559, 2018 WL 5086623, at
*12 (C.D. Cal. Aug. 13, 2018). Defendants contend
that Plaintiffs must have contingency arrangements or collection-only agreements rather than
assignments because their contracts grant the
supposed assignors a contingency interest, and
because the clear purpose of the contracts is to
provide the supposed assignors with recovered
payments. But the Supreme Court has held that
contracts that include recovery-sharing provisions,
even if they require the assignee to “remit all
litigation proceeds” to the assignor, are still
properly construed as assignments. Sprint
Commc’ns, 554 U.S. at 273–85, 128 S.Ct. 2531
(outlining the history of “assignees for collection”).
Defendants also argue that the fact that Plaintiffs’
contracts have termination provisions cuts against
the contracts being assignments. Although the
termination provisions are curious in this context,
given that an assignor’s transferred rights would
not revert after termination, this oddity alone does
not override the plain text of Plaintiffs’ contracts.

86498 • SIMPSON • APPENDIX A

AL 3/10/21

30a
Plaintiffs’ contracts repeatedly refer to themselves
as “Assignment[s] of Claims,” see, e.g., Liberty D.E.
49-9 at 2, and include language such as, “Client
hereby irrevocably assigns, transfers, conveys, sets
over and delivers to [MSPRC], or its assigns, any
and all of Client’s ... rights and entitlements ... to
pursue and/or recover monies” from primary
payers, see, e.g., Ace D.E. 28-1 at 2. We find this
language dispositive of the fact that Plaintiffs hold
assignments from various downstream actors.
With respect to their second argument, that
Plaintiffs failed to comply with alleged pre-suit
notice requirements, Defendants point to no law
that obligated Plaintiffs to submit “recovery
demand letters” or otherwise provide advance
notice of their intent to bring a claim. The
regulation that Defendants cite to support their
argument contemplates that primary payers’
liability arises not only after the primary payer
receives a recovery demand letter but also in cases
in which “the demonstration of primary payer
responsibilities is other than receipt of a recovery
demand letter.” 42 C.F.R. § 411.22. Although
primary payers must have knowledge that they
owed a primary payment before a party can claim
double damages under the Medicare Secondary
Payer Act, see Glover v. Liggett Grp., Inc., 459 F.3d
1304, 1309 (11th Cir. 2006); see also 42 C.F.R.
§ 411.24(i)(2), Plaintiffs plausibly alleged that
Defendants had such knowledge.
Plaintiffs alleged that they chose which claims
to bring by comparing their assignors’ claims data
against two sets of documents: Defendants’ filings
with HHS under 42 U.S.C. § 1395y(b)(7)–(9),
which obligates insurers like Defendants to report

86498 • SIMPSON • APPENDIX A

AL 3/10/21

31a
the claims for which they are primary payers, and
certain of Defendants’ settlement agreements to
which MSPRC had access. The filings with HHS
evidence Defendants’ knowledge that they owed
primary payments, including the primary payments
for which Plaintiffs seek reimbursement. For the
remaining claims, Defendants’ settlement agreements with beneficiaries show, at minimum, that
Defendants had constructive knowledge that they
owed the primary payments. See United States v.
Baxter Int’l, Inc., 345 F.3d 866, 903 (11th Cir.
2003) (finding that a complaint “sufficiently alleges
constructive knowledge” on behalf of the primary
payer based on the primary payer’s entry into a
settlement agreement with beneficiaries). Because
Plaintiffs have plausibly alleged Defendants’
actual or constructive knowledge, we decline to
adopt Defendants’ second alternative basis for
affirmance.
Third and finally, Defendants argue that
MSPRC “asserts defective (or incomplete) assignment chains” because its proffered contracts are
between purported assignors and “series LLCs”
that are affiliated with but are not themselves
MSPRC. ACE br. at 39–40. Defendants liken
MSPRC to a parent corporation with subsidiaries
and note that parent corporations cannot sue on
behalf of their subsidiaries. But Delaware law,
under which MSPRC is incorporated, uses
permissive language that provides that “series
may have”—but are not required to have—
“separate rights, powers or duties with respect to
specified property or obligations of [its affiliated]
limited liability company.” 6 Del. C. § 18-215
(emphasis added). Depending on how MSPRC’s

86498 • SIMPSON • APPENDIX A

AL 3/10/21

32a
relationships with its affiliated series LLCs are
structured, MSPRC may have the same rights as
or rights separate from the series LLCs with
respect to the assignments. Nothing in the record
suggests that MSPRC’s relationships with its
series LLCs preclude MSPRC from asserting those
series LLCs’ rights. At the pleading stage, we
accept as true MSPRC’s allegation that it has the
right to bring claims under the proffered contracts.
As with the previous alternative bases for
affirmance, we find this third basis meritless.
V
We have considered Defendants’ remaining
arguments for affirmance and find them to be
without merit. For the reasons stated above, in
case numbers 18-12139 (ACE) and 18-13312
(Liberty), we VACATE the dismissals of Plaintiffs’
claims based on assignments from downstream
actors and REMAND those cases for further
proceedings consistent with this opinion. In case
number 18-12149 (Auto-Owners), we AFFIRM IN
PART the dismissal of the Plaintiffs’ claims in
this action to the extent that they involve claims
for medical expenses allegedly paid by Health
First Administrative Plans, Inc. (HFAP). We
MODIFY the dismissal of these claims to be
without prejudice. We VACATE the dismissal of
the plaintiffs’ remaining claims in case number
18-12149. In case number 18-13049 (Travelers), we
AFFIRM the dismissal of the Plaintiffs’ claims but
MODIFY the dismissal of these claims to be
without prejudice.

86498 • SIMPSON • APPENDIX A

AL 3/10/21

33a
Appendix B
UNITED STATES DISTRICT COURT
FOR THE S OUTHERN D ISTRICT OF F LORIDA
M IAMI D IVISION

__________
CASE NO. 17-CV-23749

__________
CLASS ACTION

__________
March 9, 2018

__________
MSP R ECOVERY C LAIMS , S ERIES LLC,
Plaintiff,
—v.—
ACE A MERICAN I NSURANCE C OMPANY ,
a foreign profit corporation,

__________

86498 • SIMPSON • APPENDIX B

Defendant.

AL 3/11/21

34a
ORDER GRANTING MOTION
TO DISMISS WITH PREJUDICE
THIS MATTER came before the Court for hearing
on Defendant’s Motion to Dismiss Plaintiff’s Third
Amended Complaint [DE 38]. In the Third Amended
Complaint [DE 36], pursuant to the Medicare
Secondary Payer Act (MSPA), 42 U.S.C. § 1395y,
Plaintiff alleges it is entitled to reimbursement from
Defendant for payments made on behalf of Medicare
beneficiaries. Defendant seeks to dismiss the
complaint for lack of standing and for failing to state
a claim pursuant to Federal Rule of Civil Procedure
12(b)(6). Plaintiff filed a response [DE 39] and
Defendant filed a reply [DE 40].
Standing is a threshold question that the Court
must address to ensure it has subject-matter
jurisdiction over the claim. While the Third Amended
Complaint pleads additional facts compared to the
original complaint, the allegations still fail to
establish Plaintiff has standing as recognized under
the MSPA. Therefore, because Plaintiff fails to allege
standing to sue and the Court has already provided
Plaintiff with four opportunities1 to cure its defective
complaint, the Motion to Dismiss is granted with
prejudice.

1

After a motion to dismiss was filed in response to
Plaintiff’s original Complaint [DE 1], Plaintiff filed its First
Amended Complaint [DE 12]. Pursuant to the Court’s Order
to plead facts rather than a formulaic recitation of the
elements [DE 26], Plaintiff submitted a Second Amended
Complaint (SAC) [DE 28]. Pursuant to another Order
regarding the deficiencies in the SAC [DE 35], Plaintiff
submitted its Third Amended Complaint on January 19, 2018.

86498 • SIMPSON • APPENDIX B

AL 3/11/21

35a
I.

RELEVANT BACKGROUND

Plaintiff is an entity whose business model
involves obtaining assignments from various entities,
including Medicare Advantage Organizations, firsttier entities and downstream entities, to recover
reimbursement for payments made for the medical
expenses of Medicare beneficiaries that should have
been made by a private insurer pursuant to the
Medicare Secondary Payer Act (MSPA), 42 U.S.C.
§ 1395y(B)(3)(A). [DE 36 ¶ 1, 3]. Plaintiff filed this
class action as the assignee of three representative
entities—Hygea Holdings Corp., MMM Holdings,
LLC, and Health Care Advisor Services—to seek
reimbursement from Defendant pursuant to the
MSPA. [DE 36 ¶ 5, 6]. Because Plaintiff stands in the
shoes of its original assignors, the Court must
consider whether the original assignors have
standing. Because this claim is brought under
the private cause of action in the MSPA,
§ 1395y(B)(3)(A), the Court must consider the
statutory framework of the MSPA in its analysis.
A. The Medicare Secondary Payer Act
(MSPA)
In 1965, Congress enacted the Medicare Act to
establish a federally subsidized health insurance
program for the elderly and disabled. [DE 36 ¶ 64].
At the time, Medicare provided payment for medical
expenses even when Medicare beneficiaries were also
enrolled in third party insurance policies that
covered those same costs. See MSP Recovery, LLC v.
Allstate Ins.Co., 835 F.3d 1351 (11th Cir. 2016).
In an effort to reduce costs, Congress passed the
MSPA in 1980. The MSPA provides that Medicare
will be the secondary payer, rather than the primary

86498 • SIMPSON • APPENDIX B

AL 3/11/21

36a
payer, for medical services provided to its beneficiaries
when they are also covered for the same services by a
private insurer. 42 U.S.C. § 1395y. Under the MSPA,
the private insurer becomes the primary payer, as
defined by the terms in the statute, 2 for medical
services. However, Medicare may make conditional
payments when a primary payer cannot be expected to
make a payment for a service promptly. Id. Once
notified of its responsibility for a payment, a primary
payer must reimburseMedicare for any payment made
within 60 days. Id. In an effort to enforce this scheme,
the MSPA created a private cause of action for double
damages when a primary plan fails to provide for
primary payment. See § 1395y(B)(3)(A).
B. Medicare Advantage Organizations,
First-Tier Entities and Downstream
Entities
In 1997, Congress created the Medicare Part C
option to allow Medicare beneficiaries the option of
receiving Medicare benefits through private insurers
known as Medicare Advantage Organizations (MAOs).
See 42 U.S.C. §§ 1395w-21-w-23. To become an MAO,
an insurer must meet certain requirements set by
Medicare. See § 1395w-21. Medicare strictly construes
and regulates MAOs to ensure equivalence in all
respects with the traditional Medicare program.3 See
2

Primary payers are generally defined as a group
health plan, a workmen’s compensation plan, an automobile
or liability insurance plan, or no-fault insurance plan. See
§ 1395y(B)(2)(A).
3
An MAO has to abide by coverage determinations
provided by Medicare and all disputes go through the
traditional Medicare process. [DE 36 ¶ 73]. MAOs receive a
fixed fee per beneficiary directly from Medicare to provide
services to each Medicare beneficiary. [DE 36 ¶ 72].

86498 • SIMPSON • APPENDIX B

AL 3/11/21

37a
§ 1395w-23(c). MAOs contract directly with Medicare
to administer benefits for a Medicare beneficiary.
Humana Medical Plan Inc., v. Western Heritage Ins.
Co., 832 F.3d 1229, 1235 (11th Cir. 2016).
An MAO may then subcontract directly with thirdparty providers, known as first-tier entities and
downstream entities, to provide health care or
administrative services to the Medicare beneficiaries
in the MAO’s plan. See 42 C.F.R. § 422.2. First-tier
entities and downstream entities include
Management Service Organizations (MSOs) and
Independent Physician Associations (IPAs). [DE 36
¶ 95]. The MAO pays providers by either: (1) entering
into a written contract as described above where the
MAO agrees to pay certain rates for certain categories
of treatments, or (2) reimbursing a provider that is
outside the MAO’s network of contracted providers
for providing treatment to the beneficiary. Tenet
Healthsystem GB, Inc. v. Care Improvement Plus
South Central Ins. Co., 875 F.3d 584, 586 (11th Cir.
2017). These first-tier entities and downstream
entities “bear the full risk of loss pursuant to their
contractual obligations with MAOs.” [DE 36 ¶ 94].
Regardless of any relationship an MAO may have
with a first-tier entity or downstream entity, the
MAO maintains the ultimate responsibility for fully
complying with all terms and conditions of its
contract with Medicare. See 42 C.F.R. § 422.504.
C. Relevant Allegations o f t h e T h i r d
Amended Complaint
Plaintiff as assignee of three representative
entities—Hygea, MMM Holdings, and Health Care
Advisor Services—alleges Defendant, a private

86498 • SIMPSON • APPENDIX B

AL 3/11/21

38a
liability insurer, is a primary payer4 which failed to
perform its statutory obligation to reimburse
Plaintiff’s assignors for medical expense payments
made on behalf of Medicare beneficiaries. See §
1395y(2); [DE 36 ¶ 5, 6]. The relevant facts that are
alleged in Plaintiff’s three representative claims are:
1. R.C. and Hygea Holdings Corp. (“Hygea”): R.C.
was enrolled in a Medicare Advantage plan
managed by Hygea. [DE 36 ¶ 32]. R.C.’s
medical expenses were “subsequently paid” by
Hygea. Id. Hygea was “charged” $1,227.48.
[DE 36 ¶ 36]. Two assignments were subse quently made: (1) Hygea assigned its rights to
recover conditional payments to MSP Recovery,
LLC on September 15, 2015; and later (2) MSP
Recovery, LLC assigned the rights acquired
from Hygea to Series 15-08-19, LLC on June 12,
2017. [DE 36 ¶ 59, 60].
2. D.G. and MMM Holdings, LLC (“MMM
Holdings”): D.G. was enrolled in a Medicare
Advantage plan managed by MMM Holdings.
[DE 36 ¶ 25]. D.G.’s medical expenses were
“subsequently paid” by MMM Holdings. Id.
MMM Holdings was “charged” $1,892.84. [DE 36
¶ 29]. Two assignments were subsequently
made: (1) MMM Holdings assigned its rights to
recover conditional payments to MSP Recovery,
LLC on June 12, 2017; and later (2) MSP
Recovery, LLC further assigned the rights
4

Plaintiff alleges Defendant is a primary payer by
virtue of settlements it entered into with Medicare
beneficiaries, as well as contractual obligations under its
insurance policies to provide coverage to its insureds. [DE 36
¶ 4, 5].

86498 • SIMPSON • APPENDIX B

AL 3/11/21

39a
acquired from MMM Holdings to Series 17-02554, LLC on June 12, 2017. [DE 36 ¶ 56, 57].
3. E.F. (“E.F.”) and Health Care Advisor Services:
E.F. was enrolled in a Medicare Advantage plan
managed by Health Care Advisor Services. [DE
36 ¶ 17]. E.F.’s medical expenses were
“subsequently charged” to Health Care Advisor
Services in the amount of $29,883.14. [DE 36
¶ 17, 22.] Two assignments were subsequently
made: (1) Health Care Advisor Services assigned
its rights to recover its conditional payments to
MSP Recovery, LLC, a different entity than the
Plaintiff, on August 28, 2015; and later (2) MSP
Recovery, LLC further assigned the rights
acquired from Health Care Advisor Services to
Series 15-08-27 LLC on June 12, 2017.5 [DE 36
¶ 53, 54].
Plaintiff does not specifically allege if its original
assignors are either MAOs or non-MAOs, or first-tier
entities or downstream entities in the Third
Amended Complaint. The three assignment
agreements contain identical broad language
describing the assignors as entities that “operate a
Health Maintenance Organization, MSO, IPA,
Medical Center, and/or is a Physician and/or
otherwise . . . provides or arranges for the provision of
care, services, and/or supplies including medications,
treatments or other procedures to persons covered
under [Medicare] and other third party.” [DE 36-7;
36-9; 36-11]. In response to the present motion to
5

Defendant challenges the legitimacy of the
assignments. The Court will not reach that issue, and for the
purposes of this motion accepts and refers to the Plaintiff’s
alleged assignors as the “Plaintiff’s assignors.”

86498 • SIMPSON • APPENDIX B

AL 3/11/21

40a
dismiss, Plaintiff first asserts Hygea and Health Care
Advisor Services are MSOs and MMM Holdings is an
MAO [DE 39 at 6].
For each representative claim, Plaintiff contends its
assignors conditionally paid for medical services that
Defendant should have paid as a primary payer
under the MSPA. Plaintiff seeks double damages
under § 1395y(B)(3)(A) because of Defendant’s
alleged failure to properly reimburse Plaintiff’s
assignors. Plaintiff also seeks reimbursement for the
amount “billed”6 to the assignors and class members
for medical treatment provided to the Medicare
beneficiaries during the time period which Defendant
was a primary payer. [DE 36 ¶ 14].
II. STANDARD OF REVIEW
Standing is a threshold question that must be
addressed prior to, and independent of, the merits of a
party’s claim because it addresses the Court’s
jurisdiction to adjudicate the claim. DiMaio v.
Democratic Nat’l Comm., 520 F.3d 1299, 1301 (11th
Cir. 2008). The party invoking federal jurisdiction
bears the burden of establishing standing. Lujan v.
Defs. of Wildlife, 504 U.S. 555, 561 (1992). To
establish standing, the plaintiff has the burden to
show: (1) that it suffered an injury-in-fact that is (a)
concrete and particularized, and (b) actual or
imminent; (2) a causal connection between the injury
and the conduct complained of (and not the result of
the independent action of some third party not before
the court); and (3) that it is likely, not merely
speculative, that the injury will be redressed by a
6

Defendant contends the Complaint should set forth
the amount that was paid, not billed.

86498 • SIMPSON • APPENDIX B

AL 3/11/21

41a
favorable decision. Id. at 560 (citations omitted).
Plaintiff must support each element of standing in
the same way as any other matter on which the
plaintiff bears the burden of proof, with the manner
and degree of evidence required at the successive
stages of litigation. See id.
Standing requires a careful judicial examination of
a complaint’s allegations to ascertain whether the
particular plaintiff is entitled to an adjudication of
the particular claims asserted. DiMaio, 520 F.3d at
1301. A plaintiff lacks standing if the complaint
merely sets forth facts from which courts could
imagine an injury. Id. (citations omitted). The Court
should not speculate concerning the existence of
standing; if the plaintiff fails to meet his burden, the
Court cannot create jurisdiction by embellishing a
deficient allegation of injury. Id. (citations omitted).
In evaluating a standing challenge, the Court must
first determine if a factual or facial challenge has been
raised. Lawrence v. Dunbar, 919 F.2d 1525, 1529 (11th
Cir. 1990). A facial attack requires the court to
determine if the plaintiff has sufficiently alleged a
factual basis of subject matter jurisdiction, and the
allegations in the complaint are taken as true for the
purposes of the motion. See McElmurray v. Consol.
Gov’t of August-Richmond Cnty., 501 F.3d 1244, 1251
(11th Cir. 2017) (citations omitted). A factual attack,
on the other hand, challenges the existence of
jurisdiction irrespective of the pleadings, and matters
outside of the pleadings such as testimony and
affidavits are considered. Id. (citations omitted).
Here, the Court will address each representative
claim separately either as a factual or facial attack
based on the motion to dismiss. Generally, Defendant
facially attacks the Third Amended Complaint,

86498 • SIMPSON • APPENDIX B

AL 3/11/21

42a
arguing a dearth of facts as to each representative
claim, including: the name of the MAO; the name of
the medical provider; and the relationship between
the assignor, the beneficiary, and the provider. [DE
38 at 3-5]. Defendant also makes a factual attack
that the assignors are non-MAOs. [DE 38 at 6].
Plaintiff concedes that two assignors are non-MAOs,
but asserts that assignor MMM Holdings is an MAO.
[DE 39]. Defendant maintains that MMM Holdings is
a non-MAO. [DE 40 at 5]. Therefore, the Court’s
analysis of the claim involving D.G. and MMM
Holdings will be on the basis of a factual attack. For
the claims involving R.C. and Hygea, and E.F. and
Health Care Advisor Services, the Court will proceed
on the basis of afacial attack.
III. ANALYSIS
Because the Plaintiff asserts standing pursuant to
the private cause of action in the MSPA, the Court
must first determine who can bring a claim under §
1395y(B)(3)(A). The language creating the private
cause of action states:
There is established a private cause of action
for damages (which shall be in an amount
double the amount otherwise provided) in
the case of a primary plan which fails to
provide for primary payment (or appropriate
reimbursement) in accordance with
paragraphs (1) and (2)(A).
42 U.S.C. § 1395y(B)(3)(A). The Plaintiff’s theory is
that § 1395y(B)(3)(A) allows for any private party to
bring a claim. [DE 36 ¶ 86]. Because the statute is
silent regarding who may file a claim, courts have
interpreted the meaning of “private cause of action”
to identify who may assert a claim. The Eleventh

86498 • SIMPSON • APPENDIX B

AL 3/11/21

43a
Circuit has determined that § 1395y(B)(3)(A) is not a
qui tam statute that authorizes any private person to
sue on behalf of the government. See MSP Recovery
LLC, v. Allstate Ins. Co., 835 F.3d 1351, 1363 at n.3
(11th Cir. 2016) (citations omitted). Rather,
§ 1395y(B)(3)(A) allows a private party to sue only
where that party itself has suffered an injury under the
statute. Id. Therefore, the Court must first consider
which persons and entities meet this standard and
can bring a claim under § 1395y(B)(3)(A).
Courts have held that Medicare beneficiaries may
bring claims under § 1395y(B)(3)(A). See Stalley v.
Orlando Regional Healthcare System, 524 F.3d 1229,
1234 (11th Cir. 2008); Glover v. Liggett Group, Inc.,
459 F.3d 1304 (11th Cir. 2006). While not directly
examining standing,7 Glover involved two Medicare
beneficiaries who sought reimbursement from a
cigarette manufacturer for health care services
attributable to smoking. See Glover, 459 F.3d at
1305. In dicta, the court noted that the MSPA
created a private right of action to “encourage private
parties” who are aware of non-payment by primary
plans to bring actions to enforce Medicare’s rights.
See id. Here, relying on Glover, Plaintiff argues that
its assignors, which are not Medicare beneficiaries,
are encompassed under the term “private parties”
and thus may bring a claim.8 [DE 39 at 7]. However,
7

The issue in Glover was whether the individuals
could sue the manufacturer without first establishing
liability.
8
Plaintiff similarly relies on O’Connor v. Mayor and
City Council of Baltimore, 494 F. Supp. 2d 372 (D. Md. 2007)
to illustrate its assignors have standing. As in Glover, the
plaintiff in O’Connor was a Medicare beneficiary. Here,
Plaintiff’s assignors are not Medicare beneficiaries.

86498 • SIMPSON • APPENDIX B

AL 3/11/21

44a
because Glover was not directly dealing with
standing and the plaintiffs there were Medicare
beneficiaries, the Court can at most read Glover as
allowing Medicare beneficiaries to bring a claim
under § 1395y(B)(3)(A).9
Additionally, healthcare providers that initially
treated the Medicare beneficiary have been found by
the Sixth Circuit Court of Appeals to have standing
under § 1395y(B)(3)(A). See Mich. Spine & Brain
Surgeons, PLLC v. State Farm Mut. Auto. Ins. Co.,
758 F. 3d 787, 790 (6th Cir. 2014). The plaintiff in
Michigan Spine was an independent health provider
that treated the Medicare beneficiary directly, was
paid a reduced amount by Medicare, and filed a
lawsuit against the beneficiary’s insurer seeking
damages under the MSPA. See id. While standing
was not directly at issue in the case,10 the Court can
at most read Michigan Spine as allowing a healthcare provider that initially treated the Medicare
beneficiary to bring a claim under § 1395y(B)(3)(A).
Finally, MAOs may have standing under
§ 1395y(B)(3)(A). See Humana Medical Plan, Inc., v.
9

In Stalley v. Catholic Health Initiatives, 509 F.3d
517, 526 (8th Cir. 2007), the court found the congressional
intent behind the private cause of action was to provide
Medicare beneficiaries standing to sue their primary
insurers for expenses Medicare had already paid and to allow
beneficiaries to vindicate their own contractual or tort
interests. The court also noted that beneficiaries suffer an
injury because a conditional payment made by Medicare
leaves the beneficiary with a less than final settlement of
their liability to the provider. Id.
10
In Michigan Spine, the court was determining
whether the provider could sue a primary insurer that had
denied coverage because of a pre-existing condition, not on
the basis of Medicare eligibility.

86498 • SIMPSON • APPENDIX B

AL 3/11/21

45a
Western Heritage Ins. Co., 832 F.3d 1229 (11th Cir.
2016). In Humana, the court held that MAOs have
standing under § 1395y(B)(3)(A) because other areas
in the MSPA appeared to treat MAOs similarly as
Medicare. Humana, 832 F.3d at 1233. In dicta, the
Humana court referenced Michigan Spine to support
the proposition that direct health care providers who
have not been paid by a primary plan have standing
to bring a claim. Id. at 1235 (citations omitted).
Plaintiff relies on Humana to support its theory that
non-MAOs and, in particular, “private parties”
generally have standing.11 [DE 39 at 7]. However,
Humana only held that the private cause of action
was available to MAOs. See Humana, 832 F.3d at
1233. Even considering the court’s dicta, Humana at
most allows direct providers of medical services to
bring claims.12
Therefore, based on the Court’s review of the
statute and precedent, there is a two-prong test to
establish standing to bring a claim under
§ 1395y(B)(3)(A). First, the plaintiff must be either:
(1) a Medicare beneficiary; (2) an MAO; or a (3) direct
healthcare provider to the Medicare beneficiary.
Second, the plaintiff must show: (1) that it suffered
an injury-in-fact; (2) a causal connection between the
11

Plaintiff disappointingly misquotes Humana to
suggest that decision supports the theory that the cause of
action was available to any “private parties.” [DE 39 at 7].
Plaintiff ignores that the Eleventh Circuit was implicitly
supporting the proposition that direct providers had
standing under § 1395y(B)(3)(A). Humana, 832 F.3d at 1235.
12
To demonstrate that it has standing, Plaintiff also
relies on In re Avandia, 685 F.3d 353 (3d Cir. 2012).
However, that decision, like Humana, only held that MAOs
had a private right of action under the MSPA.

86498 • SIMPSON • APPENDIX B

AL 3/11/21

46a
injury and the conduct complained of; and (3) that it
is likely that the injury will be redressed by a
favorable decision. See, e.g., Lujan v. Defs. of
Wildlife, 504 U.S. 555, 561 (1992); Humana Medical
Plan, Inc., v. Western Heritage Ins. Co., 832 F.3d 1229
(11th Cir. 2016); Glover v. Liggett Group, Inc., 459
F.3d 1304 (11th Cir. 2006); Mich. Spine & Brain
Surgeons PLLC v. State Farm Mut. Auto. Ins. Co.,
758 F.3d 787 (6th Cir. 2014).
In this case, because Plaintiff is the assignee of
various claims, the Court must first determine
whether Plaintiff’s original assignor in each
representative claim is: (1) a Medicare beneficiary;
(2) an MAO; or (3) a direct healthcare provider to the
Medicare beneficiary in order to have standing under
§ 1395y(B)(3)(A). If not, the Plaintiff’s assignors are
not within the established entities that courts have
found have standing and the inquiry ends there.
A. CLAIM 1: HYGEA AND R.C.
In this claim, Hygea is Plaintiff’s original assignor.
Defendant contends the Third Amended Complaint
fails to allege the relationship between R.C., Hygea,
and the medical provider which treated R.C. Because
this constitutes a facial attack on Hygea’s standing, it
is only necessary to look to the Third Amended
Complaint to see if Plaintiff has sufficiently alleged
whether Hygea is an MAO or was the direct healthcare provider to R.C. in this claim. See McElmurray,
501 F.3d at 1251 (explaining that facial attacks
require the court to merely look at the complaint and
see if the plaintiff has sufficiently alleged a basis of
subject matter jurisdiction).
In the Third Amended Complaint, Plaintiff alleges
that R.C. was enrolled in a Medicare Advantage plan

86498 • SIMPSON • APPENDIX B

AL 3/11/21

47a
“managed by Hygea.” R.C.’s medical expenses were
“subsequently paid by Hygea” and Hygea was
“financially responsible” for R.C. Hygea was charged
$1,227.48. Plaintiff’s assignment agreement
describes Hygea expansively as operating “a Health
Maintenance Organization, MSO, IPA, Medical
Center, and/or is a Physician and/or otherwise . . .
provides or arranges for the provision of care,
services, and/or supplies including medications,
treatments or other procedures to persons covered
under [Medicare] and other third party.”
The Third Amended Complaint fails to allege facts
that Hygea is either an MAO or a direct healthcare
provider to R.C. in this claim. The Third Amended
Complaint simply states Hygea managed the plan in
which R.C. was enrolled and was also financially
responsible for R.C. In the Third Amended
Complaint’s attached exhibits regarding R.C.’s
services, Hygea is not listed anywhere as the
provider of medical services to R.C. In fact, only an
urgent care center appears as an apparent provider.
[DE 46-3]. Additionally, Plaintiff’s own assignment
agreement does not describe Hygea as either an MAO
or the direct healthcare provider of services to R.C. in
this claim. A court may not speculate concerning the
existence of standing; a plaintiff lacks standing if the
complaint merely sets forth facts from which courts
could imagine an injury. See DiMaio, 520 F.3d at
1301. Therefore, because Plaintiff has failed to
allege Hygea is either an MAO or a direct healthcare
provider to R.C. for this claim, Hygea has no standing
to bring a claim under § 1395y(B)(3)(A).13
13

Based on the parties’ filings, Hygea seeks
reimbursement for an amount charged due to the terms of its
private contract with an MAO called Wellcare. Thus, it

86498 • SIMPSON • APPENDIX B

AL 3/11/21

48a
B. CLAIM 2: MMM HOLDINGS AND D.G.
In this claim, MMM Holdings is Plaintiff’s original
assignor. In addition to the lack of facts alleged in the
Third Amended Complaint, Defendant contends that
MMM Holdings is not an MAO. Because this is a
factual attack on MMM Holdings’ standing, the
Court may consider matters outside of the pleadings
to determine if MMM Holdings is in fact an MAO.
See McElmurray, 501 F. 3d at 1251 (explaining that
factual attacks allow the court to consider matters
outside the pleadings, such as testimony and
affidavits).
In the Third Amended Complaint, Plaintiff alleges
that D.G. was enrolled in a Medicare Advantage plan
“managed by” MMM Holdings. D.G.’s medical
expenses were “subsequently paid” by MMM
Holdings. MMM Holdings was “charged” $1,892.84.
Plaintiff’s assignment agreement broadly describes
MMM Holdings as operating “a Health Maintenance
Organization, MSO, IPA, Medical Center, and/or is a
Physician and/or otherwise . . . provides or arranges
for the provision of care, services, and/or supplies;
including medications, treatments or other
procedures to persons covered under [Medicare] and
other third party.”
The Third Amended Complaint fails to allege
MMM Holdings is an MAO. Plaintiff first states
appears Hygea was not directly injured under the MSPA but
because of its relationship with Wellcare. Its claim must
instead be determined by reference to the written contract.
See Provident Care Mgmt., LLC v. Wellcare Health Plans
Inc., Case No. 16-cv-61873-BB, (S.D. Fla. Feb. 1, 2018) (“A
contract provider’s claims are determined entirely by
reference to the written contract, not the Medicare Act.”)

86498 • SIMPSON • APPENDIX B

AL 3/11/21

49a
MMM Holdings is an MAO based in Puerto Rico in
its response to the second motion to dismiss. [DE 39
at 6]. In resolving this factual issue, the Court
reviewed the Centers for Medicare & Medicaid
Services website, which provides an updated list of
MAOs. 14 The list was most recently updated in
February 2018 and MMM Holdings is not listed.
However, an entity with a similar name “MMM
Healthcare LLC” is listed. At the hearing on the
motion, Plaintiff represented that MMM Holdings is
the same entity as “MMM Healthcare.” However,
despite various opportunities to defeat this factual
attack, Plaintiff’s Third Amended Complaint fails to
allege any facts or provide evidence to show that the
two entities are one and the same. As previously
stated, the court cannot speculate concerning the
existence of standing. See DiMaio, 520 F.3d at 1301.
Based on the Court’s review, it is unclear what type
of entity MMM Holdings is and whether it has any
relationship to this claim or Medicare. Therefore,
because MMM Holdings is not listed on the website as
an MAO and the Medicare website is a source which
cannot be reasonably questioned, the Court takes
judicial notice that MMM Holdings is not an MAO
and thus lacks standing under § 1395y(B)(3)(A). See
Fed. R. Evid. 201.

14

Centers for Medicare & Medicaid Services,
https://www.cms.gov/Research-Statistics-Data-and-Systems/
Statistics-Trends-and-Reports/MCRAdvPartDEnrolData/MAPlan-Directory-Items/MA-Plan-Directory.html (last visited
March 5, 2018).

86498 • SIMPSON • APPENDIX B

AL 3/11/21

50a
C. CLAIM 3: HEALTH CARE ADVISOR
SERVICES AND E.F.
In this claim, Health Care Advisor Services is
Plaintiff’s original assignor. Defendant contends the
Third Amended Complaint fails to allege the
relationship between E.F., Health Care Advisor
Services, and the medical provider which treated
E.F. Because this constitutes a facial attack on
Health Care Advisor Services’ standing, the Court
will merely look to the pleadings to see if Plaintiff
has sufficiently alleged whether Health Care Advisor
Services is an MAO or was the direct healthcare
provider to E.F. in this claim. See McElmurray, 501
F. 3d at 125.
In the Third Amended Complaint, Plaintiff alleges
that E.F. was enrolled in a Medicare Advantage plan
“managed by” Health Care Advisor Services. E.F.’s
medical expenses were “subsequently charged” to
Health Care Advisor Services. Health Care Advisor
Services was charged $29,883.14. Plaintiff’s
assignment agreement describes Health Care
Advisor Services as operating “a Health Maintenance
Organization, MSO, IPA, Medical Center, and/or is a
Physician and/or otherwise . . . provides or arranges
for the provision of care, services, and/or supplies
including medications, treatments or other procedures
to persons covered under [Medicare] and other third
party.”
The Third Amended Complaint fails to allege
Health Care Advisor Services is either an MAO or a
direct healthcare provider to E.F. in this claim. The
Third Amended Complaint simply states Health Care
Advisor Services managed the plan in which E.F. was
enrolled and that E.F.’s medical expenses were

86498 • SIMPSON • APPENDIX B

AL 3/11/21

51a
charged to Health Care Advisor Services. In the
attached exhibits regarding E.F.’s medical services,
Health Care Advisor Services is not listed and only
various hospitals, clinics, and doctors appear as
providers. Additionally, Plaintiff’s own assignment
agreement does not describe Health Care Advisor
Services as either an MAO or the direct healthcare
provider of services to E.F. in this claim. Again, the
Court may not speculate regarding standing. See
DiMaio, 520 F.3d at 1301. Therefore, because
Plaintiff has failed to allege Health Care Advisor
Services is either an MAO or a direct healthcare
provider to E.F. for this claim, Health Care Advisor
Services lacks standing to bring a claim under
§ 1395y(B)(3)(A).
IV. CONCLUSION
Plaintiff has failed to allege that its original
assignors have standing under § 1395y(B)(3)(A).
Plaintiff’s theory is that § 1395y(B)(3)(A), by virtue
of providing a private cause of action, provides
standing to “all private parties.” However, courts
have determined that § 1395y(B)(3)(A) is not a qui
tam statute; only Medicare beneficiaries, MAOs, and
providers that directly treated the Medicare
beneficiaries have standing under § 1395y(B)(3)(A).
Despite four attempts to plead, and even after
standing was challenged in the first motionto dismiss
[DE 10], Plaintiff has still failed to allege that any of
its assignors are Medicare beneficiaries, MAOs, or
medical providers that directly treated the alleged
Medicare beneficiaries. In fact, the four template
complaints are all-encompassing and overly broad.
Each complaint is saddled with an overabundance of
conclusory statements obscuring any facts to support

86498 • SIMPSON • APPENDIX B

AL 3/11/21

52a
them. The Court’s role is to adjudicate the claim with
which it is presented; it is not to put a complaint in a
colander, shake out the excess, and see if what
remains is a potential claim for a plaintiff.
Therefore, because Plaintiff has failed four times to
allege facts to show standing, the Court can only
assume the facts do not exist and the assignors do
not have standing under § 1395y(B)(3)(A), As a
result, the Court lacks subject-matter jurisdiction to
hear this case. The Court need not allow an amendment when there has been “repeated failures to cure
deficiencies” by amendments previously allowed.
Corsello v. Lincare, Inc., 428 F.3d 1008, 1014 (11th
Cir. 2005) (citations omitted). Therefore, because
Plaintiff has failed four times to demonstrate
standing, the Court finds it is in the best interest of
judicial economy to grant the motion with prejudice.
Accordingly, it is
ORDERED THAT
(1) The Motion to Dismiss [DE 38] is GRANTED
WITH PREJUDICE.
(2) All pending motions are DENIED AS MOOT.
(3) This case is CLOSED.
DONE and ORDERED in Miami, Florida, this 9th
day of March, 2018.
/s/ Patricia A. Seitz
PATRICIA A. SEITZ
UNITED STATES DISTRICT JUDGE
CC: Counsel of Record

86498 • SIMPSON • APPENDIX B

AL 3/11/21

53a
Appendix C
UNITED STATES DISTRICT COURT
FOR THE S OUTHERN D ISTRICT OF F LORIDA
M IAMI D IVISION

__________
CASE NO. 1:17-cv-23841-PAS

__________
CONSOLIDATED CLASS ACTION

__________
April 24, 2018

__________
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff,
—v.—
A UTO -O WNERS I NSURANCE C OMPANY ,
a foreign profit corporation,

__________

86498 • SIMPSON • APPENDIX C

Defendant.

AL 3/11/21

54a

__________
Case No. 1:17-cv-24069-PAS

__________
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff,
—v.—
A UTO -O WNERS I NSURANCE C OMPANY ,
a foreign profit corporation,

__________

Defendant.

Case No. 1:17-cv-24066-PAS

__________
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff,
—v.—
O WNERS I NSURANCE C OMPANY ,
a foreign profit corporation,

__________

86498 • SIMPSON • APPENDIX C

Defendant.

AL 3/11/21

55a

__________
Case No. 1:17-cv-24068-PAS

__________
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff,
—v.—
S OUTHERN -O WNERS I NSURANCE C OMPANY ,
a foreign profit corporation,

__________

Defendant.

ORDER GRANTING MOTION
TO DISMISS WITH PREJUDICE
THIS MATTER is before the Court on
Defendants’
Motion
to
Dismiss
Plaintiff’s
Consolidated Complaint. [DE 54]. In the
Consolidated Complaint [DE 48], Plaintiff alleges
it is entitled to reimbursement from Defendants for
payments made on behalf of Medicare beneficiaries
pursuant to the Medicare Secondary Payer Act
(MSPA), 42 U.S.C. § 1395y(b). Defendants move to
dismiss for lack of standing and for failing to state
a claim. Fed. R. Civ. P. 12(b)(l), 12(b)(6). Plaintiff
filed a response [DE 57] to which Defendants
replied [DE 58]. Plaintiff also filed an Affidavit of
Michael Keeler [DE 60] which Defendants moved
to strike as an unauthorized sur-reply [DE 62].

86498 • SIMPSON • APPENDIX C

AL 3/11/21

56a
Standing is a threshold question that the Court
must address to ensure it has subject-matter
jurisdiction over the claim. While the Consolidated
Complaint pleads additional facts compared to the
original complaints, the allegations still fail to
establish Plaintiff has standing as recognized
under the MSPA. Therefore, because Plaintiff fails
to allege standing to sue and the Court has already
provided Plaintiff with numerous opportunities1 to
properly plead its claims, the Motion to Dismiss is
granted with prejudice.
I.

RELEVANT BACKGROUND

Plaintiff is an entity whose business model
involves obtaining assignments from Medicare
Advantage Organizations, first-tier entities and
downstream entities to recover reimbursement for
payments made for the medical expenses of
Medicare beneficiaries that should have been
made by a private insurer pursuant to the
Medicare Secondary Payer Act (MSPA), 42 U.S.C.
§ 1395y(b). [DE 48 ¶ 89]. Plaintiff filed this class
action as the assignee of two entities-Health First
Administrative Plans, Inc. and Verimed IPA, LLC—
to seek reimbursement from Defendants pursuant
to the MSPA. [DE 48 ¶¶ 14, 29]. Therefore, the
Court must consider whether Health First
Administrative Plans, Inc. and Verimed IPA, LLC
have standing under the private cause of action in
the MSPA, § 1395y(b)(3)(A).
1

This matter involves the consolidation of four
separate cases filed by Plaintiff. The operative, consolidated
complaint represents Plaintiff’s fourteenth attempt at
pleading its claims.

86498 • SIMPSON • APPENDIX C

AL 3/11/21

57a
A. The Medicare Secondary Payer Act
(MSPA)
Congress enacted the Medicare Act in 1965 to
establish a health insurance program for the
elderly and disabled. At that time, Medicare paid
for medical expenses even when Medicare
beneficiaries were also enrolled in third-party
insurance policies that covered those same costs.
See MSP Recovery, LLC v. Allstate Ins. Co., 835
F.3d 1351, 1354 (11th Cir. 2016). In an effort to
reduce costs, Congress passed the MSPA in 1980
which made Medicare the secondary payer, rather
than the primary payer, for medical services
provided to its beneficiaries when they are covered
for the same services by a private insurer. See
§ 1395y(b)(2). Thus, the private insurer becomes
the primary payer, as defined by the statute,2 for
medical services. However, when a primary payer
cannot be expected to make a payment for a service
promptly, Medicare may make conditional payments. § 1395y(b)(2)(B)(i). Once notified of its
responsibility for a payment, a primary payer
must reimburse Medicare for any payment made
within 60 days. § 1395y(b)(2)(B)(ii). In an effort to
enforce this scheme, the MSPA created a private
cause of action for double damages when a primary
plan fails to provide payment. See § 1395y(b)(3)(A).

2

Primary payers are generally defined as a group
health plan, a workmen’s compensation plan, an automobile
or liability insurance plan, or no-fault insurance plan. See
§ 1395y(b)(2)(A).

86498 • SIMPSON • APPENDIX C

AL 3/11/21

58a
B. Medicare Advantage Organizations,
First-Tier Entities and Downstream
Entities
In 1997, Congress created Medicare Part C to
give Medicare beneficiaries the option of receiving
Medicare benefits through private insurers known
as Medicare Advantage Organizations (MAOs). See
42 U.S.C. § 1395w-21. MAOs contract directly with
Medicare to administer benefits for a Medicare
beneficiary. See Humana Medical Plan Inc., v.
Western Heritage Ins. Co., 832 F.3d 1229, 1235
(11th Cir. 2016).
An MAO may then separately contract with thirdparties, known as first-tier entities and downstream
entities, to provide health care or administrative
services to the Medicare beneficiaries in the MAO’s
plan.3 See 42 C.F.R. § 422.2. The MAO pays first-tier
entities and downstream entities certain rates for
certain categories of treatments. Tenet Healthsystem
GB, Inc. v. Care Improvement Plus South Central
Ins. Co., 875 F.3d 584, 586 (11th Cir. 2017). Plaintiff
alleges these first-tier entities and downstream
entities take on the “full risk” for a Medicare
beneficiary’s medical care. [DE 48 ¶¶ 85, 87].
C. Relevant Allegations of the
Consolidated Complaint
Plaintiff as assignee4 of two entities—Health First
Administrative Plans, Inc. (“HFAP”) and Verimed
3

First-tier entities and downstream entities include
Independent Physician Associations (IPAs). [DE 48 ¶¶ 83, 87].
4
Defendants contest the assignments made to Plaintiff.
For this Order, the Court will refer to the alleged assignors
as “assignors” but does not reach the issue of the legitimacy
of Plaintiff’s assignments.

86498 • SIMPSON • APPENDIX C

AL 3/11/21

59a
IPA, LLC (“Verimed”)—alleges Defendants are
primary payers5 which failed to perform their
statutory obligation pursuant to the MSPA to
reimburse Plaintiff’s assignors for medical payments made on behalf of Medicare beneficiaries.
[DE 48 ¶¶ 2, 4]. The relevant alleged facts as to
Plaintiff’s HFAP and Verimed claims are:
1. HFAP: As assignee of HFAP, Plaintiff brings
three representative claims. Medicare beneficiaries J.L, J.W and P.G. were each enrolled
in a Medicare Advantage plan issued and
managed by HFAP, an MAO. [DE 48 ¶¶ 8, 35,
45]. The medical providers issued bills to
HFAP for the medical expenses of J.L, J.W.
and P.G. which HFAP paid. [DE 48 ¶¶ 11, 39,
49].
2. Verimed: As assignee of Verimed, Plaintiff
brings two representative claims. Medicare
beneficiaries S.H. and P.L. were each
enrolled in a Medicare Advantage plan issued
and managed by Optimum HealthCare, Inc.
(“Optimum”), an MAO. [DE 48 ¶¶ 19, 55].
Optimum contracted with a first-tier entity,
Verimed, to provide services to S.H. and P.L.,
in exchange for a fixed fee. [DE 48 ¶¶ 20, 56].
Under its contract with Optimum, Verimed:
(1) incurred the cost of S.H.’s medical services
provided by Springhill Regional Hospital and
SDI Diagnostic Imaging; and (2) reimbursed
Optimum for services P.L. received at Polk
5
Defendants are allegedly primary payers because
they: (1) issued no-fault insurance policies to the beneficiaries;
or (2) entered into settlements with the beneficiaries. [DE 48
¶¶ 2, 4].

86498 • SIMPSON • APPENDIX C

AL 3/11/21

60a
County, Central Florida Imaging Associates,
and Publix. [DE 48 ¶¶ 20, 26, 60; DE 48-7; DE
48-18].
Plaintiff alleges HFAP and Verimed assigned
their rights to recover conditional payments made
on behalf of Medicare beneficiaries. [DE 48 ¶¶ 14,
15, 29, 30]. Both assignment agreements contain
identical boilerplate language describing HFAP
and Verimed broadly as a “Health Maintenance
Organization, Maintenance Service Organization,
Independent Practice Association, Medical Center,
and/or other health care organization and/or
provider . . .” [DE 48-4; DE 48-8].
For each representative claim, Plaintiff contends
HFAP and Verimed conditionally paid for medical
services that Defendants should have paid as
primary payers under the MSPA. Plaintiff seeks
double damages under § 1395y(b)(3)(A), as well as
a reimbursement of damages under 42 C.F.R. §
411.24(e)6 because of Defendants’ alleged failure to
properly reimburse Plaintiff’s assignors.
II. STANDARD OF REVIEW
Standing is the threshold question that must be
addressed prior to, and independent of, the merits
of a party’s claim because it addresses the Court’s
jurisdiction to adjudicate the claim. DiMaio v.
Democratic Nat’l Comm., 520 F.3d 1299, 1301
6

Plaintiff argues that HFAP, as an MAO, has a
separate right of recovery under the MSPA regulations,
specifically 42 C.F.R. § 411.24(e). [DE 57 at 22]. As discussed
in this Order, HFAP is not an MAO. Therefore, even if
§ 411.24(e) allows for a separate right of recovery for MAOs,
Plaintiff does not have standing.

86498 • SIMPSON • APPENDIX C

AL 3/11/21

61a
(11th Cir. 2008). The party invoking federal
jurisdiction bears the burden of establishing
standing by showing: (1) that it suffered an injuryin-fact that is (a) concrete and particularized, and
(b) actual or imminent; (2) a causal connection
between the injury and the conduct complained of
(and not the result of the independent action of
some third party not before the court); and (3) that
it is likely, not merely speculative, that the injury
will be redressed by a favorable decision. Lujan v.
Defs. of Wildlife, 504 U.S. 555, 560 (1992). Plaintiff
must support each element of standing in the same
way as any other matter on which the plaintiff
bears the burden of proof, with the manner and
degree of evidence required at the successive
stages of litigation. Id.
The Court is required to carefully examine the
allegations to ascertain whether a plaintiff is
entitled to an adjudication of the claims asserted.
DiMaio, 520 F.3d at 1301. There is no standing
where the Court can only imagine an injury from
the facts in the complaint. Id. The Court should
not speculate concerning standing; if a plaintiff
fails to meet his burden, the Court cannot
embellish a deficient allegation of injury. Id.
In evaluating a standing challenge, the Court
must first determine if a factual or facial challenge
has been raised. Lawrence v. Dunbar, 919 F.2d
1525, 1529 (11th Cir. 1990). A factual attack
challenges the existence of jurisdiction irrespective
of the pleadings, and matters outside of the
pleadings such as testimony and affidavits are
considered. See McElmurray v. Consol. Gov’t of
August-Richmond Cnty., 501 F.3d 1244, 1251
(llthCir.2017). Here, Defendants make two factual
attacks that: (1) HFAP is not an MAO; and (2)

86498 • SIMPSON • APPENDIX C

AL 3/11/21

62a
Verimed was not the direct provider of medical
services to the beneficiaries in these claims. [DE
55 at 5, 7]. Plaintiff maintains that HFAP is an
MAO, and that Verimed was the direct provider of
medical services to the beneficiaries. [DE 57 at 7,
8]. Therefore, in light of the factual attacks, the
Court will examine the standing of HFAP and
Verimed.
III. ANALYSIS
While Plaintiff’s theory is that § 1395y(b)(3)(A)
allows any private entity to bring a claim,
the Eleventh Circuit has determined that
§ 1395y(b)(3)(A) is not a qui tam statute that
authorizes any private person to sue on behalf of
the government. See Allstate, 835 F.3d at 1363 at
n.3; see also [DE 48 ¶ 5]. Rather, § 1395y(b)(3)(A)
allows a private party to sue only where that party
itself has suffered an injury under the statute. Id.
The statutory language creating the private
cause of action states:
There is established a private cause of
action for damages (which shall be in an
amount double the amount otherwise
provided) in the case of a primary plan
which fails to provide for primary payment
(or appropriate reimbursement) in accordance with paragraphs (1) and (2)(A).
§ 1395y(b)(3)(A). Because the statute is silent,
courts have interpreted the meaning of “private
cause of action” to identify who may assert a claim.
Thus, this Court recently examined this issue in
another of Plaintiff’s cases. MSP Recovery Claims,
Series LLC v. ACE Am. Ins. Co., No. 17-CV-23749,
2018 WL 1547600, at *6 (S.D. Fl. Mar. 9, 2018).

86498 • SIMPSON • APPENDIX C

AL 3/11/21

63a
In the Eleventh Circuit, MAOs have standing
because the MSPA treats MAOs similarly as
Medicare. Humana, 832 F.3d at 1233. Plaintiff
misreads Humana to say MAOs have standing
under the statute simply because they suffer an
injury, just like any private party; thus, any private
party may bring a claim. [DE 57 at 4]. However,
MAOs suffer an injury because they make conditional
payments, just like traditional Medicare. Humana,
832 F.3d at 1238. Additionally, § 1395y(b)(3)(A) is
not a qui tam statute. Id. The Eleventh Circuit
underscores standing is limited by indicating that
MAOs are included within the purview of parties
who may bring a private cause of action. Humana,
832 F.3d at 1236.
The Eleventh Circuit has also recognized that
Medicare beneficiaries can bring a claim under §
1395y(b)(3)(A) for their medical costs paid by
Medicare, and that health care providers that
directly treated the Medicare beneficiary and were
paid a reduced amount by Medicare can also sue
under the statute. See Humana, 832 F.3d at 1229
(citing Mich. Spine & Brain Surgeons, PLLC v.
State Farm Mut. Auto. Ins. Co., 758 F.3d 787, 790
(6th Cir. 2014)); Glover v. Liggett Group, Inc., 459
F.3d 1304 (11th Cir. 2006). Therefore, under
§ 1395y(b)(3)(A), a plaintiff must be: (1) an MAO
who has made a conditional payment for health
care services to a Medicare beneficiary; (2) a
Medicare beneficiary whose healthcare services
were paid by Medicare; or (3) a direct health care
provider who has not been fully paid for services
provided to a Medicare beneficiary. If a plaintiff
falls into one of these categories, it then must
show: (1) an injury-in-fact; (2) a causal connection
between the injury and the conduct complained of;

86498 • SIMPSON • APPENDIX C

AL 3/11/21

64a
and (3) that it is likely that the injury will be
redressed favorably. See, e.g., Lujan, 504 U.S. at
561; Humana, 832 F.3d 1229; Glover, 459 F.3d
1304; Mich. Spine & Brain Surgeons, 758 F.3d 787.
In this case, Plaintiff contends HFAP is an MAO
and Verimed served as the direct healthcare
provider in these claims. [DE 48 ¶¶ 8, 25]. Given
this is a factual attack, if Plaintiff’s assignors are
not within the established entities that have
standing, the inquiry ends there.
A. ASSIGNOR 1: HFAP
The Consolidated Complaint alleges HFAP is an
MAO that issued and administered Medicare
Advantage plans to J.L, P.G., and J.W. and paid for
their medical expenses. See supra: at 5. Defendants,
on the other hand, contend HFAP is not an MAO.
[DE 54 at 5]. Plaintiff’s assignment agreement is
unclear, broadly describing HFAP as one of many
possible types of entities. See supra at 5-6. Because
this is a factual attack, the Court may consider
matters outside of the pleadings to determine if
HFAP is an MAO. See McElmurray, 501 F.3d at
1251 (factual attacks allow the court to consider
matters outside the pleadings, such as affidavits).
The Court reviewed the Centers for Medicare &
Medicaid Services website, which provides an
updated list of MAOs.7 The list was most recently
updated in April 2018 and HFAP is not listed.
Therefore, because the Medicare website is a
7

Centers for Medicare & Medicaid Services,
https://www.cms.gov/Research-Statistics-Data-and-Systems/
Statistics Trends-and-Reports/MCRAdvPartDEnrolData/MAPlan-Directory-Items/MA-Plan-Directory.html (last visited
April 24, 2018).

86498 • SIMPSON • APPENDIX C

AL 3/11/21

65a
source which cannot be reasonably questioned, the
Court takes judicial notice that HFAP is not an
MAO. See Fed. R. Evid. 201.
Despite Plaintiff’s unauthorized sur-reply, the
Court reviewed the affidavit of Michael Keeler, the
Chief Operating Officer of HFAP. [DE 60-1].
Keeler states that HFAP is an entity that performs
administrative functions on behalf of another
entity, “Health First Health Plans, Inc.” It is
Health First Health Plans, Inc. that contracts
directly with Medicare and is an MAO.8 Thus,
Plaintiff’s sworn affidavit contradicts its own
repeated allegations that HFAP “is an MAO”—an
argument it belabored in its response.9 [DE 57
at 8].
Through Keeler’s affidavit, Plaintiff appears to
argue that HFAP can step in the shoes of Health
First Health Plans, Inc., an MAO, to bring this
claim because HFAP has the “authority to manage
and act on behalf of Health First Health
Plans, Inc.” [DE 60-1]. The Court’s review of the
attached “Administrative and Financial Management Agreement” shows that HFAP only provides
“administrative, management, network access, and
financial services.”10 HFAP is simply a contractor
8

Id.
The status of HFAP is easily ascertainable on the
Medicare website. Plaintiff’s counsel is to remember its
professional duty of candor to the Court to avoid future
disciplinary issues.
10
Services provided by HFAP include: strategic
planning, consultation, coordination of benefits, financial
consultation and oversight of the assets, booking, information
systems support, access to HFAP’s networks, and other
services that may be reasonably required. [DE 60-1].
9

86498 • SIMPSON • APPENDIX C

AL 3/11/21

66a
to provide administrative and financial management
services. Nothing in the agreement demonstrates
that HFAP is contracted to pursue claims under
§ 1395y(b)(3)(A).
However, even if HFAP contracted with Health
First Health Plans, Inc. to pursue claims under
§ 1395y(b)(3)(A), a contract for services is not an
assignment of rights. HFAP cannot assign rights
to Plaintiff that were not assigned to it in the first
place. An assignment requires a transfer of all the
interests and rights to the “thing” assigned. MDS
Inc. v. Rad Source Technologies, Inc., 720 F.3d 833
(11th Cir. 2013) (citations omitted). Here, the
agreement Keeler provided is simply a contract for
services, not an assignment. Thus, HFAP cannot
assign any rights Health First Health Plans, Inc.
may have under § 1395y(b)(3)(A) to Plaintiff.
Therefore, based on the Medicare website and
the record evidence, the Court finds that HFAP is
not an MAO. HFAP has also not been assigned any
rights by Health First Health Plans, Inc., to
pursue claims under § 1395y(b)(3)(A). Therefore,
HFAP lacks standing under § 1395y(b)(3)(A).
A. ASSIGNOR 2: VERIMED
Plaintiff asserts that Verimed served as the
direct healthcare provider to S.H. and P.L. by
paying for their medical expenses. [DE 48 ¶¶ 21,
57]. On the contrary, Defendants contend that
Verimed was not the direct provider of S.H.’s and
P.L.’s medical services in these claims. [DE 54 at
4]. Plaintiff’s assignment agreement describes
Verimed broadly and does not clarify whether
Verimed was the direct healthcare provider to S.H.

86498 • SIMPSON • APPENDIX C

AL 3/11/21

67a
and P.L. See supra at 5-6. Because this is a factual
attack on Verimed’s standing, the Court will
resolve the dispute and determine if Verimed was
the direct medical provider of S.H.’s and P.L.’s
medical services. See McElmurray, 501 F.3d at
1251.
1. Verimed and S.H.
The Consolidated Complaint alleges that
medical expenses for S.H. were “incurred” by
Verimed. [DE 48 ¶ 26]. Plaintiff’s exhibit shows
that S.H. received services at Springhill Regional
Hospital and SDI Diagnostic. [DE 48-7]. Verimed
is not listed as a provider and the Consolidated
Complaint does not allege whether there is any
relationship between Verimed and the providers in
the exhibit. Thus, it is clear Verimed did not
provide any treatment to S.H.
Plaintiff artfully expands the term “provider” to
include anyone who pays for services. [DE 48 125].
By doing so, Plaintiff attempts to shoehorn
Verimed to fit the Ace test where direct providers
that treated the Medicare beneficiary have
standing under § 1395y(b)(3)(A). See Ace, 2018 WL
1547600, at *5 (citing Mich. Spine & Brain
Surgeons, 758 F. 3d at 790). In Ace, the Court
relied on Michigan Spine & Brain Surgeons, 758
F.3d at 790, where the plaintiff was a provider who
directly treated a Medicare beneficiary and received
a reduced payment from Medicare. Here, that is
not the case. Verimed did not provide any treatment
services to S.H. and no facts demonstrate any
relationship between Verimed and Springhill
Regional Hospital and SDI Diagnostic. [DE 48 ¶ 26].

86498 • SIMPSON • APPENDIX C

AL 3/11/21

68a
Therefore, the Court finds that Verimed was not
the direct healthcare provider that treated S.H.
and lacks standing under § 1395y(b)(3)(A).
2. Verimed and P.L.
Plaintiff alleges that Verimed served as a medical
provider and reimbursed Optimum for P.L.’s
medical expenses pursuant to its agreement.11 [DE
48 ¶¶ 60, 61]. However, a review of Plaintiff’s
exhibit shows that P.L. received services at Polk
County, Central Florida Imaging Associates, and
Publix Pharmacy. [DE 48-18]. Verimed is not
listed as a provider to P.L. and there are no facts
alleged to illustrate if there is any relationship
between the providers listed and Verimed. Thus,
because Plaintiff has failed to allege that Verimed
was the direct provider of treatment services to
P.L., Verimed lacks standing to bring this claim
under § 1395y(b)(3)(A).
IV. CONCLUSION
Plaintiff has failed to allege its original
assignors have standing under § 1395y(b)(3)(A).
Plaintiff’s theory is that § 1395y(b)(3)(A), by
virtue of providing a private cause of action,
11

Verimed apparently seeks reimbursement for a
payment made pursuant to Optimum under the terms of its
private capitation contract. Thus, if Verimed suffered a loss,
it was a result of its contractual relationship with Optimum.
Its claim must instead be determined by reference to the
written contract. See Provident Care Mgmt., LLC v. WellCare
Health Plans Inc., Case No. 16-CV-61873-BB, (S.D. Fla.
Feb. 1, 2018) (“A contract provider’s claims are determined
entirely by reference to the written contract, not the Medicare
Act.”)

86498 • SIMPSON • APPENDIX C

AL 3/11/21

69a
provides standing to all private parties. However,
§ 1395y(b)(3)(A) is not a qui tam statute; only
Medicare beneficiaries, MAOs, and providers that
directly treated the Medicare beneficiaries have
standing to bring a claim under § 1395y(b)(3)(A).
Despite its fourteenth attempt at pleading its
claims, Plaintiff has still failed to allege that any
of its assignors are Medicare beneficiaries, MAOs
or medical providers that directly treated the
Medicare beneficiaries in these claims. As the
evidence shows, this fatal defect cannot be cured.
Plaintiff’s assignors simply are not within the
purview of parties who can bring a claim under
§ 1395y(b)(3)(A).
Therefore, because Plaintiff’s own evidence
confirms that it cannot allege facts to show
standing,
the
Court
lacks
subject-matter
jurisdiction to hear this case. The Court need not
allow an amendment when there has been
“repeated failures to cure deficiencies” by
previously allowed amendments. Corsello v.
Lincare, Inc., 428 F.3d 1008, 1014 (11th Cir. 2005)
(citations omitted). Therefore, the Court finds it is
in the best interest of judicial economy to grant the
motion with prejudice. Accordingly, it is
ORDERED THAT
(1) The Motion to Dismiss [DE 54] is GRANTED
WITH PREJUDICE.
(2) All
MOOT.

pending

motions

are

DENIED

AS

(3) This case is CLOSED.

86498 • SIMPSON • APPENDIX C

AL 3/11/21

70a
DONE and ORDERED in Miami, Florida, this
24th day of April, 2018.
/s/ Patricia A. Seitz
PATRICIA A. SEITZ
UNITED STATES DISTRICT JUDGE
CC: Counsel of Record

86498 • SIMPSON • APPENDIX C

AL 3/11/21

71a
Appendix D
UNITED STATES DISTRICT COURT
FOR THE S OUTHERN D ISTRICT OF F LORIDA
M IAMI D IVISION

__________
CASE NO. 17-CV-23749

__________
May 18, 2018

__________
CLASS ACTION

__________
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff,
—v.—
ACE A MERICAN I NSURANCE C OMPANY ,
a foreign profit corporation,
Defendant.

__________

86498 • SIMPSON • APPENDIX D NEW

AL 4/5/21

72a
ORDER DENYING MOTION
FOR RECONSIDERATION
THIS MATTER is before the Court on Plaintiff’s
Motion for Rehearing of the Court’s Order Granting Motion to Dismiss [DE 56], arguing that it
seeks to correct a clear error of law and fact.
Plaintiff seeks reconsideration of the Court’s Order
on behalf of two of its assignors, Hygea Holding
Corps (“Hygea”) and Health Care Advisor Services
(“HCAS”).1 Defendant responded [DE 58] and
Plaintiff replied [DE 61]. The Court will deny the
motion because: (1) Plaintiff is rearguing its
earlier position that misreads and misquotes
binding precedent as to the private parties that
have standing under 42 U.S.C. § 1395y(b)(3)(A);
and (2) Plaintiff’s assignors are neither Medicare
Advantage Organizations (MAOs) or direct healthcare providers to the Medicare beneficiaries in this
claim.
I. Reconsideration Standard
Reconsideration of an order “is an extraordinary
remedy to be employed sparingly.” Burger King
Corp. v. Ashland Equities, Inc., 181 F. Supp. 2d
1366, 1370 (S.D. Fla. 2002). There are three
grounds for reconsideration: (1) an intervening
change in controlling law; (2) the availability of
new evidence; and (3) the need to correct clear
error or prevent manifest injustice. Id. at 1369. In
order to demonstrate clear error, a plaintiff must
do more than simply restate previous arguments.
1

Plaintiff filed a Notice [DE 57] withdrawing the
representative claim about a third assignor, MMM Holdings
LLC.

86498 • SIMPSON • APPENDIX D NEW

AL 4/5/21

73a
Bautista v. Cruise Ships Catering & Service Intern’l,
NV, 350 F. Supp. 2d 987,992 (S.D. Fla. 2003).
It is an improper use of the motion to
reconsider to ask the Court to rethink
what the Court . . . already thought
through—rightly or wrongly . . . The
motion to reconsider would be appropriate
where, for example, the Court has
patently misunderstood a party, or has
made a decision outside the adversarial
issues presented to the Court by the
parties, or has made an error not of
reasoning but of apprehension.
Z.K. Marine Inc. v. MIV Archigetis, 808 F. Supp.
1561, 1563 (S.D. Fla. 1992) (citations omitted and
brackets omitted). Thus, a “motion for reconsideration cannot be used to re-litigate old matters, raise
argument or present evidence that could have been
raised prior to the entry of the [challenged order].
This prohibition includes new arguments that were
previously available, but not pressed.” Wilchombe
v. Teevee Toons, Inc., 555 F.3d 949, 957 (11th Cir.
2009) (internal quotations and citations omitted).
Finally, when a litigant simply thinks a district
court’s ruling is wrong, the proper remedy is to
appeal the ruling, not to seek reconsideration.
Jacobs v. Tempur-Pedic International, Inc., 626
F.3d 1327, 1344 (11th Cir. 2010).
II. Discussion
The principal thrust of Plaintiff’s argument is
that the Court did not adopt its interpretation of
Humana Medical Plan Inc., v. Western Heritage
Ins. Co., 832 F.3d 1229, 1235 (11th Cir. 2016).

86498 • SIMPSON • APPENDIX D NEW

AL 4/5/21

74a
However, Plaintiff previously raised this argument
and the Court did not find it had legal merit. [DE
39 at 9]. If Plaintiff thinks the Court’s ruling is
wrong, the proper course of action is to appeal the
ruling.
As to the factual error prong of its argument,
Plaintiff’s Reply contradicts both the Motion and
the Third Amended Complaint which admit that
Hygea and HCAS reimbursed MAOs for treatment
given to these Medicare beneficiaries. [DE 56 at
13]. Although Hygea and HCAS generally serve as
medical providers, they did not provide medical
services to the Medicare beneficiaries in this case.2
[DE 46-1; DE 46-3]. Now, in an effort to get around
its own alleged facts, Plaintiff’s Reply claims that
HCAS directly provided treatment services and
refers to unclear statements made by counsel at a
hearing.3 [DE 61 at 5]. Overlooking this factual
flip-flop, the Court is only required to look at the
allegations in the Third Amended Complaint when
standing is under a facial attack. See McElmurray
v. Consol. Gov’t of Augusta-Richmond Cty., 501 F.3d
1244, 1251 (11th Cir. 2007). There are no allegations
that HCAS directly treated the Medicare beneficiary in this claim and thus no factual error was
made.
2

In its Order [DE 54], the Court relied on Michigan
Spine & Brain Surgeons, PLLC v. State Farm Mut. Auto. Ins.
Co., 758 F.3d 787, 790 (6th Cir. 2014), where the plaintiff
was a provider that directly treated a Medicare beneficiary.
Here, that is not the case.
3

Even if the Court could consider evidence outside the
Third Amended Complaint, arguments made by counsel are
not evidence. See United States v. Granville, 716 F .2d 819,
822 (11th Cir. 1983).

86498 • SIMPSON • APPENDIX D NEW

AL 4/5/21

75a
Therefore, because Plaintiff is attempting to
re-litigate matters that have already been raised
prior to the entry of the Court’s Order, and because
the only factual error is one that Plaintiff is
inappropriately trying to create, it is ORDERED
THAT Plaintiff’s Motion for Reconsideration [DE
56] is DENIED.
DONE and ORDERED in Miami, Florida, this 18th
day of May, 2018.
/s/ Patricia A. Seitz
PATRICIA A. SEITZ
UNITED STATES DISTRICT JUDGE
CC: Counsel of Record

86498 • SIMPSON • APPENDIX D NEW

AL 4/5/21

76a
Appendix E
UNITED STATES DISTRICT COURT
FOR THE S OUTHERN D ISTRICT OF F LORIDA

__________
CASE NO. 17-23628-CIV-WILLIAMS

__________
June 19, 2018

__________
MSP R ECOVERY C LAIMS , S ERIES LLC,
Plaintiff,
—v.—
T RAVELERS C ASUALTY

AND

S URETY C O .,

__________

Defendant.

ORDER
THIS MATTER is before the Court on Defendant
Travelers Casualty and Surety, Company’s
(“Defendant”) motion to dismiss Plaintiff MSP
Recovery Claims, Series LLC’s (“Plaintiff’’) amended
complaint for lack of subject matter jurisdiction and
failure to state a claim (DE 26), to which Plaintiff
filed a response in opposition (DE 35), and to which
Defendant filed a reply (DE 38). For the reasons set

86498 • SIMPSON • APPENDIX E

AL 4/5/21

77a
forth below, Defendant’s motion to dismiss (DE 26) is
GRANTED WITH PREJUDICE1 and this case is
DISMISSED for lack of subject matter jurisdiction.
I.

BACKGROUND

This lawsuit arises under the Medicare Secondary
Payer (“MSP”) provisions of the Medicare Act, 42
U.S.C. § 1395y et seq. Plaintiff’s class action
complaint against Defendant is one of numerous
similar actions filed by Plaintiff, and other related
entities, in courts across the country.2 Plaintiff is
1

As the Court in MSP Recovery Claims, Series LLC v.
Auto-Owners Ins. Co., No. 17-23841-PAS, 2018 WL 1953861
(S.D. Fla. Apr. 25, 2018) noted, “[s]tanding is a threshold
question that the Court must address to ensure it has
subject-matter jurisdiction over the claim. While the
Consolidated Complaint pleads additional facts compared to
the original complaints, the allegations still fail to establish
Plaintiff has standing as recognized under the MSPA.” Auto
Owners, 2018 WL 1953861, at *1. The facts of this case are
nearly identical to those in Auto-Owners, including the fact
that Plaintiff—which was one of the plaintiffs in AutoOwners—has had multiple opportunities to mend its
complaint. Therefore, because Plaintiff fails to allege
standing to sue and this Court—and other courts in this
District—has already provided Plaintiff with multiple
opportunities to properly plead its claims, the motion to
dismiss is granted with prejudice.
2

See, e.g., MAO-MSO Recovery II, LLC v. Am. Family
Mut. Ins. Co., No. 17-CV-175-JDP, 2018 WL 835160, at *1 (W.D.
Wis. Feb. 12, 2018); MAO-MSO Recovery II, LLC v. Gov’t
Employees Ins. Co., No. PWG-17-711, 2018 WL 999920, at *7 (D.
Md. Feb. 21, 2018); MAO-MSO Recovery II, LLC v. USAA Gas.
Insurance Co., No. 17-20946-CIV, 2018 WL 295527, at *1 (S.D.
Fla. Jan. 3, 2018); MAO-MSO Recovery II, LLC v. Boehringer
Ingelheim Pharm., Inc., 281 F. Supp. 3d 1309 (S.D. Fla. 2017);
MAO-MSO Recovery II, LLC v. Mercury Gen., No. CV 17-25q7AB (FFMX), 2017 WL 5086293, at *1 (C.D. Cal. Nov. 2, 2017);

86498 • SIMPSON • APPENDIX E

AL 4/5/21

78a
“an entity whose business model involves obtaining assignments from Medicare Advantage
Organizations [(“MAOs”)], first-tier entities, and
downstream entities to recover reimbursement for
payments made for the medical expenses of Medicare
beneficiaries that should have been made by a
private insurer pursuant to the Medicare Secondary
Payer Act (MSPA).” Auto-Owners, 2018 WL 1953861,
at *1 (citing 42 U.S.C. § 1395y(b)). Plaintiff filed this
class action as the assignee of Health First
Administrative Plans, Inc. to seek reimbursement
from Defendant pursuant to the MSPA.3 Thus, as the
Court in Auto-Owners noted, the threshold issue this
Court must consider is “whether Health First
Administrative Plans, Inc. has standing under
the private cause of action in the MSPA,
MAO-MSO Recovery II, LLC v. Farmers Ins. Exch., No.
217CV02522CASPLAX, 2017 WL 5634097, at *1 (C.D. Cal.
Nov. 20, 2017); MSPA Claims 1, LLC v. Covington Specialty
Ins. Co., 212 F. Supp. 3d 1250 (S.D. Fla. 2016), appeal
dismissed, No.17-11273-JJ, 2017 WL 4386453 (11th Cir.
Sept.19, 2017); MSPA Claims 1, LLC v. Tower Hill Prime Ins.
Co., No. 1:16-CV-20459-KMM, 2016 WL 4157592, at *1 (S.D.
Fla. Aug. 3, 2016), reconsideration denied, No. 1:16-CV-20459KMM, 2017 WL 1289321 (S.D. Fla. Mar. 31, 2017), appeal
dismissed (Sept. 19, 2017); MSPA Claims 1, LLC v. Liberty
Mut. Fire Ins. Co., No. 16-20271-CIV, 2016 WL 3751481, at *1
(S.D. Fla. July 14, 2016); MSP Recovery, LLC v. Progressive
Select Ins. Co., 96 F. Supp. 3d 1356 (S.D. Fla. 2015).
3
Although, as Defendant notes in its motion to dismiss,
Plaintiff’s amended complaint references only “unidentified
Medicare Advantage Organizations,” the Recovery Agreement
submitted by Plaintiff (DE 31, at 1) makes it clear that the
purported MAO that assigned its rights to Plaintiff is Health
First Administrative Plans, Inc., a Florida corporation that was
also the purported MAO assignor in MSP Recovery Claims,
Series LLC v. Auto-Owners Ins. Co., No. 17-23841-PAS, 2018
WL 1953861 (S.D. Fla. Apr. 25, 2018).

86498 • SIMPSON • APPENDIX E

AL 4/5/21

79a
§ 1395y(b)(3)(A).” Auto-Owners, 2018 WL 1953861, at
*1. Here, Defendant argues that Plaintiff lacks
standing to bring this case because Plaintiff has not
adequately pied, or actually suffered, an injury in
fact. To support this argument, Defendant contends
that Plaintiff has not pied a valid assignment of
claims against Defendant by an MAO to Plaintiff.
(DE 26, at 4). Defendant also presents several other
arguments as to why Plaintiff has failed to state a
claim under Fed. R. Civ. P. 12(b)(6) but, because this
case must be dismissed for, lack of subject matter
jurisdiction, we need not address the merits of
Defendant’s other arguments.
II. LEGAL STANDARD
a. Subject Matter Jurisdiction
A challenge to subject matter jurisdiction under
Rule 12(b)(1) of the Federal Rules of Civil Procedure
may be presented as either a facial or factual attack.
McElmurray v. Consol. Gov’t of August-Richmond
Cty., 501 F.3d 1244, 1251 (11th Cir. 2007). Facial
attacks challenge subject matter jurisdiction based
on the allegations in the complaint, which the district
court takes as true when considering the motion.
Lawrence v. Dunbar, 919 F.2d 1525, 1529 (11th Cir.
1990). In contrast, factual attacks challenge the
existence of subject matter jurisdiction in fact, and in
such cases “no presumptive truthfulness attaches to
plaintiff’s allegations.” Id. The Eleventh Circuit has
held that “the party invoking the court’s jurisdiction
bears the burden of proving, by a preponderance of
the evidence, facts supporting the existence of federal
jurisdiction.” McCormick v. Aderholt, 293 F.3d 1254,
1257 (11th Cir. 2002). Because standing is “not [a] mere

86498 • SIMPSON • APPENDIX E

AL 4/5/21

80a
pleading requirement[ ] but rather an indispensable
part of the plaintiff’s case, [it] must be supported in
the same way as any other matter on which the
plaintiff bears the burden of proof, i.e., with the
manner and degree of evidence required at the
successive stages of the litigation.” Lujan v. Defs. of
Wildlife, 504 U.S. 555, 559-60 (1992).
Article III standing has three elements: “[t]he
plaintiff must have (1) suffered an injury in fact, (2)
that is fairly traceable to the challenged conduct of
the defendant, and (3) that is likely to be redressed
by a favorable judicial decision.” Spokeo, Inc. v.
Robins, 136 S. Ct. 1540, 1547 (2016), as revised (May
24, 2016) (citing Lujan, 504 U.S. at 560-61)). To
satisfy the first “injury” element, the plaintiff must
demonstrate that the injury affects the plaintiff in a
personal and individual way. Id. at 1548; Valley
Forge Christian College v. Americans United for
Separation of Church and State, Inc., 454 U.S. 464,
472 (1982) (standing requires that the plaintiff
“personally has suffered some actual or threatened
injury”). Here, to demonstrate injury in fact, Plaintiff
must plead facts showing (1) that the MAO itself
suffered an injury in fact (i.e., the MAO was not
reimbursed for its enrollees’ medical expenses by
defendant who was responsible for primary payment
under the MSPA); and (2) that an MAO validly
assigned its rights of recovery to Plaintiff. See MAOMSO Recovery II, LLC v. Boehringer Ingelheim
Pharm., Inc., No. 1:17-CV-21996-UU, 2017 WL
4682335, at *4 (S.D. Fla. Oct. 10, 2017).

86498 • SIMPSON • APPENDIX E

AL 4/5/21

81a
b.The Medicare Secondary Payer Act
(“MSPA”) and Medicare Advantage
Organizations
The Court in Auto-Owners set forth a thorough
history of the MSPA:
Congress enacted the Medicare Act in 1965
to establish a health insurance program for
the elderly and disabled. At that time,
Medicare paid for medical expenses even
when Medicare beneficiaries were also
enrolled in third-party insurance policies
that covered those same costs. See MSP
Recovery, LLC v. Allstate Ins. Co., 835 F.3d
1351, 1354 (11th Cir. 2016). In an effort to
reduce costs, Congress passed the MSPA in
1980 which made Medicare the secondary
payer, rather than the primary payer, for
medical services provided to its beneficiaries
when they are covered for the same services
by a private insurer. See § 1395y(b)(2). Thus,
the private insurer becomes the primary
payer, as defined by the statute, for medical
services. However, when a primary payer
cannot be expected to make a payment for a
service promptly, Medicare may make
conditional payments. § 1395y(b)(2)(B)(i).
Once notified of its responsibility for a
payment, a primary payer must reimburse
Medicare for any payment made within 60
days. § 1395y(b)(2)(B)(ii). In an effort to
enforce this scheme, the MSPA created a
private cause of action for double damages
when a primary plan fails to provide
payment. See § 1395y(b)(3)(A).

86498 • SIMPSON • APPENDIX E

AL 4/5/21

82a
Auto-Owners, 2018 WL 1953861, at *1. Further, Part
C of the Medicare Act allows Medicare enrollees to
obtain their Medicare benefits through private
insurers, called Medicare Advantage Organizations
(“MAOs”), instead of receiving direct benefits from
the government under Parts A and B. 42 U.S.C.
§ 1395w-21(a); see also MAO-MSO Recovery II, LLC,
et al., v. State Farm Mutual Automobile Ins. Co., No.
1:17-CV-01541-JBM-JEH, 2018 WL 2392827, at *2
(C.D. Ill. May 25, 2018). “The MSP makes Medicare
insurance secondary to any ‘primary plan’ obligated
to pay a Medicare recipient’s medical expenses,
including a third-party tortfeasor’s automobile
insurance.” State Farm, 2018 WL 2392827, at *2
(quoting Parra v. PacifiCare of Ariz., Inc., 715 F.3d
1146, 1152 (9th Cir. 2013) (citing § 1395y(b)(2)(A))).
“In other words, Medicare serves as a back-up
insurance plan to cover that which is not paid for by
a primary insurance plan.” State Farm, 2018 WL
2392827, at *2 (quoting Caldera v. Ins. Co. of the
State of Pa., 716 F.3d 861, 863 (5th Cir. 2013)). The
Medicare Act provides that Medicare cannot pay
medical expenses when “payment has been made or
can reasonably be expected to be made under . . . an
automobile or liability insurance policy or plan . . . or
no fault insurance.” Id. (quoting § 1395y(b)(2)(A)(ii)).
Section 1395y(b)(3)(A) of the MSPA provides a
private cause of action against primary payers who
do not reimburse secondary payers for conditional
payments made to Medicare beneficiaries. State
Farm, 2018 WL 2392827, at *3. The Eleventh and
Third Circuits have held that subsection (3)(A)
permits an MAO to sue a primary plan that fails to
reimburse an MAO’s secondary payment. See
Humana Med. Plan, Inc. v. W. Heritage Ins. Co., 832

86498 • SIMPSON • APPENDIX E

AL 4/5/21

83a
F.3d 1229, 1238 (11th Cir. 2016); In re Avandia
Mktg., Sales Practices & Prods. Liab. Litig., 685 F.3d
353, 355 (3d Cir. 2012). In the wake of those
decisions, “district courts around the country have
followed suit.” State Farm, 2018 WL 2392827, at *3
(citing Humana Ins. Co. v. Paris Blank LLP, 187 F.
Supp. 3d 676, 681 (E.D. Va. 2016); Humana Med.
Plan, Inc. v. W. Heritage Ins. Co., 94 F. Supp. 3d 1285,
1290-91 (S.D. Fla. 2015); Cariten Health Plan, Inc. v.
MidCentury Ins. Co., No. 14-476, 2015 WL 5449221,
*5-6 (E.D. Tenn. Sept. 1, 2015); Collins v. Wellcare
Healthcare Plans, Inc., 73 F. Supp. 3d 653, 664-65
(E.D. La. 2014); Humana Ins. Co. v. Farmers Tex.
Cnty. Mut. Ins. Co., 95 F. Supp. 3d 983, 986 (W.D.
Tex. 2014)).
III. ANALYSIS
Plaintiff is not an MAO. Rather, as in other cases
involving the same Plaintiff and the same cause of
action, Plaintiff alleges that it has obtained claims
for reimbursement via assignment from an MAO,
Health First Administrative Plans, Inc. (“HFAP”).
Plaintiff alleges that Defendant is a primary payer
that failed to perform its statutory obligation
pursuant to the MSPA to reimburse Plaintiff’s
assignor for medical payments made on behalf of
Medicare beneficiaries. (DE 20, at 4). In order to
demonstrate a valid assignment, and therefore a
valid right to pursue these claims, Plaintiff provided
the Court with two documents: a “Recovery
Agreement,” dated April 28, 2016, between “Health
First Administrative Plans” (“HFAP”) and “MSP
Recovery, LLC.” (DE 31, at 1). These documents are
similar, if not identical, to the documents provided in

86498 • SIMPSON • APPENDIX E

AL 4/5/21

84a
similar cases, including Auto-Owners, 2018 WL
1953861 and State Farm, 2018 WL 2392827.
Defendant argues that this case should be
dismissed because “Plaintiff, who claims to be the
alleged assignee of HFAP pursuant to the exact same
assignment agreement analyzed by the Courts in
Auto-Owners and State Farm, has similarly not
demonstrated that HFAP is an MAO, [thus,] Plaintiff
does not have standing to maintain a cause of action
under the MSPA.” (DE 53, at 2). The Court agrees
with Defendant.
In State Farm, the Court noted that the “Plaintiffs
have led the Court to believe . . . that HFAP is an
MAO” and that the “Recovery Agreement purports to
assign all of HFAP’s rights of recovery under the
MSP provisions to Plaintiff.” State Farm, 2018 WL
2392827, at *3. As in State Farm, Plaintiff here has
provided the Court with a document titled
“Assignment,” dated June 12, 2017, wherein an
entity called MSP Recovery, LLC assigns all of its
rights from HFAP to “Series 16-05-456 LLC, a series
of MSP Recovery Claims, Series LLC.” (DE 31, at 14).
The State Farm Court went on to explain that “MSP
Recovery Claims, Series, LLC is the only Plaintiff
that has any alleged ‘rights’ to vindicate to support
standing in this case.” State Farm, 2018 WL
2392827, at *3. Plaintiff in this case is, in fact, MSP
Recovery Claims, Series, LLC. Further, Plaintiff’s
amended complaint is nearly identical to the
consolidated complaint that was dismissed in AutoOwners, a similar action by Plaintiff and its affiliated
entities in this District. In Auto-Owners, the Court
held that HFAP is not in fact an MAO and therefore
had no rights under the MSP provisions to assign

86498 • SIMPSON • APPENDIX E

AL 4/5/21

85a
MSP Recovery Claims, Series, LLC. (the same
Plaintiff in this case). Auto-Owners, 2018 WL
1953861, at *5.
In Auto-Owners, the Court stated that “[w]hile
Plaintiff’s theory is that § 1395y(b)(3)(A) allows any
private entity to bring a claim, the· Eleventh Circuit
has determined that § 1395y(b)(3)(A) is not a qui tam
statute that authorizes any private person to sue on
behalf of the government.” Auto-Owners, 2018 WL
1953861, at *3 (citing Allstate, 835 F.3d at 1363 at
n.3). “Rather, § 1395y(b)(3)(A) allows a private party
to sue only where that party itself has suffered an
injury under the statute.” Id. The statutory language
creating the private cause of action states:
There is established a private cause of action
for damages (which shall be in an amount
double the amount otherwise provided) in
the case of a primary plan which fails to
provide for primary payment (or appropriate
reimbursement) in accordance with para graphs (1) and (2)(A).
§ 1395y(b)(3)(A). “Because the statute is silent, courts
have interpreted the meaning of “private cause of
action” to identify who may assert a claim. AutoOwners, 2018 WL 1953861, at *4. The Auto-Owners
Court interpreted applicable Eleventh Circuit
precedent and held that to have standing to bring a
claim under Section 1395y(b)(3)(A) of the MSPA, “a
plaintiff must be: (1) an MAO who has made a
conditional payment for health care services to a
Medicare beneficiary; (2) a Medicare beneficiary
whose healthcare services were paid by Medicare; or
(3) a direct health care provider who has not been

86498 • SIMPSON • APPENDIX E

AL 4/5/21

86a
fully paid for services provided to a Medicare
beneficiary.” Id. Further, “[i]f a plaintiff falls into one
of these categories, it then must show: (1) an injuryin-fact; (2) a causal connection between the injury
and the conduct complained of; and (3) that it is
likely that the injury will be redressed favorably.”
Auto-Owners, 2018 WL 1953861, at .*4 (citing Lujan,
504 U.S. at 561; Humana, 832 F.3d 1229; Glover v.
Liggett Group, Inc., 459 F.3d 1304 (11th Cir. 2006);
Mich. Spine & Brain Surgeons, PLLC v. State Farm
Mut. Auto. Ins. Co., 758 F.3d 787, 790 (6th Cir.
2014)). The State Farm Court relied on the reasoning
from Auto- Owners to find, as the Court in AutoOwners found, that “because HFAP has not been
assigned any rights from [a separate MAO] to pursue
claims under § 1395y(b)(3)(A), Plaintiff MSP
Recovery Claims, Series, LLC also has no rights to
pursue claims under § 1395y(b)(3)(A).” State Farm,
2018 WL 2392827, at *6.
Here, as in Auto-Owners and State Farm, Plaintiff
has failed to allege that its original assignor, HFAP,
has standing under § 1395y(b)(3)(A). Plaintiff has
also failed to allege that HFAP, or any other
unidentified assignors, are Medicare beneficiaries,
MAOs or medical providers that directly treated the
Medicare beneficiaries in these claims. As noted in
Auto-Owners, this is a “fatal defect” because
“Plaintiff’s assignors simply are not within the
purview of parties who can bring a claim under
§ 1395y(b)(3)(A).” AutoOwners, 2018 WL 1953861, at
*6. Because HFAP—the entity that allegedly assigned
its rights to Plaintiff—is not an MAO, and thus lacks
standing to bring a private cause of action under the
MSPA, Plaintiff also lacks standing to bring a claim

86498 • SIMPSON • APPENDIX E

AL 4/5/21

87a
under Section 1395y(b)(3)(A) based on the purported
assignment of rights from HFAP.4
IV. CONCLUSION
For the reasons set forth above, the Court finds
that Plaintiff has failed to establish subject matter
jurisdiction. Federal Rule of Civil Procedure 12(h)(3)
requires that “[i]f the court determines at any time
that it lacks subject-matter jurisdiction, the court
must dismiss the action.” Fed. R. Civ. P. 12(h)(3).
Accordingly, it is ORDERED AND ADJUDGED
that Defendant’s motion to dismiss (DE 26) is
GRANTED and this action is DISMISSED WITH
PREJUDICE for lack of subject matter jurisdiction.5
4

The Court notes that, while it will not sua sponte
order Plaintiff to show cause regarding the imposition of
sanctions in this matter at this time, the Court in State
Farm ordered that because plaintiffs’ amended complaint
was “knowingly inaccurate,” and “there is absolutely no basis
in law to support the argument that HFAP is an MAO,”
plaintiffs were required to show cause as to why sanctions
should not be imposed under Fed. R. Civ. P. 11. State Farm,
2018 WL 2392827, at *7. Instead, Plaintiff here is reminded
of its duty of candor to the court and its obligation to comply
with the requirements of Rule 11.
5
As the Court in State Farm noted, “typically, when
cases are dismissed for lack of subject matter jurisdiction,
dismissal is without prejudice.” State Farm, 2018 WL
2392827, at *8, n.7. However, as in State Farm, the Court
here cannot “perceive how Plaintiffs could amend their
allegations in good faith to overcome the lack of subject
matter jurisdiction.” Id. Further, the Eleventh Circuit has
held that courts “need not allow an amendment when there
has been ‘repeated failures to cure deficiencies’ by previously
allowed amendments.” See Auto-Owners, 2018 WL 1953861,
at *6 (quoting Corsello v. Lincare, Inc., 428 F.3d 1008, 1014
(11th Cir. 2005)).

86498 • SIMPSON • APPENDIX E

AL 4/5/21

88a
All pending motions are DENIED AS MOOT. The
Clerk is directed to CLOSE this case.
DONE AND ORDERED in Chambers in Miami,
Florida, this 19th day of June, 2018.
/s/ Kathleen M. Williams
KATHLEEN M. WILLIAMS
UNITED STATES DISTRICT JUDGE

86498 • SIMPSON • APPENDIX E

AL 4/5/21

89a
Appendix F
UNITED STATES COURT OF APPEALS
FOR THE E LEVENTH C IRCUIT

__________
Filed November 9, 2020

__________
No. 18-12139-GG

__________
D.C. Docket No. 1:17-cv-23749-PAS

__________
MSP R ECOVERY C LAIMS , S ERIES LLC,
Plaintiff-Appellant,
—versus—
ACE A MERICAN I NSURANCE C OMPANY ,
Defendant-Appellee.

__________

86498 • SIMPSON • APPENDIX F

AL 4/5/21

90a

__________
No. 18-12149-GG

__________
D.C. Docket No. 1:17-cv-23841-PAS

__________
1:17-cv-23841-PAS
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff-Appellant,
—versus—
A UTO -O WNERS I NSURANCE C OMPANY ,
a foreign profit corporation,
Defendant-Appellee.

__________

1:17-cv-24066-PAS

__________
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff-Appellant,
—versus—
O WNERS I NSURANCE C OMPANY ,
a foreign profit corporation,
Defendant-Appellee.

__________

86498 • SIMPSON • APPENDIX F

AL 4/5/21

91a

__________
1:17-cv-24068-PAS

__________
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff-Appellant,
—versus—
S OUTHERN -O WNERS I NSURANCE C OMPANY ,
a foreign profit corporation,
Defendant-Appellee.

__________
1:17-cv-24069-PAS

__________
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff-Appellant,
—versus—
A UTO -O WNERS I NSURANCE C OMPANY ,
a foreign profit corporation,
Defendant-Appellee.

__________

86498 • SIMPSON • APPENDIX F

AL 4/5/21

92a

__________
No. 18-13049-GG

__________
D.C. Docket No. 1:17-cv-23628-KMW

__________
MSP R ECOVERY C LAIMS , S ERIES LLC,
a Delaware entity,
Plaintiff-Appellant,
—versus—
T RAVELERS C ASUALTY AND S URETY C OMPANY ,
a foreign profit corporation,
Defendant-Appellee.

__________
No. 18-13312-GG

__________
D.C. Docket No. 1:17-cv-22539-KMW

__________
MSP C LAIMS 1, LLC,
a Florida profit corporation,
Plaintiff-Appellant,
—versus—
L IBERTY M UTUAL F IRE I NSURANCE C OMPANY ,
a Foreign profit corporation,
Defendant-Appellee.

__________

86498 • SIMPSON • APPENDIX F

AL 4/5/21

93a

__________
Appeals from the United States District Court
for the Southern District of Florida

__________
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
BEFORE: JORDAN, JILL PRYOR, and WALKER,*
Circuit Judges.
PER CURIAM:
The Petitions for Rehearing En Banc are DENIED,
no judge in regular active service on the Court
having requested that the Court be polled on
rehearing en banc. (FRAP 35) The Petitions for
Rehearing En Banc are also treated as Petitions
for Rehearing before the panel and are DENIED.
(FRAP 35, IOP2)

ORD-42

* The Honorable John M. Walker, Jr., Circuit Judge for
the United States Court of Appeals for the Second Circuit,
sitting by designation.

86498 • SIMPSON • APPENDIX F

AL 4/5/21

94a
Appendix G
42 U.S.C.A. § 1395y

__________
§ 1395y. Exclusions from coverage
and medicare as secondary payer

__________
Effective: December 11, 2020

__________
(a) Items or services specifically excluded
Notwithstanding any other provision of this
subchapter, no payment may be made under
part A or part B for any expenses incurred for
items or services—
(1)(A) which, except for items and services
described in a succeeding subparagraph or
additional preventive services (as described in
section 1395x(ddd)(1) of this title), are not
reasonable and necessary for the diagnosis or
treatment of illness or injury or to improve the
functioning of a malformed body member,
(B) in the case of items and services
described in section 1395x(s)(10) of this title,
which are not reasonable and necessary for
the prevention of illness,

86498 • SIMPSON • APPENDIX G

AL 4/5/21

95a
(C) in the case of hospice care, which are not
reasonable and necessary for the palliation or
management of terminal illness,
(D) in the case of clinical care items and
services provided with the concurrence of the
Secretary and with respect to research and
experimentation conducted by, or under
contract with, the Medicare Payment
Advisory Commission or the Secretary, which
are not reasonable and necessary to carry out
the purposes of section 1395ww(e)(6) of this
title,
(E) in the case of research conducted
pursuant to section 1320b-12 of this title,
which is not reasonable and necessary to
carry out the purposes of that section,
(F) in the case of screening mammography,
which is performed more frequently than is
covered under section 1395m(c)(2) of this title
or which is not conducted by a facility
described in section 1395m(c)(1)(B) of this
title, in the case of screening pap smear and
screening pelvic exam, which is performed
more frequently than is provided under
section 1395x(nn) of this title, and, in the
case of screening for glaucoma, which is
performed more frequently than is provided
under section 1395x(uu) of this title,
(G) in the case of prostate cancer screening
tests (as defined in section 1395x(oo) of this
title), which are performed more frequently
than is covered under such section,

86498 • SIMPSON • APPENDIX G

AL 4/5/21

96a
(H) in the case of colorectal cancer screening
tests, which are performed more frequently
than is covered under section 1395m(d) of
this title,
(I) the frequency and duration of home
health services which are in excess of
normative guidelines that the Secretary shall
establish by regulation,
(J) in the case of a drug or biological
specified in section 1395w-3a(c)(6)(C) of this
title for which payment is made under part B
that is furnished in a competitive area under
section 1395w-3b of this title, that is not
furnished by an entity under a contract
under such section,
(K) in the case of an initial preventive
physical examination, which is performed
more than 1 year after the date the
individual’s first coverage period begins
under part B,
(L) in the case of cardiovascular screening
blood tests (as defined in section 1395x(xx)(1)
of this title), which are performed more
frequently than is covered under section
1395x(xx)(2) of this title,
(M) in the case of a diabetes screening test
(as defined in section 1395x(yy)(1) of this
title), which is performed more frequently
than is covered under section 1395x(yy)(3) of
this title,
(N) in the case of ultrasound screening for
abdominal aortic aneurysm which is performed

86498 • SIMPSON • APPENDIX G

AL 4/5/21

97a
more frequently than is provided for under
section 1395x(s)(2)(AA) of this title,
(O) in the case of kidney disease education
services (as defined in paragraph (1) of
section 1395x(ggg) of this title), which are
furnished in excess of the number of sessions
covered under paragraph (4) of such section,
and
(P) in the case of personalized prevention
plan services (as defined in section
1395x(hhh)(1) of this title), which are
performed more frequently than is covered
under such section;
(2) for which the individual furnished such
items or services has no legal obligation to pay,
and which no other person (by reason of such
individual’s membership in a prepayment plan or
otherwise) has a legal obligation to provide or pay
for, except in the case of Federally qualified
health center services;
(3) which are paid for directly or indirectly by a
governmental entity (other than under this
chapter and other than under a health benefits or
insurance plan established for employees of such
an entity), except in the case of rural health clinic
services, as defined in section 1395x(aa)(1) of this
title, in the case of Federally qualified health
center services, as defined in section 1395x(aa)(3)
of this title, in the case of services for which
payment may be made under section 1395qq(e)
of this title, and in such other cases as the
Secretary may specify;

86498 • SIMPSON • APPENDIX G

AL 4/5/21

98a
(4) which are not provided within the United
States (except for inpatient hospital services
furnished outside the United States under the
conditions described in section 1395f(f) of this
title and, subject to such conditions, limitations,
and requirements as are provided under or
pursuant to this subchapter, physicians’ services
and ambulance services furnished an individual
in conjunction with such inpatient hospital
services but only for the period during which
such inpatient hospital services were furnished);
(5) which are required as a result of war, or of
an act of war, occurring after the effective date of
such individual’s current coverage under such
part;
(6) which constitute personal comfort items
(except, in the case of hospice care, as is
otherwise permitted under paragraph (1)(C));
(7) where such expenses are for routine
physical checkups, eyeglasses (other than
eyewear described in section 1395x(s)(8) of this
title) or eye examinations for the purpose of
prescribing, fitting, or changing eyeglasses,
procedures performed (during the course of any
eye examination) to determine the refractive state
of the eyes, hearing aids or examinations
therefor, or immunizations (except as otherwise
allowed under section 1395x(s)(10) of this title
and subparagraph (B), (F), (G), (H), (K), or (P) of
paragraph (1));
(8) where such expenses are for orthopedic shoes
or other supportive devices for the feet, other
than shoes furnished pursuant to section
1395x(s)(12) of this title;

86498 • SIMPSON • APPENDIX G

AL 4/5/21

99a
(9) where such expenses are for custodial care
(except, in the case of hospice care, as is
otherwise permitted under paragraph (1)(C));
(10) where such expenses are for cosmetic
surgery or are incurred in connection therewith,
except as required for the prompt repair of
accidental injury or for improvement of the
functioning of a malformed body member;
(11) where such expenses constitute charges
imposed by immediate relatives of such individual
or members of his household;
(12) where such expenses are for services in
connection with the care, treatment, filling,
removal, or replacement of teeth or structures
directly supporting teeth, except that payment
may be made under part A in the case of
inpatient hospital services in connection with the
provision of such dental services if the
individual, because of his underlying medical
condition and clinical status or because of the
severity of the dental procedure, requires
hospitalization in connection with the provision
of such services;
(13) where such expenses are for—
(A) the treatment of flat foot conditions
and the prescription of supportive devices
therefor,
(B) the treatment of subluxations of the
foot, or
(C) routine foot care (including the cutting
or removal of corns or calluses, the trimming
of nails, and other routine hygienic care);

86498 • SIMPSON • APPENDIX G

AL 4/5/21

100a
(14) which are other than physicians’ services
(as defined in regulations promulgated
specifically for purposes of this paragraph),
services described by section 1395x(s)(2)(K) of this
title, certified nurse-midwife services, qualified
psychologist services, and services of a certified
registered nurse anesthetist, and which are
furnished to an individual who is a patient of a
hospital or critical access hospital by an entity
other than the hospital or critical access hospital,
unless the services are furnished under
arrangements (as defined in section 1395x(w)(1)
of this title) with the entity made by the hospital
or critical access hospital;
(15)(A) which are for services of an assistant at
surgery in a cataract operation (including
subsequent insertion of an intraocular lens)
unless, before the surgery is performed, the
appropriate quality improvement organization
(under part B of subchapter XI) or a carrier under
section 1395u of this title has approved of the
use of such an assistant in the surgical procedure
based on the existence of a complicating medical
condition, or
(B) which are for services of an assistant at
surgery to which section 1395w-4(i)(2)(B) of
this title applies;
(16) in the case in which funds may not be used
for such items and services under the Assisted
Suicide Funding Restriction Act of 1997;
(17) where the expenses are for an item or
service furnished in a competitive acquisition
area (as established by the Secretary under
section 1395w-3(a) of this title) by an entity

86498 • SIMPSON • APPENDIX G

AL 4/5/21

101a
other than an entity with which the Secretary
has entered into a contract under section 1395w3(b) of this title for the furnishing of such an item
or service in that area, unless the Secretary finds
that the expenses were incurred in a case of
urgent need, or in other circumstances specified
by the Secretary;
(18) which are covered skilled nursing facility
services described in section 1395yy(e)(2)(A)(i) of
this title and which are furnished to an
individual who is a resident of a skilled nursing
facility during a period in which the resident is
provided covered post-hospital extended care
services (or, for services described in section
1395x(s)(2)(D) of this title, which are furnished
to such an individual without regard to such
period), by an entity other than the skilled
nursing facility, unless the services are furnished
under arrangements (as defined in section
1395x(w)(1) of this title) with the entity made by
the skilled nursing facility;
(19) which are for items or services which are
furnished pursuant to a private contract
described in section 1395a(b) of this title;
(20) in the case of outpatient physical therapy
services, outpatient speech-language pathology
services, or outpatient occupational therapy
services furnished as an incident to a physician’s
professional services (as described in section
1395x(s) (2)(A) of this title), that do not meet the
standards and conditions (other than any
licensing requirement specified by the Secretary)
under the second sentence of section 1395x(p) of
this title (or under such sentence through the

86498 • SIMPSON • APPENDIX G

AL 4/5/21

102a
operation of subsection (g) or (ll)(2) of section
1395x of this title) as such standards and
conditions would apply to such therapy services if
furnished by a therapist;
(21) where such expenses are for home health
services (including medical supplies described in
section 1395x(m)(5) of this title, but excluding
durable medical equipment to the extent
provided for in such section) furnished to an
individual who is under a plan of care of the
home health agency if the claim for payment for
such services is not submitted by the agency;
(22) subject to subsection (h), for which a claim
is submitted other than in an electronic form
specified by the Secretary;
(23) which are the technical component of
advanced diagnostic imaging services described
in section 1395m(e)(1)(B) of this title for which
payment is made under the fee schedule
established under section 1395w-4(b) of this title
and that are furnished by a supplier (as defined
in section 1395x(d) of this title), if such supplier
is not accredited by an accreditation organization
designated by the Secretary under section
1395m(e)(2)(B) of this title;
(24) where such expenses are for renal dialysis
services (as defined in subparagraph (B) of
section 1395rr(b)(14) of this title) for which
payment is made under such section unless such
payment is made under such section to a
provider of services or a renal dialysis facility for
such services; or
(25) not later than January 1, 2014, for which
the payment is other than by electronic funds

86498 • SIMPSON • APPENDIX G

AL 4/5/21

103a
transfer (EFT) or an electronic remittance in a
form as specified in ASC X12 835 Health Care
Payment and Remittance Advice or subsequent
standard.
Paragraph (7) shall not apply to Federally qualified
health center services described in section
1395x(aa)(3)(B) of this title.
In making a national coverage determination (as
defined in paragraph (1)(B) of section 1395ff(f) of this
title) the Secretary shall ensure consistent with
subsection (l) that the public is afforded notice and
opportunity to comment prior to implementation by
the Secretary of the determination; meetings of
advisory committees with respect to the
determination are made on the record; in making the
determination, the Secretary has considered
applicable information (including clinical experience
and medical, technical, and scientific evidence) with
respect to the subject matter of the determination;
and in the determination, provide a clear statement
of the basis for the determination (including
responses to comments received from the public), the
assumptions underlying that basis, and make
available to the public the data (other than
proprietary data) considered in making the
determination.
(b) Medicare as secondary payer
(1) Requirements of group health plans
(A) Working aged under group health
plans
(i) In general
A group health plan—

86498 • SIMPSON • APPENDIX G

AL 4/5/21

104a
(I) may not take into account that
an individual (or the individual’s
spouse) who is covered under the
plan by virtue of the individual’s
current employment status with an
employer is entitled to benefits
under this subchapter under section
426(a) of this title, and
(II) shall provide that any individual
age 65 or older (and the spouse age 65
or older of any individual) who has
current employment status with an
employer shall be entitled to the
same benefits under the plan under
the same conditions as any such
individual (or spouse) under age 65.
(ii) Exclusion of group health plan
of a small employer
Clause (i) shall not apply to a group
health plan unless the plan is a plan of,
or contributed to by, an employer that
has 20 or more employees for each
working day in each of 20 or more
calendar weeks in the current calendar
year or the preceding calendar year.
(iii) Exception for small employers
in multiemployer or multiple
employer group health plans
Clause (i) also shall not apply with
respect to individuals enrolled in a
multiemployer or multiple employer
group health plan if the coverage of the
individuals under the plan is by virtue of
current employment status with an

86498 • SIMPSON • APPENDIX G

AL 4/5/21

105a
employer that does not have 20 or more
individuals in current employment status
for each working day in each of 20 or
more calendar weeks in the current
calendar year and the preceding
calendar year; except that the exception
provided in this clause shall only apply if
the plan elects treatment under this
clause.
(iv) Exception for individuals with
end stage renal disease
Subparagraph (C) shall apply instead of
clause (i) to an item or service furnished
in a month to an individual if for the
month the individual is, or (without
regard to entitlement under section 426
of this title) would upon application be,
entitled to benefits under section 426-1
of this title.
(v) “Group health plan” defined
In this subparagraph, and subparagraph
(C), the term “group health plan” has the
meaning given such term in section
5000(b)(1) of the Internal Revenue Code
of 1986, without regard to section
5000(d) of such Code.
(B) Disabled individuals in large group
health plans
(i) In general
A large group health plan (as defined in
clause (iii)) may not take into account
that an individual (or a member of the

86498 • SIMPSON • APPENDIX G

AL 4/5/21

106a
individual’s family) who is covered under
the plan by virtue of the individual’s
current employment status with an
employer is entitled to benefits under
this subchapter under section 426(b) of
this title.
(ii) Exception for individuals with
end stage renal disease
Subparagraph (C) shall apply instead of
clause (i) to an item or service furnished
in a month to an individual if for the
month the individual is, or (without
regard to entitlement under section 426
of this title) would upon application be,
entitled to benefits under section 426-1
of this title.
(iii) “Large group health plan”
defined
In this subparagraph, the term “large
group health plan” has the meaning
given such term in section 5000(b)(2) of
the Internal Revenue Code of 1986,
without regard to section 5000(d) of such
Code.
(C) Individuals with end stage renal
disease
A group health plan (as defined in
subparagraph (A)(v))—
(i) may not take into account that an
individual is entitled to or eligible for
benefits under this subchapter under
section 426-1 of this title during the 12month period which begins with the first

86498 • SIMPSON • APPENDIX G

AL 4/5/21

107a
month in which the individual becomes
entitled to benefits under part A under
the provisions of section 426-1 of this
title, or, if earlier, the first month in
which the individual would have been
entitled to benefits under such part
under the provisions of section 426-1 of
this title if the individual had filed an
application for such benefits; and
(ii) may not differentiate in the benefits
it provides between individuals having
end stage renal disease and other
individuals covered by such plan on the
basis of the existence of end stage renal
disease, the need for renal dialysis, or in
any other manner;
except that clause (ii) shall not
prohibit a plan from paying benefits
secondary to this subchapter when an
individual is entitled to or eligible for
benefits under this subchapter under
section 426-1 of this title after the end
of the 12-month period described in
clause (i). Effective for items and
services furnished on or after February
1, 1991, and before August 5, 1997,1
(with respect to periods beginning on
or after February 1, 1990), this
subparagraph shall be applied by
substituting “18-month” for “12month” each place it appears. Effective
for items and services furnished on or
after August 5, 1997, (with respect to
1

So in original. The comma probably should not appear.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

108a
periods beginning on or after the date
that is 18 months prior to August 5,
1997), clauses (i) and (ii) shall be
applied by substituting “30-month” for
“12-month” each place it appears.
(D) Treatment of certain members of
religious orders
In this subsection, an individual shall not be
considered to be employed, or an employee,
with respect to the performance of services as
a member of a religious order which are
considered employment only by virtue of an
election made by the religious order under
section 3121(r) of the Internal Revenue Code
of 1986.
(E) General provisions
For purposes of this subsection:
(i) Aggregation rules
(I) All employers treated as a single
employer under subsection (a) or (b)
of section 52 of the Internal Revenue
Code of 1986 shall be treated as a
single employer.
(II) All employees of the members
of an affiliated service group (as
defined in section 414(m) of such
Code) shall be treated as employed
by a single employer.
(III) Leased employees (as defined
in section 414(n)(2) of such Code)
shall be treated as employees of the
person for whom they perform

86498 • SIMPSON • APPENDIX G

AL 4/5/21

109a
services to the extent they are so
treated under section 414(n) of such
Code.
In applying sections of the Internal
Revenue Code of 1986 under this
clause, the Secretary shall rely upon
regulations and decisions of the
Secretary of the Treasury respecting
such sections.
(ii) “Current employment status”
defined
An individual has “current employment
status” with an employer if the
individual is an employee, is the
employer, or is associated with the
employer in a business relationship.
(iii) Treatment of self-employed
persons as employers
The term “employer” includes a selfemployed person.
(F) Limitation on beneficiary liability
An individual who is entitled to benefits
under this subchapter and is furnished an
item or service for which such benefits are
incorrectly paid is not liable for repayment of
such benefits under this paragraph unless
payment of such benefits was made to the
individual.
(2) Medicare secondary payer
(A) In general
Payment under this subchapter may not
be made, except as provided in subpara-

86498 • SIMPSON • APPENDIX G

AL 4/5/21

110a
graph (B), with respect to any item or
service to the extent that—
(i) payment has been made, or can
reasonably be expected to be made, with
respect to the item or service as required
under paragraph (1), or
(ii) payment has been made 2 or can
reasonably be expected to be made 2
under a workmen’s compensation law or
plan of the United States or a State or
under an automobile or liability insurance
policy or plan (including a self-insured
plan) or under no fault insurance.
In this subsection, the term “primary
plan” means a group health plan or large
group health plan, to the extent that
clause (i) applies, and a workmen’s
compensation law or plan, an automobile
or liability insurance policy or plan
(including a self-insured plan) or no fault
insurance, to the extent that clause (ii)
applies. An entity that engages in a
business, trade, or profession shall be
deemed to have a self-insured plan if it
carries its own risk (whether by a failure
to obtain insurance, or otherwise) in
whole or in part.
(B) Conditional payment
(i) Authority to make conditional
payment
The Secretary may make payment under
this subchapter with respect to an item
2

So in original. Probably should be “made,”.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

111a
or service if a primary plan described in
subparagraph (A)(ii)3 has not made or
cannot reasonably be expected to make
payment with respect to such item or
service promptly (as determined in
accordance with regulations). Any such
payment by the Secretary shall be
conditioned on reimbursement to the
appropriate Trust Fund in accordance
with the succeeding provisions of this
subsection.
(ii) Repayment required
Subject to paragraph (9), a primary plan,
and an entity that receives payment
from a primary plan, shall reimburse the
appropriate Trust Fund for any payment
made by the Secretary under this
subchapter with respect to an item or
service if it is demonstrated that such
primary plan has or had a responsibility
to make payment with respect to such
item or service. A primary plan’s responsi bility for such payment may be
demonstrated by a judgment, a payment
conditioned upon the recipient’s compromise, waiver, or release (whether or not
there is a determination or admission of
liability) of payment for items or services
included in a claim against the primary
plan or the primary plan’s insured, or by
other means. If reimbursement is not
made to the appropriate Trust Fund
before the expiration of the 60-day period
3

So in original. Probably should be “subparagraph (A)”.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

112a
that begins on the date notice of, or
information related to, a primary plan’s
responsibility for such payment or other
information is received, the Secretary
may charge interest (beginning with the
date on which the notice or other
information is received) on the amount of
the reimbursement until reimbursement
is made (at a rate determined by the
Secretary in accordance with regulations
of the Secretary of the Treasury
applicable to charges for late payments).
(iii) Action by United States
In order to recover payment made under
this subchapter for an item or service,
the United States may bring an action
against any or all entities that are or
were required or responsible (directly, as
an insurer or self-insurer, as a thirdparty administrator, as an employer that
sponsors or contributes to a group health
plan, or large group health plan, or
otherwise) to make payment with respect
to the same item or service (or any
portion thereof) under a primary plan.
The United States may, in accordance
with paragraph (3)(A) collect double
damages against any such entity. In
addition, the United States may recover
under this clause from any entity that
has received payment from a primary
plan or from the proceeds of a primary
plan’s payment to any entity. The United
States may not recover from a thirdparty administrator under this clause in

86498 • SIMPSON • APPENDIX G

AL 4/5/21

113a
cases where the third-party administrator
would not be able to recover the amount
at issue from the employer or group
health plan and is not employed by or
under contract with the employer or
group health plan at the time the action
for recovery is initiated by the United
States or for whom it provides administrative services due to the insolvency or
bankruptcy of the employer or plan. An
action may not be brought by the United
States under this clause with respect to
payment owed unless the complaint is
filed not later than 3 years after the date
of the receipt of notice of a settlement,
judgment, award, or other payment made
pursuant to paragraph (8) relating to such
payment owed.
(iv) Subrogation rights
The United States shall be subrogated (to
the extent of payment made under this
subchapter for such an item or service) to
any right under this subsection of an
individual or any other entity to pay ment with respect to such item or service
under a primary plan.
(v) Waiver of rights
The Secretary may waive (in whole or in
part) the provisions of this subparagraph
in the case of an individual claim if the
Secretary determines that the waiver is
in the best interests of the program
established under this subchapter.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

114a
(vi) Claims-filing period
Notwithstanding any other time limits
that may exist for filing a claim under an
employer group health plan, the United
States may seek to recover conditional
payments in accordance with this subparagraph where the request for payment
is submitted to the entity required or
responsible under this subsection to pay
with respect to the item or service (or
any portion thereof) under a primary
plan within the 3-year period beginning
on the date on which the item or service
was furnished.
(vii) Use of website to determine
final conditional reimbursement
amount
(I) Notice to Secretary of
expected date of a settlement,
judgment, etc.
In the case of a payment made by the
Secretary pursuant to clause (i) for
items and services provided to the
claimant, the claimant or applicable
plan (as defined in paragraph (8)(F))
may at any time beginning 120 days
before the reasonably expected date
of a settlement, judgment, award, or
other payment, notify the Secretary
that a payment is reasonably expected
and the expected date of such payment.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

115a
(II) Secretarial4 providing access to
claims information through a
website
The Secretary shall maintain and
make available to individuals to
whom items and services are
furnished under this subchapter (and
to authorized family or other
representatives recognized under
regulations and to an applicable
plan which has obtained the consent
of the individual) access to
information on the claims for such
items and services (including
payment amounts for such claims),
including those claims that relate to
a potential settlement, judgment,
award, or other payment. Such
access shall be provided to an
individual, representative, or plan
through a website that requires a
password to gain access to the
information. The Secretary shall
update the information on claims
and payments on such website in as
timely a manner as possible but not
later than 15 days after the date
that payment is made. Information
related to claims and payments
subject to the notice under subclause
(I) shall be maintained and made
available consistent with the
following:
4

So in original.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

116a
(aa) The information shall be
as complete as possible and shall
include provider or supplier
name, diagnosis codes (if any),
dates of service, and conditional
payment amounts.
(bb) The information accu rately identifies those claims
and payments that are related
to a potential settlement, judgment, award, or other payment
to which the provisions of this
subsection apply.
(cc) The website provides a
method for the receipt of secure
electronic communications with
the individual, representative,
or plan involved.
(dd) The website provides that
information is transmitted from
the website in a form that
includes an official time and
date that the information is
transmitted.
(ee) The website shall permit
the individual, representative,
or plan to download a statement
of reimbursement amounts (in
this clause referred to as a
“state ment of reimbursement
amount”) on payments for
claims under this subchapter
relating to a potential settle -

86498 • SIMPSON • APPENDIX G

AL 4/5/21

117a
ment, judgment, award, or other
payment.
(III) Use of timely web down load as basis for final conditional
amount
If an individual (or other claimant or
applicable plan with the consent of
the individual) obtains a statement
of reimbursement amount from the
website during the protected period
as defined in subclause (V) and the
related settlement, judgment, award
or other payment is made during
such period, then the last statement
of reimbursement amount that is
downloaded during such period and
within 3 business days before the
date of the settlement, judgment,
award, or other payment shall
constitute the final conditional
amount subject to recovery under
clause (ii) related to such settlement,
judgment, award, or other payment.
(IV) Resolution of discrepancies
If the individual (or authorized
representative) believes there is a
discrepancy with the statement
of reimbursement amount, the
Secretary shall provide a timely
process to resolve the discrepancy.
Under such process the individual
(or representative) must provide
documentation explaining the
discrepancy and a proposal to

86498 • SIMPSON • APPENDIX G

AL 4/5/21

118a
resolve such discrepancy. Within 11
business days after the date of
receipt of such documentation, the
Secretary shall determine whether
there is a reasonable basis to include
or remove claims on the statement
of reimbursement. If the Secretary
does not make such determination
within the 11 business-day period,
then the proposal to resolve the
discrepancy shall be accepted. If the
Secretary determines within such
period that there is not a reasonable
basis to include or remove claims on
the statement of reimbursement, the
proposal shall be rejected. If the
Secretary determines within such
period that there is a reasonable
basis to conclude there is a dis crepancy, the Secretary must respond
in a timely manner by agreeing to
the proposal to resolve the discrepancy or by providing documentation
showing with good cause why the
Secretary is not agreeing to such
proposal and establishing an
alternate discrepancy resolution. In
no case shall the process under this
subclause be treated as an appeals
process or as establishing a right of
appeal for a statement of reimbursement amount and there shall be no
administrative or judicial review of
the Secretary’s determinations
under this subclause.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

119a
(V) Protected period
In subclause (III), the term
“protected period” means, with
respect to a settlement, judgment,
award or other payment relating to
an injury or incident, the portion (if
any) of the period beginning on the
date of notice under subclause (I)
with respect to such settlement,
judgment, award, or other payment
that is after the end of a Secretarial
response period beginning on the
date of such notice to the Secretary.
Such Secretarial response period
shall be a period of 65 days, except
that such period may be extended by
the Secretary for a period of an
additional 30 days if the Secretary
determines that additional time is
required to address claims for which
payment has been made. Such
Secretarial response period shall be
extended and shall not include any
days for any part of which the
Secretary determines (in accordance
with regulations) that there was a
failure in the claims and payment
posting system and the failure was
justified due to exceptional cir cumstances (as defined in such
regulations). Such regulations shall
define exceptional circumstances in a
manner so that not more than 1
percent of the repayment obligations

86498 • SIMPSON • APPENDIX G

AL 4/5/21

120a
under this subclause would qualify
as exceptional circumstances.
(VI) Effective date
The Secretary shall promulgate final
regulations to carry out this clause
not later than 9 months after
January 10, 2013.
(VII) Website including successor
technology
In this clause, the term “website”
includes any successor technology.
(viii) Right of appeal for secondary
payer determinations relating to
liability insurance (including selfinsurance), no fault insurance, and
workers’ compensation laws and
plans
The Secretary shall promulgate regulations establishing a right of appeal and
appeals process, with respect to any
determination under this subsection for
a payment made under this subchapter
for an item or service for which the
Secretary is seeking to recover condi tional payments from an applicable plan
(as defined in paragraph (8)(F)) that is a
primary plan under subsection (A)(ii),5
under which the applicable plan involved,
or an attorney, agent, or third party
administrator on behalf of such plan,
may appeal such determination. The
5

So in original. Probably should be “subparagraph (A)”.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

121a
individual furnished such an item or
service shall be notified of the plan’s
intent to appeal such determination.6
(C) Treatment of questionnaires
The Secretary may not fail to make payment
under subparagraph (A) solely on the ground
that an individual failed to complete a
questionnaire concerning the existence of a
primary plan.
(3) Enforcement
(A) Private cause of action
There is established a private cause of action
for damages (which shall be in an amount
double the amount otherwise provided) in the
case of a primary plan which fails to provide
for primary payment (or appropriate reimbursement) in accordance with paragraphs
(1) and (2)(A).
(B) Reference to excise tax with respect
to nonconforming group health plans
For provision imposing an excise tax with
respect to nonconforming group health plans,
see section 5000 of the Internal Revenue
Code of 1986.
(C) Prohibition of financial incentives
not to enroll in a group health plan or a
large group health plan
It is unlawful for an employer or other entity
to offer any financial or other incentive for an
individual entitled to benefits under this
6

So in original. Probably should be followed by a period.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

122a
subchapter not to enroll (or to terminate
enrollment) under a group health plan or a
large group health plan which would (in the
case of such enrollment) be a primary plan
(as defined in paragraph (2)(A)). Any entity
that violates the previous sentence is subject
to a civil money penalty of not to exceed
$5,000 for each such violation. The provisions
of section 1320a-7a of this title (other than
subsections (a) and (b)) shall apply to a civil
money penalty under the previous sentence in
the same manner as such provisions apply to
a penalty or proceeding under section 1320a7a(a) of this title.
(4) Coordination of benefits
Where payment for an item or service by a
primary plan is less than the amount of the
charge for such item or service and is not
payment in full, payment may be made under
this subchapter (without regard to deductibles
and coinsurance under this subchapter) for the
remainder of such charge, but—
(A) payment under this subchapter may not
exceed an amount which would be payable
under this subchapter for such item or service
if paragraph (2)(A) did not apply; and
(B) payment under this subchapter, when
combined with the amount payable under the
primary plan, may not exceed—
(i) in the case of an item or service
payment for which is determined under
this subchapter on the basis of reasonable cost (or other cost-related basis) or
under section 1395ww of this title, the

86498 • SIMPSON • APPENDIX G

AL 4/5/21

123a
amount which would be payable under
this subchapter on such basis, and
(ii) in the case of an item or service for
which payment is authorized under this
subchapter on another basis—
(I) the amount which would be
payable under the primary plan
(without regard to deductibles and
coinsurance under such plan), or
(II) the reasonable charge or other
amount which would be payable
under this subchapter (without
regard to deductibles and coinsurance under this subchapter),
whichever is greater.
(5) Identification of secondary payer
situations
(A) Requesting matching information
(i) Commissioner of Social Security
The Commissioner of Social Security
shall, not less often than annually,
transmit to the Secretary of the
Treasury a list of the names and TINs of
medicare beneficiaries (as defined in
section 6103(l)(12) of the Internal
Revenue Code of 1986) and request
that the Secretary disclose to the
Commissioner the information described
in subparagraph (A) of such section.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

124a
(ii) Administrator
The Administrator of the Centers for
Medicare & Medicaid Services shall
request, not less often than annually, the
Commissioner of the Social Security
Administration to disclose to the
Administrator the information described
in subparagraph (B) of section 6103(l)(12)
of the Internal Revenue Code of 1986.
(B) Disclosure to fiscal intermediaries
and carriers
In addition to any other information provided
under this subchapter to fiscal intermediaries
and carriers, the Administrator shall disclose
to such intermediaries and carriers (or to such
a single intermediary or carrier as the
Secretary may designate) the information
received under subparagraph (A) for purposes
of carrying out this subsection.
(C) Contacting employers
(i) In general
With respect to each individual (in this
subparagraph referred to as an “employee”)
who was furnished a written statement
under section 6051 of the Internal
Revenue Code of 1986 by a qualified
employer (as defined in section
6103(l)(12)(E)(iii) of such Code), as
disclosed under subparagraph (B), the
appropriate fiscal intermediary or carrier
shall contact the employer in order to
determine during what period the
employee or employee’s spouse may be

86498 • SIMPSON • APPENDIX G

AL 4/5/21

125a
(or have been) covered under a group
health plan of the employer and the
nature of the coverage that is or was
provided under the plan (including the
name, address, and identifying number
of the plan).
(ii) Employer response
Within 30 days of the date of receipt of
the inquiry, the employer shall notify the
intermediary or carrier making the
inquiry as to the determinations
described in clause (i). An employer
(other than a Federal or other governmental entity) who willfully or repeatedly
fails to provide timely and accurate
notice in accordance with the previous
sentence shall be subject to a civil money
penalty of not to exceed $1,000 for each
individual with respect to which such an
inquiry is made. The provisions of
section 1320a-7a of this title (other than
subsections (a) and (b)) shall apply to a
civil money penalty under the previous
sentence in the same manner as such
provisions apply to a penalty or proceeding
under section 1320a-7a(a) of this title.
(D) Obtaining
beneficiaries

information

from

Before an individual applies for benefits
under part A or enrolls under part B, the
Administrator shall mail the individual a
questionnaire to obtain information on
whether the individual is covered under a
primary plan and the nature of the coverage

86498 • SIMPSON • APPENDIX G

AL 4/5/21

126a
provided under the plan, including the name,
address, and identifying number of the plan.
(E) End date
The provisions of this paragraph shall not
apply to information required to be provided
on or after July 1, 2016.
(6) Screening requirements for providers
and suppliers
(A) In general
Notwithstanding any other provision of this
subchapter, no payment may be made for any
item or service furnished under part B unless
the entity furnishing such item or service
completes (to the best of its knowledge and
on the basis of information obtained from the
individual to whom the item or service is
furnished) the portion of the claim form
relating to the availability of other health
benefit plans.
(B) Penalties
An entity that knowingly, willfully, and
repeatedly fails to complete a claim form in
accordance with subparagraph (A) or
provides inaccurate information relating to
the availability of other health benefit plans
on a claim form under such subparagraph
shall be subject to a civil money penalty of
not to exceed $2,000 for each such incident.
The provisions of section 1320a-7a of this
title (other than subsections (a) and (b)) shall
apply to a civil money penalty under the
previous sentence in the same manner as
such provisions apply to a penalty or

86498 • SIMPSON • APPENDIX G

AL 4/5/21

127a
proceeding under section 1320a-7a(a) of this
title.
(7) Required submission of information by
group health plans
(A) Requirement
On and after the first day of the first
calendar quarter beginning after the date
that is 1 year after December 29, 2007, an
entity serving as an insurer or third party
administrator for a group health plan, as
defined in paragraph (1)(A)(v), and, in the
case of a group health plan that is selfinsured and self-administered, a plan
administrator or fiduciary, shall—
(i) secure from the plan sponsor and
plan participants such information as the
Secretary shall specify for the purpose of
identifying situations where the group
health plan is or has been—
(I) a primary plan to the program
under this subchapter; or
(II) for calendar quarters beginning
on or after January 1, 2020, a
primary payer with respect to
benefits relating to prescription drug
coverage under part D; and
(ii) submit such information to the
Secretary in a form and manner
(including frequency) specified by the
Secretary.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

128a
(B) Enforcement
(i) In general
An entity, a plan administrator, or a
fiduciary described in subparagraph (A)
that fails to comply with the requirements
under such subparagraph shall be subject
to a civil money penalty of $1,000 for each
day of noncompliance for each individual
for which the information under such
subparagraph should have been sub mitted. The provisions of subsections (e)
and (k) of section 1320a-7a of this title
shall apply to a civil money penalty under
the previous sentence in the same manner
as such provisions apply to a penalty or
proceeding under section 1320a-7a(a) of
this title. A civil money penalty under
this clause shall be in addition to any
other penalties prescribed by law and in
addition to any Medicare secondary
payer claim under this subchapter with
respect to an individual.
(ii) Deposit of amounts collected
Any amounts collected pursuant to
clause (i) shall be deposited in the
Federal Hospital Insurance Trust Fund
under section 1395i of this title.
(C) Sharing of information
Notwithstanding any other provision of law,
under terms and conditions established by
the Secretary, the Secretary—
(i) shall share information on entitle ment under part A and enrollment under

86498 • SIMPSON • APPENDIX G

AL 4/5/21

129a
part B under this subchapter with entities,
plan administrators, and fiduciaries
described in subparagraph (A);
(ii) may share the entitlement and
enrollment information described in
clause (i) with entities and persons not
described in such clause; and
(iii) may share information collected
under this paragraph as necessary for
purposes of the proper coordination of
benefits.
(D) Implementation
Notwithstanding any other provision of law,
the Secretary may implement this para graph by program instruction or otherwise.
(8) Required submission of information by
or on behalf of liability insurance (including self-insurance), no fault insurance, and
workers’ compensation laws and plans
(A) Requirement
On and after the first day of the first
calendar quarter beginning after the date
that is 18 months after December 29, 2007,
an applicable plan shall—
(i) determine whether a claimant
(including an individual whose claim is
unresolved) is entitled to benefits under
the program under this subchapter on
any basis; and
(ii) if the claimant is determined to be so
entitled, submit the information described
in subparagraph (B) with respect to the

86498 • SIMPSON • APPENDIX G

AL 4/5/21

130a
claimant to the Secretary in a form and
manner (including frequency) specified
by the Secretary.
(B) Required information
The information described in this subparagraph is—
(i) the identity of the claimant for which
the determination under subparagraph
(A) was made; and
(ii) such other information as the
Secretary shall specify in order to enable
the Secretary to make an appropriate
determination concerning coordination of
benefits, including any applicable recovery
claim.
Not later than 18 months after January
10, 2013, the Secretary shall modify the
reporting requirements under this
paragraph so that an applicable plan in
complying with such requirements is
permitted but not required to access or
report to the Secretary beneficiary social
security account numbers or health
identification claim numbers, except that
the deadline for such modification shall be
extended by one or more periods (specified
by the Secretary) of up to 1 year each
if the Secretary notifies the committees
of jurisdiction of the House of
Representatives and of the Senate that
the prior deadline for such modification,
without such extension, threatens
patient privacy or the integrity of the
secondary payer program under this

86498 • SIMPSON • APPENDIX G

AL 4/5/21

131a
subsection. Any such deadline extension
notice shall include information on the
progress being made in implementing
such modification and the anticipated
implementation date for such modification.
(C) Timing
Information shall be submitted under subparagraph (A)(ii) within a time specified by
the Secretary after the claim is resolved
through a settlement, judgment, award, or
other payment (regardless of whether or not
there is a determination or admission of
liability).
(D) Claimant
For purposes of subparagraph (A), the term
“claimant” includes—
(i) an individual filing a claim directly
against the applicable plan; and
(ii) an individual filing a claim against
an individual or entity insured or
covered by the applicable plan.
(E) Enforcement
(i) In general
An applicable plan that fails to comply
with the requirements under subparagraph (A) with respect to any claimant
may be subject to a civil money penalty
of up to $1,000 for each day of non compliance with respect to each claimant.
The provisions of subsections (e) and (k)
of section 1320a-7a of this title shall
apply to a civil money penalty under the

86498 • SIMPSON • APPENDIX G

AL 4/5/21

132a
previous sentence in the same manner
as such provisions apply to a penalty or
proceeding under section 1320a-7a(a) of
this title. A civil money penalty under
this clause shall be in addition to any
other penalties prescribed by law and in
addition to any Medicare secondary
payer claim under this subchapter with
respect to an individual.
(ii) Deposit of amounts collected
Any amounts collected pursuant to
clause (i) shall be deposited in the
Federal Hospital Insurance Trust Fund.
(F) Applicable plan
In this paragraph, the term “applicable plan”
means the following laws, plans, or other
arrange ments, including the fiduciary or
administrator for such law, plan, or arrangement:
(i) Liability insurance (including selfinsurance).
(ii) No fault insurance.
(iii) Workers’ compensation laws or
plans.
(G) Sharing of information
(i) In general
The Secretary may share information
collected under this paragraph as
necessary for purposes of the proper
coordination of benefits.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

133a
(ii) Specified information
In responding to any query made on or
after the date that is 1 year after
December 11, 2020 from an applicable
plan related to a determination described
in subparagraph (A)(i), the Secretary,
notwithstanding any other provision of
law, shall provide to such applicable
plan—
(I) whether a claimant subject to
the query is, or during the preceding
3-year period has been, entitled to
benefits under the program under
this title on any basis; and
(II) to the extent applicable, the
plan name and address of any
Medicare Advantage plan under
part C and any prescription drug
plan under part D in which the
claimant is enrolled or has been
enrolled during such period.
(H) Implementation
Notwithstanding any other provision of law,
the Secretary may implement this para graph by program instruction or otherwise.
(I) Regulations
Not later than 60 days after January 10,
2013, the Secretary shall publish a notice in
the Federal Register soliciting proposals,
which will be accepted during a 60-day
period, for the specification of practices for
which sanctions will and will not be imposed
under subparagraph (E), including not

86498 • SIMPSON • APPENDIX G

AL 4/5/21

134a
imposing sanctions for good faith efforts to
identify a beneficiary pursuant to this
paragraph under an applicable entity
responsible for reporting information. After
considering the proposals so submitted, the
Secretary, in consultation with the Attorney
General, shall publish in the Federal
Register, including a 60-day period for
comment, proposed specified practices for
which such sanctions will and will not be
imposed. After considering any public
comments received during such period, the
Secretary shall issue final rules specifying
such practices.
(9) Exception
(A) In general
Clause (ii) of paragraph (2)(B) and any
reporting required by paragraph (8) shall not
apply with respect to any settlement,
judgment, award, or other payment by an
applicable plan arising from liability
insurance (including self-insurance) and from
alleged physical trauma-based incidents
(excluding alleged ingestion, implantation, or
exposure cases) constituting a total payment
obligation to a claimant of not more than the
single threshold amount calculated by the
Secretary under subparagraph (B) for the
year involved.
(B) Annual computation of threshold
(i) In general
Not later than November 15 before
each year, the Secretary shall calculate

86498 • SIMPSON • APPENDIX G

AL 4/5/21

135a
and publish a single threshold amount
for settlements, judgments, awards, or
other payments for obligations arising
from liability insurance (including selfinsurance) and for alleged physical
trauma-based incidents (excluding
alleged ingestion, implantation, or
exposure cases) subject to this section for
that year. The annual single threshold
amount for a year shall be set such that
the estimated average amount to be
credited to the Medicare trust funds of
collections of conditional payments from
such settlements, judgments, awards, or
other payments arising from liability
insurance (including self-insurance) and
for such alleged incidents subject to this
section shall equal the estimated cost of
collection incurred by the United States
(including payments made to contrac tors) for a conditional payment arising
from liability insurance (including selfinsurance) and for such alleged incidents
subject to this section for the year. At the
time of calculating, but before publishing,
the single threshold amount for 2014, the
Secretary shall inform, and seek review
of, the Comptroller General of the United
States with regard to such amount.
(ii) Publication
The Secretary shall include, as part of
such publication for a year—
(I) the estimated cost of collection
incurred by the United States

86498 • SIMPSON • APPENDIX G

AL 4/5/21

136a
(including payments made to contractors) for a conditional payment
arising from liability insurance
(including self-insurance) and for
such alleged incidents; and
(II) a summary of the methodology
and data used by the Secretary in
computing such threshold amount
and such cost of collection.
(C) Exclusion of ongoing expenses
For purposes of this paragraph and with
respect to a settlement, judgment, award, or
other payment not otherwise addressed in
clause (ii) of paragraph (2)(B) that includes
ongoing responsibility for medical payments
(excluding settlements, judgments, awards,
or other payments made by a workers’ compensation law or plan or no fault insurance),
the amount utilized for calculation of the
threshold described in subparagraph (A)
shall include only the cumulative value of the
medical payments made under this subchapter.
(D) Report to Congress
Not later than November 15 before each
year, the Secretary shall submit to the
Congress a report on the single threshold
amount for settlements, judgments, awards,
or other payments for conditional payment
obligations arising from liability insurance
(including self-insurance) and alleged
incidents described in subparagraph (A) for
that year and on the establishment and
application of similar thresholds for such

86498 • SIMPSON • APPENDIX G

AL 4/5/21

137a
payments for conditional payment obligations
arising from worker compensation cases and
from no fault insurance cases subject to this
section for the year. For each such report, the
Secretary shall—
(i) calculate the threshold amount by
using the methodology applicable to
certain liability claims described in
subparagraph (B); and
(ii) include a summary of the methodology and data used in calculating each
threshold amount and the amount of
estimated savings under this subchapter
achieved by the Secretary implementing
each such threshold.
(c) Drug products
No payment may be made under part B for any
expenses incurred for—
(1) a drug product—
(A) which is described in section 107(c)(3) of
the Drug Amendments of 1962,
(B) which may be dispensed only upon
prescription,
(C) for which the Secretary has issued a
notice of an opportunity for a hearing under
subsection (e) of section 355 of Title 21 on a
proposed order of the Secretary to withdraw
approval of an application for such drug
product under such section because the
Secretary has determined that the drug is less
than effective for all conditions of use
prescribed, recommended, or suggested in its
labeling, and

86498 • SIMPSON • APPENDIX G

AL 4/5/21

138a
(D) for which the Secretary has not determined there is a compelling justification for
its medical need; and
(2) any other drug product—
(A) which is identical, related, or similar (as
determined in accordance with section 310.6
of title 21 of the Code of Federal Regulations)
to a drug product described in paragraph (1),
and
(B) for which the Secretary has not determined there is a compelling justification for
its medical need,
until such time as the Secretary withdraws
such proposed order.
(d) Items or services provided for emergency
medical conditions
For purposes of subsection (a)(1)(A), in the case of
any item or service that is required to be provided
pursuant to section 1395dd of this title to an
individual who is entitled to benefits under this
subchapter, determinations as to whether the
item or service is reasonable and necessary shall
be made on the basis of the information available
to the treating physician or practitioner (including the patient’s presenting symptoms or
complaint) at the time the item or service was
ordered or furnished by the physician or
practitioner (and not on the patient’s principal
diagnosis). When making such determinations
with respect to such an item or service, the
Secretary shall not consider the frequency with
which the item or service was provided to the
patient before or after the time of the admission
or visit.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

139a
(e) Item or service by excluded individual or
entity or at direction of excluded physician;
limitation of liability of beneficiaries with
respect to services furnished by excluded
individuals and entities
(1) No payment may be made under this
subchapter with respect to any item or service
(other than an emergency item or service, not
including items or services furnished in an
emergency room of a hospital) furnished—
(A) by an individual or entity during the
period when such individual or entity is
excluded pursuant to section 1320a-7, 1320a7a, 1320c-5 or 1395u(j)(2) of this title from
participation in the program under this
subchapter; or
(B) at the medical direction or on the
prescription of a physician during the period
when he is excluded pursuant to section
1320a-7, 1320a-7a, 1320c-5 or 1395u(j)(2) of
this title from participation in the program
under this subchapter and when the person
furnishing such item or service knew or had
reason to know of the exclusion (after a
reasonable time period after reasonable
notice has been furnished to the person).
(2) Where an individual eligible for benefits
under this subchapter submits a claim for
payment for items or services furnished by an
individual or entity excluded from participation
in the programs under this subchapter, pursuant
to section 1320a-7, 1320a-7a, 1320c-5, 1320c-9
(as in effect on September 2, 1982), 1395u(j)(2),
1395y(d) (as in effect on August 18, 1987), or

86498 • SIMPSON • APPENDIX G

AL 4/5/21

140a
1395cc of this title, and such beneficiary did not
know or have reason to know that such
individual or entity was so excluded, then, to the
extent permitted by this subchapter, and
notwithstanding such exclusion, payment shall
be made for such items or services. In each such
case the Secretary shall notify the beneficiary of
the exclusion of the individual or entity
furnishing the items or services. Payment shall
not be made for items or services furnished by an
excluded individual or entity to a beneficiary
after a reasonable time (as determined by the
Secretary in regulations) after the Secretary has
notified the beneficiary of the exclusion of that
individual or entity.
(f) Utilization guidelines for provision of home
health services
The Secretary shall establish utilization
guidelines for the determination of whether or
not payment may be made, consistent with
paragraph (1)(A) of subsection (a), under part A
or part B for expenses incurred with respect to
the provision of home health services, and shall
provide for the implementation of such guidelines
through a process of selective postpayment
coverage review by intermediaries or otherwise.
(g) Contracts with quality improvement
organizations
The Secretary shall, in making the determinations under paragraphs (1) and (9) of subsection
(a), and for the purposes of promoting the effective,
efficient, and economical delivery of health care
services, and of promoting the quality of services
of the type for which payment may be made

86498 • SIMPSON • APPENDIX G

AL 4/5/21

141a
under this subchapter, enter into contracts with
quality improvement organizations pursuant to
part B of subchapter XI of this chapter.
(h) Waiver of electronic form requirement
(1) The Secretary—
(A) shall waive the application of subsection
(a)(22) in cases in which—
(i) there is no method available for the
submission of claims in an electronic
form; or
(ii) the entity submitting the claim is a
small provider of services or supplier;
and
(B) may waive the application of such
subsection in such unusual cases as the
Secretary finds appropriate.
(2) For purposes of this subsection, the term
“small provider of services or supplier” means—
(A) a provider of services with fewer than 25
full-time equivalent employees; or
(B) a physician, practitioner, facility, or
supplier (other than provider of services)
with fewer than 10 full-time equivalent
employees.
(i) Awards and contracts for original research
and experimentation of new and existing
medical procedures; conditions
In order to supplement the activities of the
Medicare Payment Advisory Commission under
section 1395ww(e) of this title in assessing the
safety, efficacy, and cost-effectiveness of new and

86498 • SIMPSON • APPENDIX G

AL 4/5/21

142a
existing medical procedures, the Secretary may
carry out, or award grants or contracts for,
original research and experimentation of the
type described in clause (ii) of section 1395ww(e)
(6)(E) of this title with respect to such a
procedure if the Secretary finds that—
(1) such procedure is not of sufficient commercial
value to justify research and experimentation by a
commercial organization;
(2) research and experimentation with respect
to such procedure is not of a type that may
appropriately be carried out by an institute,
division, or bureau of the National Institutes of
Health; and
(3) such procedure has the potential to be more
cost-effective in the treatment of a condition
than procedures currently in use with respect to
such condition.
(j) Nonvoting members and experts
(1) Any advisory committee appointed to advise
the Secretary on matters relating to the
interpretation, application, or implementation of
subsection (a)(1) shall assure the full participation
of a nonvoting member in the deliberations of the
advisory committee, and shall provide such
nonvoting member access to all information and
data made available to voting members of the
advisory committee, other than information
that—
(A) is exempt from disclosure pursuant to
subsection (a) of section 552 of Title 5 by
reason of subsection (b)(4) of such section
(relating to trade secrets); or

86498 • SIMPSON • APPENDIX G

AL 4/5/21

143a
(B) the Secretary determines would present
a conflict of interest relating to such
nonvoting member.
(2) If an advisory committee described in
paragraph (1) organizes into panels of experts
according to types of items or services considered
by the advisory committee, any such panel of
experts may report any recommendation with
respect to such items or services directly to the
Secretary without the prior approval of the
advisory committee or an executive committee
thereof.
(k) Dental benefits under group health plans
(1) Subject to paragraph (2), a group health plan
(as defined in subsection (a)(1)(A)(v)7) providing
supplemental or secondary coverage to
individuals also entitled to services under this
subchapter shall not require a medicare claims
determination under this subchapter for dental
benefits specifically excluded under subsection
(a)(12) as a condition of making a claims
determination for such benefits under the
group health plan.
(2) A group health plan may require a claims
determination under this subchapter in cases
involving or appearing to involve inpatient
dental hospital services or dental services
expressly covered under this subchapter
pursuant to actions taken by the Secretary.

7

So in original. Probably should be “(b)(1)(A)(v)”.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

144a
(l) National and local coverage determination
process
(1) Factors and evidence used in making
national coverage determinations
The Secretary shall make available to the public
the factors considered in making national
coverage determinations of whether an item or
service is reasonable and necessary. The
Secretary shall develop guidance documents to
carry out this paragraph in a manner similar to
the development of guidance documents under
section 371(h) of Title 21.
(2) Timeframe for decisions on requests for
national coverage determinations
In the case of a request for a national coverage
determination that—
(A) does not require a technology assessment
from an outside entity or deliberation from
the Medicare Coverage Advisory Committee,
the decision on the request shall be made not
later than 6 months after the date of the
request; or
(B) requires such an assessment or deliberation and in which a clinical trial is not
requested, the decision on the request shall
be made not later than 9 months after the
date of the request.
(3) Process for public comment in national
coverage determinations
(A) Period for proposed decision
Not later than the end of the 6-month period
(or 9-month period for requests described in

86498 • SIMPSON • APPENDIX G

AL 4/5/21

145a
paragraph (2)(B)) that begins on the date a
request for a national coverage determination
is made, the Secretary shall make a draft of
proposed decision on the request available to
the public through the Internet website of
the Centers for Medicare & Medicaid
Services or other appropriate means.
(B) 30-day period for public comment
Beginning on the date the Secretary makes a
draft of the proposed decision available under
subparagraph (A), the Secretary shall provide
a 30-day period for public comment on such
draft.
(C) 60-day period for final decision
Not later than 60 days after the conclusion of
the 30-day period referred to under subparagraph (B), the Secretary shall—
(i) make a final decision on the request;
(ii) include in such final decision
summaries of the public comments
received and responses to such
comments;
(iii) make available to the public the
clinical evidence and other data used in
making such a decision when the
decision differs from the recommendations of the Medicare Coverage Advisory
Committee; and
(iv) in the case of a final decision under
clause (i) to grant the request for the
national coverage determination, the
Secretary shall assign a temporary or

86498 • SIMPSON • APPENDIX G

AL 4/5/21

146a
permanent code (whether existing or
unclassified) and implement the coding
change.
(4) Consultation with outside experts in
certain national coverage determinations
With respect to a request for a national coverage
determination for which there is not a review by
the Medicare Coverage Advisory Committee, the
Secretary shall consult with appropriate outside
clinical experts.
(5) Local coverage determination process
(A) Plan to promote consistency of
coverage determinations
The Secretary shall develop a plan to evaluate
new local coverage determinations to
determine which determinations should be
adopted nationally and to what extent
greater consistency can be achieved among
local coverage determinations.
(B) Consultation
The Secretary shall require the fiscal
intermediaries or carriers providing services
within the same area to consult on all new
local coverage determinations within the
area.
(C) Dissemination of information
The Secretary should serve as a center to
disseminate information on local coverage
determinations among fiscal intermediaries
and carriers to reduce duplication of effort.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

147a
(D) Local coverage determinations
The Secretary shall require each Medicare
administrative contractor that develops a
local coverage determination to make
available on the Internet website of such
contractor and on the Medicare Internet
website, at least 45 days before the effective
date of such determination, the following
information:
(i) Such determination in its entirety.
(ii) Where and when the proposed
determination was first made public.
(iii) Hyperlinks to the proposed determina tion and a response to comments
submitted to the contractor with respect
to such proposed determination.
(iv) A summary of evidence that was
considered by the contractor during the
development of such determination and
a list of the sources of such evidence.
(v) An explanation of the rationale that
supports such determination.
(6) National and local coverage determination defined
For purposes of this subsection—
(A) National coverage determination
The term “national coverage determination”
means a determination by the Secretary
with respect to whether or not a particular
item or service is covered nationally under
this subchapter.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

148a
(B) Local coverage determination
The term “local coverage determination”
has the meaning given that in section
1395ff(f)(2)(B) of this title.
(m) Coverage of routine costs associated with
certain clinical trials of category A devices
(1) In general
In the case of an individual entitled to benefits
under part A, or enrolled under part B, or both
who participates in a category A clinical trial,
the Secretary shall not exclude under subsection
(a)(1) payment for coverage of routine costs of
care (as defined by the Secretary) furnished to
such individual in the trial.
(2) Category A clinical trial
For purposes of paragraph (1), a “category A
clinical trial” means a trial of a medical device
if—
(A) the trial is of an experimental/
investigational (category A) medical device
(as defined in regulations under section
405.201(b) of title 42, Code of Federal
Regulations (as in effect as of September 1,
2003));
(B) the trial meets criteria established by the
Secretary to ensure that the trial conforms to
appropriate scientific and ethical standards;
and
(C) in the case of a trial initiated before
January 1, 2010, the device involved in the
trial has been determined by the Secretary to
be intended for use in the diagnosis,

86498 • SIMPSON • APPENDIX G

AL 4/5/21

149a
monitoring, or treatment of an immediately
life-threatening disease or condition.
(n) Requirement of a surety bond for certain
providers of services and suppliers
(1) In general
The Secretary may require a provider of services
or supplier described in paragraph (2) to provide
the Secretary on a continuing basis with a surety
bond in a form specified by the Secretary in an
amount (not less than $50,000) that the Secretary
determines is commensurate with the volume of
the billing of the provider of services or supplier.
The Secretary may waive the requirement of a
bond under the preceding sentence in the case of
a provider of services or supplier that provides a
comparable surety bond under State law.
(2) Provider of services or supplier
described
A provider of services or supplier described in
this paragraph is a provider of services or
supplier the Secretary determines appropriate
based on the level of risk involved with respect to
the provider of services or supplier, and consistent
with the surety bond requirements under
sections 1395m(a)(16)(B) and 1395x(o)(7)(C) of
this title.
(o) Suspension of payments pending
investigation of credible allegations of fraud
(1) In general
The Secretary may suspend payments to a
provider of services or supplier under this
subchapter pending an investigation of a

86498 • SIMPSON • APPENDIX G

AL 4/5/21

150a
credible allegation of fraud against the provider
of services or supplier, unless the Secretary
determines there is good cause not to suspend
such payments.
(2) Consultation
The Secretary shall consult with the Inspector
General of the Department of Health and
Human Services in determining whether there is
a credible allegation of fraud against a provider
of services or supplier.
(3) Promulgation of regulations
The Secretary shall promulgate regulations to
carry out this subsection, section 1395w112(b)(7) of this title (including as applied
pursuant to section 1395w-27(f)(3)(D) of this
title), and section 1396b(i)(2)(C) of this title.
(4) Credible allegation of fraud
In carrying out this subsection, section 1395w112(b)(7) of this title (including as applied
pursuant to section 1395w-27(f)(3)(D) of this
title), and section 1396b(i)(2)(C) of this title, a
fraud hotline tip (as defined by the Secretary)
without further evidence shall not be treated as
sufficient evidence for a credible allegation of
fraud.

86498 • SIMPSON • APPENDIX G

AL 4/5/21

